<html>
<title> - WEST COAST AND WESTERN PACIFIC PERSPECTIVES ON MAGNUSON-STEVENS ACT REAUTHORIZATION</title>
<body><pre>[Senate Hearing 113-717]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-717
 
                     WEST COAST AND WESTERN PACIFIC
          PERSPECTIVES ON MAGNUSON-STEVENS ACT REAUTHORIZATION

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 30, 2014

                               __________

    Printed for the use of the Committee on Commerce, Science, and Transportation
    
    
    
                             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]               
 
 
 
 
                           U.S. GOVERNMENT PUBLISHING OFFICE
 96-038 PDF                        WASHINGTON : 2015       
 _________________________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
       Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
      Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001

                             
                             
                             


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK BEGICH, Alaska                  DAN COATS, Indiana
RICHARD BLUMENTHAL, Connecticut      TIM SCOTT, South Carolina
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
EDWARD MARKEY, Massachusetts         DEB FISCHER, Nebraska
CORY BOOKER, New Jersey              RON JOHNSON, Wisconsin
JOHN E. WALSH, Montana
                    Ellen L. Doneski, Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

            SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, 
                            AND COAST GUARD

MARK BEGICH, Alaska, Chairman        MARCO RUBIO, Florida, Ranking 
BILL NELSON, Florida                     Member
MARIA CANTWELL, Washington           ROGER F. WICKER, Mississippi
RICHARD BLUMENTHAL, Connecticut      KELLY AYOTTE, New Hampshire
BRIAN SCHATZ, Hawaii                 DAN COATS, Indiana
EDWARD MARKEY, Massachusetts         TIM SCOTT, South Carolina
CORY BOOKER, New Jersey              TED CRUZ, Texas




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 30, 2014.................................     1
Statement of Senator Begich......................................     1
Statement of Senator Rubio.......................................     2
Statement of Senator Schatz......................................     3
Statement of Senator Cantwell....................................    38

                               Witnesses

Will Stelle, West Coast Regional Administrator, National Marine 
  Fisheries Service, National Oceanic and Atmospheric 
  Administration, U.S. Department of Commerce....................     4
    Prepared statement...........................................     6
Dr. Donald McIsaac, Executive Director, Pacific Fishery 
  Management Council.............................................    13
    Prepared statement...........................................    16
Arnold Palacios, Chair, Western Pacific Regional Fishery 
  Management Council.............................................    19
    Prepared statement...........................................    21
Mel Moon, Director, Quileute Natural Resources, Quileute Tribe, 
  La Push, Washington............................................    34
    Prepared statement...........................................    35
Michael Goto, Representative, Hawaii-Based Longline Fishery......    41
    Prepared statement...........................................    43
Michael Gravitz, Director of Policy and Legislation, Marine 
  Conservation Institute.........................................    48
    Prepared statement...........................................    50
Ray Toste, President and General Manager, Washington Dungeness 
  Crab Fishermen's Association...................................    58
    Prepared statement...........................................    60
Joe Dazey, Executive Director, Washington Trollers Association...    62
    Prepared statement...........................................    64
Trevor A. Branch, Ph.D., Assistant Professor, School of Aquatic 
  and Fishery Sciences, College of the Environment, University of 
  Washington.....................................................    65
    Prepared statement...........................................    66

                                Appendix

Response to written questions submitted by Hon. Marco Rubio to:
    Will Stelle..................................................    73
    Dr. Donald McIsaac...........................................    74
    Arnold Palacios..............................................    76
    Joe Dazey....................................................    77


                     WEST COAST AND WESTERN PACIFIC



          PERSPECTIVES ON MAGNUSON-STEVENS ACT REAUTHORIZATION

                              ----------                              


                       THURSDAY, JANUARY 30, 2014

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:06 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Mark Begich, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. This hearing is called to order.
    Welcome to all the witnesses and other guests to this 
hearing of the Senate Commerce Subcommittee on Oceans, 
Atmosphere, Fisheries, and Coast Guard. This hearing marks the 
third in a series of hearings we are holding on the 
Reauthorization of the Magnuson-Stevens Fisheries Conservation 
and Management Act.
    Today, we are focusing on the perspectives of the Pacific 
and the West Pacific regions. We intend to hold one more such 
hearing, in late February, in focusing on the North Pacific 
region encompassing my home state of Alaska.
    The Magnuson-Stevens Act, or MSA, named after two forward-
thinking members of this committee, provides the architectural 
framework for the conservation and management of the Nation's 
fisheries. MSA was last reauthorized in 2006, at which time 
significant improvements were made; most notably, the 
requirement that fishery management plans include annual catch 
limits and measures to ensure accountability if those limits 
are exceeded.
    Another important improvement is the requirement that catch 
limits not exceed the fisheries levels recommended by the 
counsels, by their scientific and statistical committees. 
Provisions also provided fishermen and the counsel with new 
management tools to rationalize fisheries if they wish to do 
so. These reforms, combined with the rebuilding plan 
requirements added to the Act in 1996, have put us on a firm 
footing for the sustainable management of our fisheries 
resources.
    Many now argue that finfish and shellfish caught under a 
Federal fisheries management plan are, by definition, 
sustainably caught. The 2006 reauthorization also made 
important changes to the MSA aimed at improving the accuracy 
and reliability of data on recreational fishing activities so 
we can better manage fisheries that support charter and private 
recreational fishing, as well as commercial fishing.
    This included the authorization of the new Marine 
Recreational Information Program and the National Saltwater 
Angler Registry. That said, implementing these reforms has not 
been easy. This should be no surprise because fish issues have 
never been easy. It has been said fisheries management isn't 
rocket science, it's actually more difficult. At least rockets 
follow the laws of physics, fish don't know calculus. Our 
challenge today is how to properly balance the need for 
responsible stewardship of our fisheries for future generations 
with the need of individuals, businesses and communities who 
rely on them.
    Today, we will hear testimony from two distinguished panels 
of witnesses regarding MSA Reauthorization from the perspective 
of the Pacific and West Pacific, specifically addressing 
management issues in Washington, Oregon, California, Hawaii, 
and our nations and shore areas in the West Pacific.
    We hope to learn more about the impacts the MSA is having 
on these regions' important fisheries, individuals, businesses, 
and communities who depend on them and how it all, in fact, can 
be improved. I look forward to hearing from our witnesses today 
about how these changes and updates to MSA are being 
implemented and what effects they're having.
    As we get ready here before the testimony, I will say 
Senator Rubio is on his way and I may interrupt the sequences 
of testimony to allow him to do his opening. But let me also--
look at that. I was trying to buy just a little bit of time.
    [Laughter.]
    Senator Begich. Timing is everything but let me, before I 
have the Ranking Member, Senator Rubio, make his opening, let 
me also say, as I said, this will be--we have one more hearing 
in this series that we've done in regards to the MSA 
Reauthorization. Once we are completed, we are trying to focus 
on the first part, the first week of March, to lay down a bill 
that would be a framework bill that would start us in the 
process of moving forward based on all the input that we have 
collected. We've tried to do this a little differently. Instead 
of laying a bill down and then having the hearings, we've tried 
to have the hearings to get input, and then craft a bill that 
recognizes these responses and also the interests that people 
might have.
    So we're looking forward to that. And again, we're trying 
to shoot for the first week of March for people who are 
thinking of the timetable here.
    So thank you very much.
    Let me now introduce Senator Rubio, the Ranking Member from 
Florida, to say a few comments and then we'll go right into the 
testimony.
    Thank you.

                STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you.
    And I apologize for being late, but thank you for holding 
this hearing. I'm going to keep my statement rather brief 
because there might be members here that have a bigger focus 
given where they're located on the Pacific and West Pacific's 
fisheries. These fisheries I know admittedly less about, I know 
a lot more about the Atlantic side of the equation. But after 
reviewing some of the testimony of our witnesses, the common 
themes in reforming Magnuson are echoed again.
    We've heard from people, both in the Gulf and in the South 
Atlantic, as well as the Northeast and the Mid-Atlantic, that 
greater flexibility and rebuilding timelines is a necessary 
reform in the next reauthorization. We've also heard the common 
struggles in managing data-poor stocks and the need, not only 
to address the shortcomings in our data, but also the need to 
remove annual catch limits where appropriate.
    Several of our witnesses here today will raise that theme 
as well. So apparently it remains true that in every region 
these are issues. In addition to that, every region has its own 
unique issues. For example, tribal participation in fishery 
management is prevalent, particularly in the Pacific and I'm 
grateful to learn more about that relationship between the 
tribes and the state and Federal Governments and how that 
relationship can be possibly improved in the next 
reauthorization.
    Additionally, the Pacific fisheries have a larger 
international component that presents unique challenges in 
management. So I think that's a unique aspect of it as well.
    And finally, the concept of ecosystem management is more 
realized in the Pacific and in the Western Pacific. And today, 
we'll hear firsthand the challenges that are presented by that 
management style.
    Now, I have a conflicting hearing in Foreign Relations on 
proliferation, so I'm going to try to balance that. They don't 
coordinate the meetings around here all that well in terms of 
that. But I do appreciate today's testimony. I've read most of 
it and I certainly hope it will inform us as we move one step 
closer to the reauthorization.
    So, thank you.
    Senator Begich. Thank you very much, Senator Rubio.
    And let me ask Senator Schatz from Hawaii if he wants to 
give an opening and then we'll go to testimony.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you very much, Chair Begich and 
Ranking Member Rubio, for having this important hearing.
    I want to thank Arnold Palacios and Michael Goto for coming 
from Hawaii and from the Pacific to testify; to West Pac, for 
their assisting in preparation; and to Mike Gravitz and MCI.
    Mr. Chairman, I'd like to congratulate the U.S. fishermen, 
NOAA Fisheries and environmental organizations. Under the 
current version of MSA, they've worked together to make 
American fisheries management the gold standard for the world. 
And we are seeing the measurable success of our policies.
    According to NOAA Fisheries' most recent Status of Stocks 
Report from 2013, 10 percent of stocks are on the subject to 
overfishing lists compared with 14 percent in 2011. Nineteen 
percent are on the overfished list, compared with 21 percent in 
2011. Six stocks, managed under rebuilding plans, have rebuilt 
to their target levels bringing the total number of rebuilt 
stocks to 32 since the year 2000.
    We all know that the news is not all good, however. 
Although ten stocks were removed from the subject to 
overfishing list, three stocks were added. Similarly, while 
four stocks were removed from the overfished list, one was 
added.
    So we need to be watchful for changes so that our fisheries 
can continue to be the powerful economic driver that they are 
for many of our coastal communities.
    To me, though, these trends mean that although the 
overarching framework of MSA is working, there's room for 
growth. For example, we need greater focus on pirate fishing; 
we need more resources for science to address data-poor stocks 
and to understand the impacts of climate change; we need 
economic assistance for fisheries while they are being rebuilt; 
we need increased commitment to habitat stewardship to support 
healthy fishing stocks; and we need better enforcement of 
domestic and international law. I also believe that we should 
take a serious look at how NOAA Fisheries engages with 
communities, from fishermen to environmental groups and the 
public at large.
    Hawaii and other Pacific Island communities would benefit 
from attention to all of these areas because they support 
proactive management of our healthy stocks and responsible 
fishing industry. Our fishing fleet embraces the traditional 
values of our Hawaiian culture to be responsible stewards of 
the resources we hold and trust for future generations.
    To put it simply, our fishermen are not the major pressure 
our fisheries face. Rather, the more significant threats come 
from pirate fishing by foreign vessels, decline of coral reef 
habitat from climate change, and the challenge of enforcement 
over the vast reaches of the Western and Central Pacific.
    And so I look forward to this hearing. I thank you, Chair 
and Ranking Member, for conducting this series of hearings on 
this critically important issue.
    Senator Begich. Thank you very much.
    Let's go ahead and go to the testimony. And again, we'd 
like to ask members to keep their testimony to five minutes and 
all your written testimony is included in the record and 
permanent part of the record to make sure that's noted for you 
all.
    Let me first start with Will Stelle, West Coast Regional 
Administrator, National Marine Fisheries Service.
    Mr. Stelle.

         STATEMENT OF WILL STELLE, WEST COAST REGIONAL 
  ADMINISTRATOR, NATIONAL MARINE FISHERIES SERVICE, NATIONAL 
  OCEANIC AND ATMOSPHERIC ADMINISTRATION, U.S. DEPARTMENT OF 
                            COMMERCE

    Mr. Stelle. Thank you, Mr. Chairman, members of the 
Subcommittee. I appreciate the opportunity to testify.
    What I'd like to do this morning with my time, first of 
all, is to--I won't try to summarize my testimony per se, but 
to speak directly to a couple of points, in particular interest 
either to us or perhaps to you.
    Before doing so, I want to simply express Mike Tosatto's 
regrets that he is unable to join me here today. He is on 
unavoidable mandatory foreign travel on fisheries' business. I 
will do my best to represent him here today but I will defer. I 
don't have a lot of deep expertise in the Western Pacific and I 
will defer to Mike and his staff in responding to any 
particular inquiries you may have.
    I think the major point that I'd like to recommend, to make 
to you this morning, is from a Pacific and Western Pacific 
perspective. We have a mature and functioning governance system 
for the management of marine fisheries. And it is fundamentally 
working. And therefore, I would recommend approaching 
reauthorization delicately and surgically.
    Let me speak now to--I'll go into a couple of details both 
in the Western Pacific and also in the Pacific setting. In the 
Western Pacific, Senator your comments nailed it and what Mike 
Tosatto wanted to emphasize this morning is one particular 
challenge and that is the challenge of data-poor fisheries 
management. It is unavoidable, given the character of the 
fisheries themselves and the stocks themselves but we've got a 
challenge that is most poignant in the Western Pacific on 
trying to manage and implement our fishery regimes in highly 
distributed, small, highly diverse fisheries on stocks that are 
desperately data-poor.
    Toward that, in meeting that challenge, Mike and NMFS are 
participating in a territorial science research initiative that 
is intending to try on a collaborative-basis to build better 
capability between us and the territorial governments in 
deepening the stock assessment and monitoring work that is 
going to be the essential building block for more effective 
management of these fisheries. And we remain optimistic in 
building that collaboration over the coming years.
    We've got, I believe, happily in the 2014 appropriations, a 
million dollars slated to it. And hopefully, that's going to be 
productive seed money that we can leverage through other means.
    Moving to the West Coast, I'd like to touch on several 
points. First of all, again we have a mature, highly functional 
and productive working relationship between the states, the 
feds, the tribal sovereigns, the industry, and the NGO 
community in making fisheries management work. And that's not 
just happy talk; it's reality. And many of us are proud at the 
accomplishments we are and continue to make. We hold ourselves 
to high ambitions but we're meeting those ambitions. That's not 
to say it's all happy talk and easy; it isn't. But 
fundamentally, we have a functioning system that works well.
    We have, over the last several years, instituted in the 
groundfish fishery, a new catch shares program that, from my 
personal perspective, is stunning. And I've been in and around 
fisheries management about 30 years and this represents one of 
the most significant generational changes I've seen in the way 
we manage marine fisheries since I've been around. And let me 
tell you why.
    Fundamentally, what it is enabling is greater flexibility 
by the participants in the fishery to fish when it makes sense 
for them to fish. We are no longer using the cruel tool of time 
in telling people when you can go out and when you got to come 
back; when you turn on the lights and turn off the lights in 
your fishing effort. We don't manage fishing effort and we 
don't manage fishing time. We manage fishing harvests. And you 
have the flexibility with your processors and your markets to 
go fishing when it's most advantageous to you. And that has 
effectuated huge power in the way individuals shape their 
activities on the ocean in order to maximize their profits, and 
maximize their efficiencies, and reduce bycatch. And it's 
really significant. And over the last 3 years, we have seen 
improvements in the fishery in terms of revenues, landings, and 
radical reductions in bycatch that we would not have ever 
imagined.
    So again, I just want to put an exclamation point around 
the basic fact of what has been achieved here and we are all 
optimistic that this is but the beginning and there's more to 
come.
    Senator Begich. Think----
    Mr. Stelle. On----
    Senator Begich. I need you to summarize because you're over 
your five. And I apologize.
    Mr. Stelle. I am?
    Senator Begich. Yes. Green goes to red. Red usually means--
--
    Mr. Stelle. OK.
    Senator Begich. So I apologize.
    Mr. Stelle. Sorry.
    Let me summarize by saying, we couldn't talk about 
fisheries without also talking about tribal treaty rights. So, 
please appreciate that we have deeply embedded co-management 
responsibilities with the tribes of the Pacific and the Western 
Pacific. And we are succeeding in the mutual execution of those 
co-management responsibilities across the board and it's an 
important facet of governance.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Tosatto and Mr. Stelle 
follow:]

  Prepared Statement of Michael D. Tosatto, Pacific Islands Regional 
 Administrator and Will Stelle, West Coast Regional Administrator for 
the National Marine Fisheries Service, National Oceanic and Atmospheric 
              Administration, U.S. Department of Commerce
Introduction
    Good morning, Mr. Chairman and Members of the Committee. Thank you 
for the opportunity to testify before you today. This testimony is 
being provided by Michael Tosatto and Will Stelle, the Pacific Islands 
and West Coast Regional Administrators for the National Oceanic and 
Atmospheric Administration's (NOAA) National Marine Fisheries Service 
(NMFS). NMFS is dedicated to the stewardship of living marine resources 
through science-based conservation and management. Much of this work 
occurs under the Magnuson-Stevens Fishery Conservation and Management 
Act (Magnuson-Stevens Act), which sets forth standards for 
conservation, management, and sustainable use of our Nation's fisheries 
resources.
    Marine fish and fisheries--such as tropical tunas in the Western 
and Central Pacific and salmon, groundfish, sardine, and albacore in 
the Pacific off the U.S. west coast--are vital to the prosperity and 
cultural identity of coastal communities in the United States. U.S. 
fisheries play an enormous role in the U.S. economy. Commercial fishing 
supports fishermen, contributes to coastal communities and businesses, 
and provides Americans with a valuable source of local, sustainable, 
and healthy food. Non-commercial and recreational fishing provides food 
for many individuals, families, and communities; is an important social 
activity; and is a critical driver of local and regional economies, as 
well as a major contributor to the national economy. Subsistence 
fishing provides an essential food source and is culturally significant 
for the indigenous peoples in the Pacific Islands. In addition, for 
many Tribes on the West Coast, their usual and accustomed fishing and 
harvesting activities of marine (and other natural) resources are 
guaranteed by Treaties with the United States. The co-management 
responsibilities required by these Treaties has effectuated an 
important additional facet to the management of marine resources under 
the Magnuson Act and other authorities and permeates the governance of 
marine resources on the west coast of the United States.
    Our most recent estimates show that the landed volume and the value 
of commercial U.S. wild-caught fisheries remained near the high levels 
posted in 2011. U.S. commercial fishermen landed 9.6 billion pounds of 
seafood valued at $5.1 billion in 2012, the second highest landings 
volume and value over the past decade.\1\ The seafood industry--
harvesters, seafood processors and dealers, seafood wholesalers and 
seafood retailers, including imports and multiplier effects--generated 
an estimated $129 billion in sales impacts and $37 billion in income 
impacts, and supported 1.2 million jobs in 2011. Jobs supported by 
commercial businesses held steady from the previous year.\2\
---------------------------------------------------------------------------
    \1\ See NOAA Annual Commercial Fisheries Landings Database, 
available at http://www.st.nmfs.noaa.gov/commercial-fisheries/
commercial-landings/annual-landings/index.
    \2\ See Fisheries Economics of the U.S. 2011. NMFS Office of 
Science & Technology, available at: http://www.st.nmfs.noaa.gov/
economics/publications/feus/fisheries_economics_2011.
---------------------------------------------------------------------------
    At the same time, recreational catch remained stable. Recreational 
fishing generated an estimated $56 billion in sales impacts and $18 
billion in income impacts, and supported 364,000 jobs in 2011.\3\ Jobs 
generated by the recreational fishing industry represented a 12 percent 
increase over 2010.\4\
---------------------------------------------------------------------------
    \3\ Lovell, Sabrina, Scott Steinback, and James Hilger. 2013. The 
Economic Contribution of Marine Angler Expenditures in the United 
States, 2011. U.S. Dep. Commerce, NOAA Tech. Memo. NMFS-F/SPO-134, 188 
p.
    \4\ See Fisheries Economics of the U.S. 2011. NMFS Office of 
Science & Technology, available at: http://www.st.nmfs.noaa.gov/
economics/publications/feus/fisheries_economics_2011.
---------------------------------------------------------------------------
    U.S. fisheries are producing sustainable U.S. seafood. The Federal 
fishery management system is effectively and responsibly managing fish 
stocks at biologically sustainable levels, and in cases where some 
stocks have become overfished, the system has been effective at 
rebuilding populations to healthy target levels. As of December 31, 
2013, 91 percent of stocks for which we have assessments are not 
subject to overfishing, and 82 percent are not overfished.
    The advancement of our science and management tools has resulted in 
improved sustainability of fisheries and greater stability for 
industry. Since passage in 1976, the Magnuson-Stevens Act has charted a 
groundbreaking course toward sustainable U.S. fisheries. The 2007 
reauthorization gave the eight Regional Fishery Management Councils 
(Councils) and NMFS a very clear charge and new tools to support 
improved science and management. Key requirements mandated the use of 
science-based annual catch limits and accountability measures to better 
prevent and end overfishing. The reauthorization provided more 
explicitly for market-based fishery management through Limited Access 
Privilege Programs, and addressed the need to improve the science used 
to inform fisheries management.
    The U.S. has many effective tools to apply in marine fisheries 
management. Yet, as we look to the future, we must continue looking for 
opportunities to further improve our management system. While 
significant progress has been made since the 2007 reauthorization, 
progress has not come without a cost to some. Challenges remain. 
Fishermen, fishing communities, and the Councils have had to make 
difficult decisions and absorb the near-term cost of conservation and 
investment in long-term economic and biological sustainability.
    In some cases, as with the Hawaii longline fishery for the highly 
migratory species of bigeye tuna, such an investment is made in a broad 
international management context. Despite many years of reduced fishing 
levels, it has not yet produced the expected conservation benefits on a 
basin-wide scale. We need to continue to address management challenges 
such as this in the international arena and explore new opportunities 
in a holistic, deliberative, and thoughtful way that includes input 
from the wide range of stakeholders who care deeply about these issues.
    Fortunately, overfishing has, for the most part, been successfully 
prevented on the West Coast. For the handful of overfished stocks that 
existed, some already have rebuilt and the rebuilding progress 
continues on others. Strait of Juan de Fuca coho salmon was declared 
rebuilt in 2012. Petrale sole is projected to be rebuilt in 2015. In 
the U.S. West Coast groundfish fishery, we are starting to see some 
return on our conservation investments. As the overfished stocks that 
were restricting the fishery have rebuilt, overall catch levels have 
been rising, providing safe domestic seafood, more fishing 
opportunities, and jobs. These results lead us to conclude that the 
Magnuson-Stevens Act's call for close collaboration among NMFS, the 
Pacific Council, and all of our stakeholders is one of its greatest 
strengths and has been essential to the success of West Coast 
fisheries.
    Our testimony today will focus on NMFS' progress in implementing 
the Magnuson-Stevens Act's key domestic provisions, and some thoughts 
about the future and the next reauthorization.
Implementing the Magnuson-Stevens Act
    The Magnuson-Stevens Act created broad goals for U.S. fisheries 
management and a unique, highly participatory management structure 
centered on the Councils. This structure ensures that input and 
decisions about how to manage U.S. fisheries develop through a ``bottom 
up'' process that includes fishermen, other fishery stakeholders, 
affected states, tribal governments, and the Federal Government.
    The Magnuson-Stevens Act guides fisheries conservation and 
management through 10 National Standards. These standards, which have 
their roots in the original 1976 Act, provide a yardstick against which 
all fishery management plans and actions developed by the Councils are 
measured. National Standard 1 requires that conservation and management 
measures prevent overfishing while achieving, on a continuing basis, 
the optimum yield from each fishery. Optimum yield is the average 
amount of harvest that will provide the greatest overall ecological, 
economic, and social benefits to the Nation, particularly by providing 
seafood and recreational opportunities while affording protection to 
marine ecosystems.
    The Councils can choose from a variety of approaches and tools to 
manage fish stocks to meet this mandate--e.g., catch shares, area 
closures, and gear restrictions--and, when necessary, also determine 
how to allocate fish among user groups. These measures are submitted to 
the U.S. Secretary of Commerce for approval and are implemented by 
NMFS. Thus, the Councils, in developing their plans, must carefully 
balance the need for stable fishing jobs, ecological conservation, and 
societal interests to create holistically sustainable fisheries. A key 
aspect of this effort is to ensure that overfishing is prevented, and 
if it occurs, to end it quickly and rebuild any stock that becomes 
overfished. Other National Standards mandate that conservation and 
management measures be based upon the best scientific information 
available, not discriminate between residents of different states, take 
into account variations in fisheries and catches, minimize bycatch, and 
promote the safety of human life at sea.
    Fishing communities are central to many Council decisions. Fishing 
communities rely on fishing-related jobs, as well as the non-commercial 
and cultural benefits derived from these resources. Marine fisheries 
are the lifeblood of many coastal communities in the Pacific Islands 
and West Coast regions and around our Nation. Communities, fishermen, 
and fishing industries rely not only on today's catch, but also on the 
predictability of future catches. The need to provide stable domestic 
fishing and processing jobs is paramount to fulfilling one of the 
Magnuson-Stevens Act's goals--to provide the Nation with sources of 
domestic seafood. This objective has even greater purpose now than when 
the Act was passed, as today U.S. consumers are seeking--more than 
ever--options for healthy, safe, sustainable, and local seafood. Under 
the standards set in the Magnuson-Stevens Act--and together with the 
Councils, states, tribes, territories, and fishermen--we have made 
great strides in maintaining more stocks at biologically sustainable 
levels, ending overfishing, rebuilding overfished stocks, building a 
sustainable future for our fishing-dependent communities, and providing 
more domestic options for U.S. seafood consumers in a market dominated 
by imports. Thanks in large part to the strengthened Magnuson-Stevens 
Act and the sacrifices and investment in conservation by fishing 
communities across the country, the condition of many of our most 
economically important fish stocks has improved steadily over the past 
decade.
    We all share the common goal of healthy fisheries that can be 
sustained for future generations. Without clear rules based on science, 
fair enforcement, and a shared commitment to sustainable management, 
short-term pressures can easily undermine the social, economic, and 
environmental benefits that come from sustainably and responsibly 
managed fisheries. Though overfished stocks remain a challenge in some 
fisheries, as their populations grow and catch limits increase, we are 
beginning to see benefits to those resources, the industries they 
support, and the economy.
Progress in Implementation
    Working together, NMFS, the Councils, coastal states and 
territories, treaty fishing tribes, and a wide range of industry groups 
and other stakeholders have made significant progress in implementing 
key provisions of this legislation.
Ending Overfishing, Implementing Annual Catch Limits, and Rebuilding
    One of the most significant management provisions of the 2007 
reauthorization of the Magnuson-Stevens Act was the mandate to 
implement annual catch limits, including measures to ensure 
accountability and to end and prevent overfishing in federally managed 
fisheries by 2011 (an annual catch limit is an amount of fish that can 
be caught in a year such that overfishing does not occur; 
accountability measures are management controls to prevent annual catch 
limits from being exceeded, and to correct or mitigate overages of the 
limits if they occur). Now, when developing a fishery management plan 
or amendment, the Councils must consider the actions that will occur if 
a fishery does not meet its performance objectives. As of December 31, 
2013, assessments demonstrated that overfishing ended for 71 percent of 
the 38 domestic U.S. stocks that were subject to overfishing in 2007 
when the Magnuson-Stevens Act was reauthorized.\5\ Annual catch limits 
designed to prevent overfishing are in place for all stocks, and we 
expect additional stocks to come off the overfishing list as stock 
assessments are updated in the coming years. The Magnuson-Stevens Act 
also includes requirements to rebuild any overfished fishery to the 
level that can support the maximum sustainable yield, and we have 
rebuilt 34 stocks nationally since 2000.\6\
---------------------------------------------------------------------------
    \5\ See Fish Stock Sustainability Index. This report was the source 
for the underlying data, but the numbers presented here were compiled 
specifically for this hearing. The report is available at: http://
www.nmfs.noaa.gov/sfa/statusoffisheries/2012/fourth/
Q4%202012%20FSSI%20Sum
mary%20Changes.pdf
    \6\ See Fish Stock Sustainability Index. Available at: http://
www.nmfs.noaa.gov/sfa/status
offisheries/2012/fourth/MapRebuiltStocksCY_Q4_2012.pdf
---------------------------------------------------------------------------
    There are many examples of what fishermen, scientists, and managers 
can do by working together to bring back a resource that once was in 
trouble. In the Pacific Islands Region, NMFS, the Western Pacific 
Fishery Management Council, the State of Hawaii, and fishing 
communities have ended overfishing of the Hawaiian archipelago's deep-
water bottomfish complex--a culturally significant grouping of seven 
species of snapper and grouper. This has enabled NMFS to increase 
annual catch limits for these stocks for both commercial and 
recreational fishermen and ensure these fish are available year-round.
    On the West Coast, NMFS and the Pacific Fishery Management Council, 
the fishing industry, recreational anglers, and other partners have 
successfully rebuilt a number of once overfished stocks, including coho 
salmon, lingcod, Pacific whiting, and widow rockfish. These and other 
conservation gains, including implementation of the West Coast 
groundfish trawl rationalization program, enabled NMFS to increase 
catch limits for abundant West Coast groundfish species that co-occur 
with groundfish species in rebuilding plans. NMFS also worked 
collaboratively with the Pacific Council to develop an abundance-based 
harvest management framework for Endangered Species Act (ESA) listed 
Lower Columbia River Chinook. Ocean salmon fisheries are severely 
constrained to meet conservation objectives for Lower Columbia River 
Chinook and other ESA-listed salmon, but there is flexibility in how 
fisheries are managed to meet specific risk criteria. Not only was the 
Pacific Council's input critical to our decisions regarding how to 
manage risk and optimize fishery objectives, it helped integrate our 
process under the ESA with that of the Magnuson-Stevens Act under full 
``sunshine'' so that all could follow that complex process.
    But meeting mandates to prevent and end overfishing and implement 
annual catch limits can be very challenging where data are scarce, 
which is the case for many of the stocks in the Pacific Islands region, 
particularly those species being fished in the coral reef ecosystem. 
The agency has begun the process of reviewing the National Standard 1 
guidelines, which were modified in 2009 to focus on implementing the 
requirement for annual catch limits. This was a major change in how 
many fisheries were managed, and we want to ensure the guidance we have 
in place reflects current thinking on the most effective way to meet 
the objectives of National Standard 1, building on what we and the 
Councils have learned. A May 2012 Advance Notice of Proposed Rulemaking 
was followed by an almost 6-month public comment period where we asked 
for input on 11 topics addressed in the guidelines. We received a 
significant amount of input, and are in the process of working through 
the comments and developing options for moving forward, be it through 
additional technical guidelines, regulatory changes, and/or identifying 
issues for discussion as part of a reauthorization of the Magnuson-
Stevens Act.
Improvements to Science and Recreational Fishing Data
    Without high-quality fishery science, we cannot be confident the 
Nation is attaining optimum yield from its fisheries, or that we're 
preventing overfishing and harm to ecosystems and fishing communities. 
Attaining optimum yield requires investing in information about fish 
stocks, marine habitats, and ecosystems and the individuals and groups 
that rely upon fishing. NMFS is committed to generating the best 
fishery science--biological, ecological, and socioeconomic--to support 
the goals of the Magnuson-Stevens Act. To achieve the goals of the Act, 
we must conduct the research and analyses necessary to understand the 
environmental and habitat factors affecting the sustainability of fish 
populations. We must continue to increase what we know about our fish 
stocks in order to reduce uncertainty and avoid potentially reduced 
annual catch limits, resulting in lost economic opportunities.
    The importance of increasing the frequency of stock assessments, 
improving the quality of fisheries science with a better understanding 
of ecosystem factors, and enhancing our engagement with fishermen 
cannot be stressed enough. The Territorial Fisheries Science Initiative 
is an effort to overcome the lack of data collection capacity in the 
U.S. territories that has resulted in a paucity of scientific 
information to guide management actions. The small size of the 
territory governments with their modest budgets; the relatively low 
commercial value of the diverse and small-scale fisheries; and the 
limited NMFS presence in the territories have all contributed to the 
current shortcomings. This initiative also is intended to address these 
shortcomings and improve the quality and reliability of Pacific Islands 
Region stock assessments and increase stakeholder participation in the 
process.
    The Magnuson-Stevens Act required improvements to recreational 
fisheries data collected by NMFS for use in management decisions. In 
October 2008, NMFS established the Marine Recreational Information 
Program (MRIP) to improve recreational fishery data collection efforts, 
consistent with the Magnuson-Stevens Act requirement and the 2006 
recommendations of the National Research Council. MRIP is a national 
system of coordinated regional data collection programs designed to 
address specific needs for improved recreational fishing information. 
One major component of this program is the development of a national 
registry of anglers that, in the West Coast Region, relies on data from 
state-issued fishing licenses. This registry is being used in a series 
of pilot studies to test more efficient mail and telephone surveys for 
the collection of data on recreational fishing activity. Based on the 
results of these studies, NMFS expects to be ready to implement new 
registry-based survey designs in 2015.
    MRIP is also developing and implementing numerous other survey 
improvements to address the National Research Council's 
recommendations, including improvements in estimation methodologies, 
shoreside survey design, and for-hire fishery data collections. On the 
West Coast, the states have taken the lead following the National 
Research Council's recommendations to improve on the Marine 
Recreational Fisheries Statistics Survey by fielding their own surveys 
through cooperation with NMFS and the Pacific States Marine Fisheries 
Commission. Since 2010, California has been using the Automated 
Licensing Data System to issue and record all fishing licenses and to 
include those anglers in the national registry of anglers. A variety of 
survey methods have been used to estimate catch and effort for salmon 
and non-salmon fisheries in Oregon and Washington, including the Oregon 
Recreational Boat Survey, Shore and Estuary Boat Survey, and Washington 
Ocean Sampling Program. These surveys along with angler telephone 
surveys, commercial passenger fishing vessel logbooks, and telephone 
surveys are used to estimate recreational catch and effort on the West 
Coast. MRIP funding has been used to look for ways to adequately sample 
pulse fisheries such as the thresher shark fishery in Southern 
California. There has also been a focus on improving accessibility to 
the data held in the Recreational Fisheries Information Network.
    Improved fisheries science also relies on data collected by 
fisheries observers as well as collaborative research with non-
government partners. Adequate observer coverage also is critical for 
improving our bycatch data, and the biological samples collected by 
observers are used in stock assessments and life history studies. 
National Standard 9 requires fishery management plans to minimize 
bycatch. In the Pacific, NMFS continues to work with the Councils, 
industry, academia, and other partners to conduct research and test new 
methods and gear that will make our U.S. fisheries in the Pacific even 
cleaner, more selective, and able to avoid interactions with marine 
mammals and sea turtles. Much of this is done through the Magnuson-
Stevens Act's Cooperative Research Program, Bycatch Reduction 
Engineering Program, and the experimental fishing permits process. For 
example, in the recreational West Coast thresher shark fishery, 
biologists from the NMFS Southwest Fisheries Science Center, West Coast 
Region, and the Pfleger Institute of Environmental Research 
collaborated to find out how to improve the survival of released 
thresher sharks. They found that the use of circle hooks rather than J-
hooks greatly increases a shark's chances of survival after release, 
and these findings have been published and widely disseminated to 
anglers in southern California through presentations at fishing clubs 
and shows, along with the production of a best practices video posted 
on the NMFS website. In addition, NMFS has routinely worked through 
take reduction teams established under the Marine Mammal Protection Act 
to successfully identify measures to minimize bycatch and other impacts 
on sea turtles, cetaceans, and other protected species in the Pacific.
Limited Access Privilege Programs (LAPPs)
    The Magnuson-Stevens Act authorizes the use of LAPPs, which 
dedicate a secure share of fish to fishermen for their exclusive use 
via a Federal permit. NMFS has implemented LAPPs in multiple fisheries 
nationwide and additional programs are under development.
    While limited access privilege programs are just one of many 
management options the Councils can consider, they have proven to be 
effective in meeting a number of management objectives when they have 
broad stakeholder support. Both in the United States and abroad, such 
programs are helping to achieve annual catch limits, reduce the cost of 
producing seafood, extend fishing seasons, increase revenues, and 
improve fishermen's safety.
    NMFS has two LAPPs in the West Coast Region: the groundfish trawl 
catch share program implemented in 2011 and the sablefish fixed gear 
``permit stacking'' program started in 2001. The groundfish trawl catch 
share program has been remarkably successful in its first 2 years of 
implementation. Results from 2012 indicate a substantial reduction in 
bycatch, with fishermen catching more of their targeted species and 
fewer species that should be avoided. Because fishermen have more 
flexibility under a catch share program, they can be more selective in 
the areas they fish and how they target species. To catch fish in 
better condition and sell them at a higher price, fishermen are 
shifting their tactics. For example, trawl fishermen increased their 
use of fixed gear (i.e., fixed pots that rest on the sea floor or 
baited hooks on miles-long lines) the first 2 years of the program. In 
2012, 58 percent of sablefish revenue in the catch shares program was 
from fixed gear, up from 48 percent in 2011. The number of quota 
transfers in 2012--a good indicator of how fishermen are fine-tuning 
their quota holdings to better reflect their fishing plans--was double 
that of 2011. The total pounds of such vessel-to-vessel transfers in 
2012 was 25 percent above 2011 and suggests that participants are 
planning earlier and becoming more comfortable with the individual 
fishing quota management system. This strong partnership will carry the 
West Coast Groundfish Catch Shares Program toward the common goal of 
healthy, sustainable fisheries and fishing communities. NMFS is hopeful 
that the increased planning and knowledge about the fishery will lead 
to the continued success of the program.
Looking to the Future
Remaining Challenges
    Amid these successes, challenges remain. The Pacific Islands Region 
has made progress to end overfishing, but we face challenges when 
managing the numerous highly migratory stocks in the international 
arena, where other nations have fundamentally different goals and 
objectives. This is perhaps most evident in the Western and Central 
Pacific Fisheries Commission tropical tuna fisheries. Negotiated 
conservation and management measures were first put in place in 2008, 
but with poor compliance and other accommodations for the small island 
developing states, it is clear that not all of these measures are 
working. A long-term management strategy will require broad agreement, 
equitable application, and full membership compliance.
    On the West Coast, although we have made great strides in creating 
biologically and ecologically sustainable fisheries, there are 
challenges with the economic sustainability of the fisheries. Many 
involve significant policy considerations about the future of coastal 
communities, international conservation commitments and trade, and, of 
course, budgets--not just federal, but state and tribal as well.
    It is critical that we maintain progress toward meeting the mandate 
of the Magnuson-Stevens Act to end overfishing and rebuild overfished 
stocks. Annual catch limits have been an effective tool in improving 
the sustainability of fisheries around the Nation, but managing 
fisheries using annual catch limits and accountability measures was a 
major change for some fisheries, and the initial implementation has 
identified some areas where we can improve that process. We will 
continue to work with the Councils to achieve the best possible 
alignment of science and management for each fishery to attain the 
goals of the Magnuson-Stevens Act. We will continue to develop our 
science and management tools, improve our stock assessments and 
monitoring efforts, and create more effective annual catch limits and 
accountability measures. In doing so, we must continue to ensure solid, 
science-based determinations of stock status and better linkages to 
biological, socioeconomic, and ecosystem conditions.
    A primary goal in the Pacific Islands Region is to bring more data 
to the table and ensure the fishery management response to annual catch 
trends is appropriate. Many fish stocks in the Pacific Islands are 
managed in mixed stock complexes to make the best use of scarce data. 
The majority of fisheries in the Pacific Islands Region are extremely 
data limited, making it challenging to manage and monitor annual catch 
limits in the way Congress envisioned. These small-scale commercial, 
non-commercial, and subsistence fisheries are nonetheless critically 
important to the island communities. Looking ahead, we must continue to 
improve the quality and quantity of scientific data, continue progress 
made on stock assessment improvement plans, and continue to explore new 
and innovative management tools to achieve more biologically and 
economically sustainable fishery resources.
    We value the important partnerships we have formed with the states, 
territories, tribes, fishermen, and other interest groups in helping 
address these challenges. These partnerships are critical to developing 
successful management strategies. Together with our partners, we 
continue to explore alternative and innovative approaches that will 
produce the best available information to incorporate into management. 
In 2005, NMFS worked in a public/private partnership with commercial 
fishermen, The Nature Conservancy, and the Pacific Fishery Management 
Council to reduce trawl effort and protect habitat off Morro Bay in 
California. The Nature Conservancy conducted a private buy-out of trawl 
permits that was complemented by protections for 3.8 million acres of 
essential fish habitat under the Magnuson-Stevens Act. The partnership 
continues today as NMFS and the Pacific Council provide regulatory 
support for Morro Bay fishermen and The Nature Conservancy in their 
development of local markets and management strategies so that the 
permits are utilized in the sustainable and long-term best interest of 
the community. On the West Coast, the Pacific States Marine Fisheries 
Commission has long been a key partner for us in managing West Coast 
fisheries. Recently, the Commission has been working with West Coast 
groundfish fishermen to install cameras on trawl vessels to test 
whether these and other electronic monitoring technologies can provide 
the same level of data quality currently provided by observers, at a 
lower cost.
    It is also increasingly important that we better understand 
ecosystem and habitat factors, such as the effects of climate change, 
interannual and interdecadal climate shifts, ocean acidification, and 
other environmental regime shifts and natural disasters, and 
incorporate this information into our stock assessments and management 
decisions. Resilient ecosystems and habitat form the foundation for 
robust fisheries and fishing jobs. The Magnuson-Stevens Act currently 
provides flexibility for bringing ecosystem considerations into 
fisheries management. For NOAA and the Pacific Council, this 
flexibility allowed us to develop a non-regulatory Fishery Ecosystem 
Plan on the West Coast, completed in 2013. Under the organizing 
principles of the Fishery Ecosystem Plan, the Pacific Council is 
exploring measures to restrict the future development of new fisheries 
for forage fish species. If appropriate, forage fish protection 
measures would be implemented under the authorities of existing fishery 
management plans. This flexibility in the Magnuson-Stevens Act is one 
of the Act's strengths, allowing us to meet our responsibilities under 
the Act in concert with related legislation, such as the Marine Mammal 
Protection Act and the Endangered Species Act, to reduce bycatch of 
protected species to mandated levels. The alignment of measures to 
conserve habitat and protected species with measures to end overfishing 
and rebuild and manage fish stocks will be a key component of NOAA's 
success in implementing ecosystem-based fisheries management.
    NOAA supports the collaborative and transparent process embodied in 
the Councils, as authorized in the Magnuson-Stevens Act, and strongly 
believes that all viable management tools should continue to be 
available as options for the Councils to consider when developing 
management programs.
The Next Reauthorization of the Magnuson-Stevens Act
    With some of the largest and most successful fisheries in the 
world, the United States has become a global model of responsible 
fisheries management. This success is due to strong partnerships among 
the commercial and recreational fishing, conservation, and science and 
management communities. Continued collaboration is necessary to address 
the ongoing challenges of maintaining productive and sustainable 
fisheries.
    The Managing Our Nation's Fisheries 3 conference--co-sponsored by 
the eight Councils and NMFS--brought together a broad spectrum of 
partners and interests to discuss current and developing concepts 
addressing the sustainability of U.S. marine fisheries and their 
management. The conference was developed around three themes: (1) 
improving fishery management essentials, (2) advancing ecosystem-based 
decision-making, and (3) providing for fishing community 
sustainability.
    We were excited to see a wide range of stakeholders represent many 
points of view, from commercial and recreational fishermen, to 
conservation and science and management organizations, to indigenous 
communities. Before the last reauthorization, we co-sponsored two of 
these conferences, and they played an important role in bringing people 
together and creating an opportunity to present ideas and understand 
different perspectives. We expect the ideas that emerged from this 
event to inform potential legislative changes to the Magnuson-Stevens 
Act, but the benefits are much greater than that. The communication 
across regions and Councils provided an opportunity to share best 
practices and lessons learned, and could also inform changes to current 
policy or regulations that can be accomplished without statutory 
changes.
Conclusion
    Because of the Magnuson-Stevens Act, the United States has made 
great progress toward sustainably and responsibly managing U.S. 
fisheries, to ensure that stocks are maintained at healthy levels, 
fishing is conducted in a way that minimizes impacts on the marine 
ecosystem, and fishing communities' needs are considered in management 
decisions. Fisheries harvested in the United States are scientifically 
monitored, regionally managed, and consistent with 10 National 
Standards for fishery conservation and management. But we did not get 
here overnight. Our Nation's journey toward sustainable fisheries has 
evolved over the course of 38 years.
    In 2007, Congress gave NOAA and the Councils a clear mandate, new 
authority, and new tools to achieve the goal of sustainable fisheries 
within measurable timeframes. Notable among these were the requirements 
for annual catch limits and accountability measures to prevent, respond 
to, and end overfishing--real game changers in our national journey 
toward sustainable fisheries that are rapidly delivering results.
    This progress has been made possible by the collaborative 
involvement of our U.S. commercial and recreational fishing fleets and 
their commitment to science-based management, improving gear-
technologies, and application of best stewardship practices. We have 
established strong partnerships with states, tribes, Councils, and 
fishing industries. By working together through the highly 
participatory process established in the Magnuson-Stevens Act, we will 
continue to address management challenges in a changing environment.
    To understand where we are, it is important to reflect on where 
we've been. We have made great progress but our achievements have not 
come easily, nor will they be sustained without continued attention. 
This is a critical time in the history of Federal fisheries management, 
and we must move forward in a thoughtful and disciplined way to ensure 
our Nation's fisheries are able to meet the needs of both current and 
future generations. We will take the recommendations from the Managing 
Our Nation's Fisheries 3 conference, and look to the future in a 
holistic, comprehensive way that considers the needs of the fish, 
fishermen, ecosystems and communities. We look forward to these 
discussions.
    Thank you again for the opportunity to discuss implementation 
progress of the Magnuson-Stevens Act. We are available to answer any 
questions you may have.

    Senator Begich. Thank you very much.
    Senator Cantwell, I don't know if you wanted to have any 
opening. I allowed others to do it and I know we have an 11:15 
vote, so I'm going to----
    Senator Cantwell. I think you should keep going.
    Senator Begich. Keep going. Very good.
    Let me go to the next speaker. Donald McIsaac, Executive 
Director, Pacific Fisheries Management Council.
    Thank you.

   STATEMENT OF DONALD McISAAC, EXECUTIVE DIRECTOR, PACIFIC 
                   FISHERY MANAGEMENT COUNCIL

    Dr. McIsaac. Chairman Begich and members of the 
Subcommittee, thanks for the opportunity----
    Senator Begich. Is your microphone on?
    Dr. McIsaac. Let's see here.
    Senator Begich. Is it good?
    Dr. McIsaac. Testing one, two, three.
    Senator Begich. There we go. Yes.
    Dr. McIsaac. We OK.
    Senator Begich. Very good.
    Dr. McIsaac. There we go.
    Well, thanks again for the opportunity to testify. My name 
is Donald McIsaac. I am the Executive Director of the Pacific 
Fishery Management Council. The Pacific Council manages over 
160 fish stocks off the coast of Washington, Oregon, and 
California.
    We were the primary organization responsible for the 
Managing Our Nation's Fisheries 3 conference, held here in 
Washington, D.C. last May. We were honored to have you, Mr. 
Chairman, as a featured speaker so thank you, again, for that.
    As you know, that meeting looked at the successes and 
challenges of the MSA, drew over 600 attendees with diverse 
fishery backgrounds and interests, and produced 128 findings, 
or ideas, on improving marine fishery management. Since that 
big conference, the Pacific Council has spent many hours at two 
council meetings discussing its priorities on MSA 
Reauthorization. We managed to wind all those 128 findings and 
a variety of additional ideas down to 16 priorities listed in 
my written testimony. These represent notable priorities 
identified at this time, with the reservation for additional 
priorities and refinement of positions as the reauthorization 
process moves forward.
    First, I'd like to emphasize the point that the Pacific 
Council believes that the MSA, as it currently stands, has been 
a success. It has worked well to ensure a science-based process 
that ensures long-term sustainable fisheries while preventing 
overfishing and mandating rebuilding of depleted stocks.
    Under the Act, the Pacific Council has ended overfishing in 
West Coast waters on any and all stocks within 1 year of 
detection, has rebuilt seven depleted stocks, and is in the 
process of successfully rebuilding eight long-lived stocks that 
remain depleted; three of which are projected to be rebuilt in 
the next year. We have implemented a successful groundfish 
trawl individual quota catch share program that has been held 
up as a model for programs in other regions for its ability to 
reduce bycatch and increase economic yield as Mr. Stelle just 
alluded to. We annually craft ocean salmon fisheries that 
accomplish stock-specific conservation goals for a multitude of 
individual salmon stocks, including many listed under the 
Endangered Species Act. We've created an ecosystem fishery 
management plan which we are now in the process of implementing 
along with protections for unmanaged forage fish. We are 
successfully participating in international fisheries 
organizations to protect highly migratory tuna-like species and 
the West Coast fisheries that rely on them.
    The current MSA has been a key driver of these successes. 
We believe large-scale changes to the MSA are not warranted, 
and any changes made to the Act should be carefully considered. 
Still, there is room for improvement. Despite the effectiveness 
of the MSA, the Pacific Council believes there are areas that 
can be refined in order to improve marine fishery management in 
the United States and internationally.
    Of the six higher priorities in my written testimony 
revising rebuilding time requirements is a very important one 
for the Pacific Council. Three improvements can be made. First, 
addressing the discontinuity associated with the 10-year 
rebuilding requirement. This is also known as the ``Bermuda 
Triangle'' of rebuilding requirements and this provision has 
been the subject of costly litigation and economic loss to West 
Coast fisheries. Second, providing direction to not chase 
statistical noise in administrating rebuilding plans, but 
rather deal with true significant changes in the status of each 
fish stock. Third, providing flexibility to properly accomplish 
rebuilding as soon as possible while taking into account the 
needs of fishing communities as currently phrased in the Act.
    And the Act says, rebuild as soon as possible while taking 
into account the needs of fishing communities. This has been a 
subject of a court interpretation as nearly ignoring the needs 
of recreational, commercial, and tribal fishing communities 
until such a time as they have demonstrated a disastrous state. 
While fish conservation should trump immediate economic yield 
when stock productivity is at stake, there is a need for more 
flexibility for councils to properly take into account social 
and economic impacts to communities while reducing catch rates 
in a rational stock rebuilding plan.
    It is important to note that the purpose that rebuilding 
programs are designed for is to ultimately help the same 
fishery dependent communities that might be devastated now if 
there's not the right balance between proper conservation and 
the effects of those reliant on robust fisheries.
    Last, let me highlight two of the second tier priorities in 
my written testimony, both in the area of improving management 
and international fisheries. First, we think it's important to 
designate one Commissioner seat in the Inter-American Tropical 
Tuna Commission arena to represent the Pacific Council 
perspective. The Pacific Council has a dedicated seat in the 
Western and Central Pacific Fisheries Commission arena which we 
feel brings added value to the U.S. delegations when they 
debate conservation of North Pacific Albacore, the most 
important tuna species on the West Coast that happens to also 
have a cross ocean migration pattern that carries them through 
some intensive Japanese fisheries. The same kind of 
participation is important in the international organization 
dealing with West Coast fish that migrate southerly through 
fisheries off of Mexico, Columbia, and Ecuador.
    Second, toward improving international cooperation with 
other countries that may not play by the rules as well as the 
United States, we feel it's important for the MSA 
Reauthorization process to consider stricter imported seafood 
labeling requirements in the U.S. market.
    Mr. Chairman, I see my time is up, so I won't be able to 
provide the West Coast perspective on that other meeting this 
Sunday that involves the Seattle Seahawks----
    [Laughter.]
    Dr. McIsaac.--but I can assure you that is where the other 
Pacific Council members will line up on that question.
    [The prepared statement of Dr. McIsaac follows:]

     Prepared Statement of Dr. Donald McIsaac, Executive Director, 
                   Pacific Fishery Management Council
    Chairman Begich and members of the Subcommittee, thank you for the 
opportunity to appear before you to discuss the Pacific Council 
perspective regarding the Reauthorization of the Magnuson-Stevens 
Fishery Conservation and Management Act.
    My name is Donald McIsaac; I am the Executive Director of the 
Pacific Fishery Management Council. The Pacific Council manages over 
160 fish stocks off the states of Washington, Oregon, and California.
    The Pacific Council was the primary organization responsible for 
planning the Managing Our Nation's Fisheries 3 conference, held in 
Washington, D.C. in May of 2013. We were honored to have you, Mr. 
Chairman, as a featured speaker at that conference. As you know, that 
meeting looked at the successes and challenges of the Magnuson-Stevens 
Act, and drew over 600 attendees with diverse fishery backgrounds and 
interests. As a result of the discussions held at the conference, 
attendees produced 128 findings, or ideas, regarding the 
reauthorization of the MSA. While many of these ideas were not intended 
for statutory consideration, many were. Within these, some were quite 
minor, while others were more substantial. The findings are available 
on the Pacific Council website.\1\
---------------------------------------------------------------------------
    \1\ http://www.managingfisheries.org/2013 percent20documents/
MONF_Findings.pdf
---------------------------------------------------------------------------
    Since the Managing Our Nation's Fisheries 3 Conference, the Pacific 
Council has spent many hours at two Council meetings discussing its 
priorities regarding the reauthorization of the MSA. Details of those 
discussions are available on our website.\2\ At our most recent Council 
meeting in November, we managed to winnow those 128 findings and 
several additional ideas down to several priorities outlined in this 
testimony. These represent notable priorities identified at this time, 
with the reservation for additional priorities and refinement of 
positions as the reauthorization process moves forward.
---------------------------------------------------------------------------
    \2\ For the September Council meeting, see materials under Agenda 
Item H.1 (http://www.pcouncil.org/resources/archives/briefing-books/
september-2013-briefing-book/#ecoSeptember2013) and the Decision 
Summary Document (http://www.pcouncil.org/wp-content/uploads/
0913decisions.pdf) For the November Council meeting, see materials 
under Agenda Item I.2 (http://www.pcouncil.org/resources/archives/
briefing-books/november-2013-briefing-book/) and the Decision Summary 
Document (http://www.pcouncil.org/wp-content/uploads/
1113decisions.pdf).
---------------------------------------------------------------------------
    First, we would like to make the point that the Pacific Council 
believes that the MSA as reauthorized in 1996 and again in 2006 has 
been a success. The Act has worked well to ensure a science-based 
management process that ensures long-term sustainable fisheries while 
preventing overfishing and mandating rebuilding of depleted stocks. As 
a result, the Pacific Council has ended overfishing of any and all 
stocks within one year of detection, has rebuilt seven depleted stocks, 
and is in the process of successfully rebuilding eight long-lived 
stocks that remain depleted--three of which are projected to be rebuilt 
in the next year. We have implemented a successful groundfish trawl 
catch share program that has been held up as a model for programs in 
other regions for its ability to reduce bycatch and increase economic 
yield. We annually craft ocean salmon fisheries that accomplish stock-
specific conservation goals for a multitude of individual salmon 
stocks, including many listed under the Endangered Species Act. We have 
created an ecosystem fishery management plan which we are now in the 
process of implementing, along with protections for unmanaged forage 
fish. We are successfully participating in international fisheries 
organizations to protect highly migratory tuna-like species and the 
West Coast fisheries that rely on them. The current MSA has been a key 
driver of these successes. We believe large-scale changes to the MSA 
are not warranted, and any changes made to the Act should be carefully 
considered.
    Still, there is room for improvement. Despite the effectiveness of 
the MSA, the Pacific Council believes there are areas that can be 
refined in order to improve marine fishery management in the United 
States and internationally. The Council's priorities for MSA 
reauthorization are as follows.
Higher Priorities Matters
Revise rebuilding time requirements.

  <bullet> Address the discontinuity associated with the 10-year 
        rebuilding requirement.

  <bullet> Don't ``chase noise'' in rebuilding plans (in other words, 
        temper immediate reactions to changes in stock assessments that 
        may merely be statistical ``noise,'' rather than a true signal 
        of significant status change).

  <bullet> Address problems associated with ``rebuilding as soon as 
        possible'' in order to properly take into account the needs of 
        fishing communities.

        While a strict 10-year rebuilding requirement is appropriate in 
        some situations, focusing on rebuilding in a certain amount of 
        time can also result in overly-restrictive fishery management 
        that is illogically and unnecessarily harmful to fishermen and 
        fishing communities; it is apparent that more flexibility is 
        needed to optimize multiple goals. The 10-year rule, where 
        stock rebuilding must occur within 10 years if possible, can 
        lead to an unsound, discontinuous policy that can grossly 
        disrupt fisheries for little conservation gain. If a stock can 
        rebuild in 9 years at a cost of closing all fisheries, this 
        becomes a mandate. Paradoxically, the requirements for 
        rebuilding a fish stock in worse condition, e.g., one that 
        requires 11 or more years to rebuild with no fishing, provides 
        for more than 11 years to rebuild (11 years plus the length of 
        one generation of the species), with obviously less economic 
        disruption. This is illogical and potentially disastrous for 
        some fishing-dependent communities.

        In addition, uncertainty in stock assessments and rebuilding 
        analyses for overfished stocks has created a situation where 
        seemingly small changes to analytical results can lead to 
        expensive revisions in rebuilding plans and unwarranted 
        consequences to fisheries and fishing communities (``chasing 
        noise''). This disruption is especially problematic when 
        analytical results vary small amounts due to assessment 
        uncertainty, and vary both up and down without changes in true 
        status over time. The current process needs to be revised such 
        that a reasonable threshold exists for stock status changes 
        before significant changes in management approaches are 
        required.

        The MSA requirement to rebuild as soon as possible, taking into 
        account the needs of the fishery communities, has been subject 
        to Court interpretation as nearly ignoring the needs of fishing 
        communities until such time as they have demonstrated a 
        disastrous state. Current administration of this requirement 
        necessarily leads to large reductions in catch of directed 
        fishery stocks that are being rebuilt, and can restrict mixed-
        stock fisheries when the rebuilding stock coexists with healthy 
        stocks. It has been said that a solution may be as simple as 
        changing the word ``possible'' to ``practical.'' At any rate, 
        there is a need for threshold clarity so as to allow Councils 
        to properly take into account important social and economic 
        impacts to communities when reducing catches in a rational 
        stock rebuilding plan. It is important to note the purpose that 
        rebuilding programs are designed for is to increase stock sizes 
        to provide for biological stability and the attendant future 
        economic benefits to the same fishery-dependent communities 
        negatively impacted (and may even be required to endure a 
        disaster) by the rebuilding program.
Explore more flexibility for fishery impacts on data-poor species when 
        the current precautionary approach becomes the bottleneck for 
        healthy mixed-stock fisheries.

        One common management challenge is developing and implementing 
        annual catch limits (ACLs) effectively when the requisite data 
        are lacking, when no data collection program is in place, and/
        or when major natural fluctuations in stock abundance occur 
        more rapidly than stock assessments can be updated. When less 
        information about a stock is available, or the data are 
        outdated, current requirements call for a Council to set a 
        particularly low ACL compared to the theoretically maximum 
        allowable catch, out of recognition of a higher level of 
        scientific uncertainty. While this is a logical approach in 
        some regards, there is concern it may be overly conservative in 
        some situations. It can lead to severe economic consequences 
        when a rarely-caught stock about which little is known appears 
        occasionally in a healthy mixed-stock fishery, and a new, 
        highly buffered ACL for this rare stock suddenly requires a 
        large reduction in the catch of healthy species; this situation 
        essentially creates a bottleneck species that closes or 
        substantially reduces an otherwise healthy fishery.

        There are times when the best available science is not sound 
        enough for active fishery management decision-making; the 
        current approach for data-poor species may occasionally fall 
        into this situation. Further, the current approach may limit 
        obtaining scientific information on stock performance under 
        higher catch rates.
Better align and streamline the National Environmental Policy Act 
        (NEPA) & MSA section 304(i).

        While a mandate to include streamlining of the NEPA and MSA 
        processes was included in Sec. 304(i) of the 2006 
        reauthorization of the MSA, it has not yet been addressed. The 
        current process is inefficient, requiring substantial 
        additional work and process to satisfy duplicative NEPA and MSA 
        mandates. This unnecessarily delays implementation of 
        regulations, causes obsolescence of scientific information, and 
        burdens management resources that could be used more 
        efficiently.
Include a carryover exception to allow ACLs to be exceeded in order to 
        carry over surplus and deficit harvest from one year to the 
        next, provided there is a finding from the Scientific and 
        Statistical Committee (SSC) that such a carryover provision 
        will have negligible biological impacts.

        As part of their business planning, fishermen in catch share 
        programs need to know whether they may carry over surplus 
        harvest from one year to the next; deficits are now routinely 
        paid back the next year. In the past, there has not been a 
        consistent policy application on this matter. If the SSC finds 
        that carryover will not adversely affect a fish stock, then it 
        should be explicitly allowed.
Stocks later determined never overfished should not be held to 
        rebuilding provisions.

        The data and scientific approaches used to determine stock 
        status evolve and improve, and revisions to past stock statuses 
        are common. The best available science used to declare a stock 
        overfished may later be improved and show that the stock was 
        never overfished. In these cases, continuing to manage the 
        fishery under rebuilding plan restrictions may no longer be 
        necessary. However, the MSA does not explicitly exempt stocks 
        from rebuilding plans when it is later determined the stock was 
        never overfished.

        For example, in 2000, a stock assessment indicated that widow 
        rockfish on the West Coast were below the minimum stock size 
        threshold (MSST) that triggers an overfished status 
        designation. Accordingly, the stock was declared overfished and 
        a rebuilding plan put in place. However, subsequent assessments 
        in 2005 and 2007 estimated that the biomass had never dropped 
        below the MSST, and thus the stock had never been overfished. 
        Despite the best available science, uncertainty regarding MSA 
        requirements and the assessment results caused the fishery to 
        remain under a restrictive rebuilding plan until 2013. 
        Continuing to manage widow rockfish under a rebuilding plan, 
        even though the stock was never overfished, resulted in 
        negative social and economic impacts to fishing communities and 
        industry. It also represented a significant expenditure of 
        Council resources to construct and maintain a rebuilding plan, 
        and the new catch share program was unnecessarily complicated 
        by the overfished declaration of widow rockfish and its 
        subsequent rebuilding plan.
Provide flexibility in requirements and qualifications for observers.

        Current requirements and qualifications for National Marine 
        Fisheries Service certified observers may be too restrictive 
        regarding formal education and full independence provisions. 
        There have been difficulties in providing a sufficient pool of 
        observers.
Lower Priority Matters
    The Pacific Council has also identified the following lower 
priority areas that we ask you to take into consideration in drafting 
new legislation.

  <bullet> Designate one Commissioner seat on the Inter-American 
        Tropical Tuna Commission to represent the Pacific Council.

  <bullet> Provide flexibility to address rebuilding requirements when 
        environmental conditions may be a predominant factor in a 
        stock's decline.

  <bullet> Include a viable mixed-stock exception.

  <bullet> Replace the term ``overfished'' with ``depleted'' to account 
        for non-fishing causes of stock size below minimum stock size 
        threshold.

  <bullet> Consider a national standard for habitat that can more 
        effectively minimize adverse impacts on essential fish habitat.

  <bullet> Implement stricter imported seafood labeling requirements in 
        the U.S. market.

  <bullet> Enhance enforcement capabilities for international 
        fisheries, including at-sea and in-port monitoring and 
        enforcement, and providing assistance to developing countries 
        in their enforcement capacity.

  <bullet> Improve access to currently confidential harvest or 
        processing information for purposes of enhanced socioeconomic 
        analysis.

  <bullet> Amend MSA language to change ``vessels'' to ``vessel'' in 
        the illegal, unreported, and unregulated certification section.

  <bullet> Make a consistent distinction between ``overfishing'' (a 
        measure of fishing rate) and ``overfished'' (a measure of 
        abundance).

    Thank you again for the opportunity to testify before this 
Committee.

    Senator Cantwell. Well, Mr. Chairman, if I could just----
    [Laughter.]
    Senator Begich. As I earlier stated, Senator Cantwell had 
no opening statement so we'll move to the next thing.
    Senator Cantwell. I had too many constituents on this and 
the next panel to want to interrupt them. But on that point, 
I'm certainly hoping that Alaska and Hawaii throw in with 
Washington and the Seahawks since there are so many Alaskans 
who do regularly root for the Seahawks.
    Senator Begich. That's right.
    Actually, I will echo that and we are anxious for the game.
    [Laughter.]
    Senator Begich. Let's just say that. We like to say, right 
now in Alaska where the grass is green, the rest of the country 
is frozen.
    So thank you very much for your testimony.
    Let me move to the next individual and it is Arnold--Is it 
Palacios? Chair of the Western Pacific Fisheries Management 
Council.
    Please.

 STATEMENT OF ARNOLD PALACIOS, CHAIR, WESTERN PACIFIC REGIONAL 
                   FISHERY MANAGEMENT COUNCIL

    Mr. Palacios. Chairman Begich, honorable Subcommittee 
members, on behalf of the Western Pacific Regional Fisheries 
Management Council, I thank you for the opportunity to provide 
testimony on our perspective on the reauthorization of the 
Magnuson-Stevens Fisheries Conservation and Management Act.
    The Council strongly supports improvement to MSA that will 
enable the Council to conduct a more effective management and 
sustainable fishery development of fishery resources in our 
region. Before I begin my remarks, Mr. Chairman, I would like 
to call your attention to the attachments in our written 
testimony.
    I have one message I want you to take away from my 
testimony today and that message is loss: L-O-S-S and how to 
reverse this trend, loss of fisheries, loss of fishing grounds, 
loss of opportunities. Now the United States has the largest 
EEZ in the world and the Western Pacific region represents half 
of this; however, only 6 percent of the seafood we consume is 
landed by U.S. fisheries. Clearly, there is something wrong 
with this picture.
    We have lost the pioneering longline fisheries in the 
Mariana Islands and the Northwestern Hawaiian Islands lobster 
and bottom-fish fisheries. The American Samoa longline fishery, 
the second largest under Council jurisdiction, is on the brink. 
Competition from subsidized foreign fisheries, such as China, 
are catching the same fish and driving down prices while 
operational costs for our fleets, labor, fuel, continue to 
increase. We are also deeply concerned about the Hawaii 
Longline Fishery as its bigeye tuna catch has been reduced by a 
third due to quota restriction and quota management by an 
International Tuna Convention.
    I submit that the MSA should contain measures to level the 
playing field for our U.S. vessels that minimize bycatch, such 
as providing subsidies for fisheries development, fuel, access 
fees, low-interest loans, tax breaks, and reduce import 
tariffs. Apart from the MSA, we continue to bury our fisheries 
under the ESA, the MMPA, NEPA, Sanctuaries Act, Antiquities 
Act, EOs, and the list goes on and on.
    About 90 percent of the spatial areas of MPAs listed in the 
United States are in Western Pacific. This is grotesque skew by 
any definition. Most of the marine monuments were already 
protected by their remoteness. Now the fishing opportunities 
are lost in an archipelago of paper parks, where our fishers 
are locked out forever. Further, closing fishing grounds means 
fishermen are subject to greater expense and they have to take 
greater risks to go fishing.
    I submitted that the MSA should state that any restriction 
on the management of fishery resources that is necessary to 
implement the ESA or the MMPA must be implemented under the 
authority of the MSA, the Magnuson-Stevens Act. In addition, 
the Magnuson-Stevens Act should take precedence over National 
Marine Sanctuaries Act and the Antiquities Act in terms of 
spatial management of fisheries resources and habitats.
    Mr. Chairman, despite these challenges, the Councils in the 
last three to four years have fulfilled MSA mandates through 
generations of ACLs including for large numbers of data-poor 
coral reef species. We continue to strive to improve our ACLs 
by developing innovative techniques incorporating catch and 
biomass data. We are committed to working with our regional 
office and science center to make these improvements, as well 
as providing more opportunities for our communities in the 
Western Pacific.
    Mr. Chairman, we have some fundamental questions that I 
believe we should ask ourselves. Do we want a U.S. fishing 
industry, or are we about to see more fishing vessels up for 
sale, like the American Samoa longliners? Do we want fish on 
the table from American fisheries caught by American fishermen? 
If so, then it's time to take a long, hard look at the 
Magnuson-Stevens Act and the burden imposed by other statutes 
on our fisheries.
    We understand that funding is scarce and doing-more-with-
less is inevitable. However, we have a suggestion that could 
work and we ask your indulgence. We ask that future increases 
in our SK revenue be potentially allocated to fisheries 
development for our Nation's fisheries. Our government needs to 
recognize, we need to recognize, that we have the 
responsibility to foster sustainability of our nation's 
fisheries, including those in the far-flung islands in the 
Pacific, in the U.S. insular areas.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Palacios follows:]

Prepared Statement of Arnold Palacios, Chair, Western Pacific Regional 
                       Fishery Management Council
    Chair and Members of the Senate Subcommittee on Oceans, Atmosphere, 
Fisheries and Coast Guard, on behalf of the Western Pacific Regional 
Fishery Management Council (Council), thank you for the opportunity to 
provide this written testimony of the Council's perspectives of the 
reauthorization of the Magnuson-Stevens Act (MSA).
    The MSA is a comprehensive statute that ensures marine resource 
conservation and strives to promote the Nation's fisheries. In past 
reauthorizations, and no doubt during this process, Congress will hear 
that there are ``magical'' solutions to make fisheries sustainable. 
However, the Councils have heard it all before in different guises, 
marine protected areas (MPAs), catch limits, catch shares, etc.; the 
next ``panacea'' will be no different than the ones that went before; 
they may work for some but not for others. Further, our record on 
fishery conservation, management and sustainability speaks for itself 
(see Attachments 1 and 2).
    The core themed message the Council would like to convey through 
this testimony is one of loss:

  <bullet> Loss of fisheries;

  <bullet> Loss of fishing grounds;

  <bullet> Loss of culture;

  <bullet> Loss of perspective; and

  <bullet> Loss of opportunity.

    The Council believes that the solutions to these issues are as 
follows:

  <bullet> Restoration of the primacy of the MSA for managing marine 
        fisheries resources: any measures under other statutes that may 
        restrict fishing (Endangered Species Act (ESA), Marine Mammal 
        Protection Act (MMPA), National Marine Sanctuaries Act (NMSA), 
        Migratory Bird Treaty Act (MBTA), Antiquities Act, Executive 
        Orders, etc., should be implemented under the authority of the 
        MSA and in accordance with processes and time schedules 
        required under the MSA.

  <bullet> Improved funding for the Councils and better allocation 
        prioritization of resources by the National Marine Fisheries 
        Service (NMFS) and the U.S. Fish and Wildlife Service (USFWS) 
        to obtain data on MSA regulated fisheries and on protected 
        species and habitats associated with these fisheries.

  <bullet> Support for U.S. fisheries in international fishery 
        conventions and the recognition that any restrictive measures 
        to be implemented for U.S. fisheries, such as catch or fishing 
        effort limits, must not disadvantage U.S. fisheries to the 
        benefit of less regulated foreign fisheries.

  <bullet> Recognition that some fishery resources are grossly 
        underutilized and not contributing to optimum yield (OY) as 
        specified in the MSA, and that any management measures 
        implemented through the MSA or other statutes should not 
        preclude the utilization of these resources at a future date.

  <bullet> Congressional directive to NMFS to make 60 percent of the 
        entire Saltonstall-Kennedy Act funds available to the Councils 
        and fishing industries to be employed for fishery research and 
        development.
A. Loss of Fisheries
    Fishing is primarily seen as a business, whether commercial for 
income or pursued for pleasure. It is a major employer and generator of 
revenue. However, our Nation has become so obsessed with overfishing 
and endangered species conservation that we are sleepwalking while U.S. 
fisheries are lost, one by one. When the MSA was last reauthorized the 
United States imported 80 percent of its seafood; now we import 94 
percent. This has serious implications for the Nation's food security 
and national security as we become increasingly reliant on imported 
seafood.
    Fisheries play an important role in the food supply and provide a 
source of protein for millions of people worldwide. A loss of fisheries 
is a loss of this protein and has to be balanced by production from 
other sources, particularly land-based proteins. The eminent fishery 
biologist Professor Ray Hilborn has noted that, if lost fish production 
is compensated by cutting the rainforest to grow crops or cattle, the 
total biodiversity consequences will be surely negative.
    Nevertheless, the United States continues to bury domestic 
fisheries under piles of regulations stemming not from not only the 
MSA, but also the ESA, MMPA, NEPA, NMSA, Antiquities Act, MBTA, 
Executive Orders, and international tuna convention conservation and 
management measures (CMMs). The list goes on and on. Further, the 
Department of Defense has a significant presence in the Western 
Pacific, with a further major military build-up expected for the 
Mariana Islands. Activities by the military are already constraining 
fisheries with further proposed closures of waters used for fishing and 
navigation.
    The bureaucratic burden can be measured by the NEPA documentation 
for our Pelagic Fisheries Ecosystem Plan (FEP). Where a few pages of 
commonsense text sufficed in the 1990s, we now draft hefty tomes to 
accompany even the smallest fishery management measure. Of course it is 
important to document what we are doing and why, but review and 
approval of plans and amendments are now unnecessarily tedious, taking 
two to three years to be approved, so management measures may be 
obsolete by the time they are implemented.
    The 2006 reauthorization required NMFS, in consultation with the 
fishery management councils, to develop within 12 months of enactment 
new environmental review procedures. The new procedure would have to 
integrate MSA and NEPA in order to provide for timely, clear and 
concise analysis that is useful to decision makers and the public, 
reduce extraneous paperwork, and effectively involve the public. In 
2013, NMFS issued a policy directive indicating that the processes 
outlined therein meet the MSA requirement to improve the current 
process. The Council, however, does not agree that the process 
envisioned in the directive meets the intent of Congress in the 2006 
reauthorization, nor will it reduce paperwork and provide for timely, 
concise analysis. What the directive does do, however, is put the 
burden on the councils to prepare NEPA documents prior to taking final 
action.
    As the public participation process and level of environmental 
review are largely duplicative between the MSA and NEPA, the Council 
would be in support of MSA reauthorization language that clearly states 
that fishery management plans and amendments prepared in accordance 
with MSA shall be considered in compliance with NEPA.
    The Western Pacific is a paradox: the largest of the eight fishery 
management council areas, encompassing 1.5 million square nautical 
miles with the total land area of 3,398 square nautical miles 
(equivalent to about the size Rhode Island) comprising only about 0.2 
percent of the ocean area and containing less than two million people, 
over half of them living on the island of Oahu (see Attachment 3).
    Despite our size we punch above our weight. The Hawaii longline 
fishery ranks the port of Honolulu consistently within the top 10 
fishing ports and often within the top five. It supplies half of the 
Nation's swordfish and 80 percent of the bigeye tuna landed in the 
United States. Hawaii also consistently ranks within the top 10 states 
with respect to marine recreational fishery landings and is number one 
in recreational per-capita landings.
    The late Senator Inouye used to emphasize that the islands and 
islanders are different from the rest of the U.S. His main point was 
``we don't want more than anyone else we just want different!'' Our 
economies are simple: tourism, military, agriculture and fish. This is 
why there is specific language in the MSA which states that ``Pacific 
Insular Areas contain unique historical, cultural, legal, political, 
and geographical circumstances which make fisheries resources important 
in sustaining their economic growth'' (MSA Section 2: 104-297).
    We've lost not only a pioneering longline fishery in the Marianas 
Islands but also the Northwestern Hawaiian Islands lobster fishery and 
the Northwestern Hawaiian Islands bottomfish fishery. The American 
Samoa longline fishery, the second largest fishery under Council 
jurisdiction is on the brink of collapse, due to competition from 
subsidized foreign fisheries such as China catching the same fish and 
driving down prices while operational costs for the domestic fleet 
continue to increase. We are also deeply concerned about the Hawaii 
longline fishery as its bigeye tuna catch has been reduced by a third 
due to quota management by an international tuna convention.
    The Hawaii longline fishery, along with the American Samoa fishery, 
is an internationally recognized, iconic fishery for environmentally 
responsible pelagic longline fishing. Both fisheries have scored 
greater than 90 percent when evaluated against the United Nations Code 
of Conduct for Responsible Fisheries, and the American Samoa longline 
fishery is an important component of the Territory's small and fragile 
economy.
    Many of the measures adopted for these longline fisheries--such as 
mandatory logbooks, observers, vessel monitoring systems, and measures 
to reduce seabird, turtles and marine mammal interactions--were 
landmark measures adopted by the United States in the Pacific and have 
since been adopted by other fisheries and by the Pacific tuna regional 
fishery management organizations (RFMOs) (see Attachment 2). However, 
effective and prudent management sometimes counts for very little 
within the highly competitive and politicized international fishery 
management arena. The American Samoa longline fishery and those of 
neighboring Pacific Island countries have been driven into bankruptcy 
by heavily subsidized foreign longline fleets, particularly those from 
China.
    The MSA contains measures that aim to level the playing field for 
U.S. vessels forced to minimize fish and protected species bycatch. But 
there is nothing to address the undercutting of U.S. fishing vessels by 
extensive subsidies to foreign fishing fleets for fishery development, 
fuel, access fees, low-interest loans, tax breaks and reduced import 
tariffs.
    The MSA must address this if the Nation wants to continue eating 
fish caught by U.S. vessels in accordance with the MSA and its 10 
National Standards. To further expand on this point two examples are 
presented below that highlight the need to support domestic fisheries 
and the marginalization of MSA through competing protected species 
statutes.
1. International Tuna Management: Level the Playing Field and Support 
        Domestic Fisheries on International Level
    In the Western Pacific Region, tuna is the largest and most 
valuable fishery resource. Tuna is considered a highly migratory 
species (HMS) and is managed internationally within the Pacific by two 
RFMOs: the Western Central Pacific Fisheries Commission (WCPFC) and the 
Inter-American Tropical Tuna Commission (IATTC). The United States is a 
contracting party to both RFMOs. Tuna and other HMS were brought under 
MSA management in the early 1990s. Since that time the Council has been 
managing Western Pacific Region tuna fisheries under its Pelagics 
Fisheries Management Plan (FMP). This was later converted into a FEP, 
along with the other Council FMPs. As a result of the Pelagics FEP 
management regime, the Hawaii and American Samoa longline fisheries are 
among the best managed and most comprehensively monitored longline 
fisheries in the world.
    With HMS stocks, however, sound domestic management does not always 
lead to success. For example, the American Samoa longline fishery, 
which lands albacore tuna for processing at local canneries, has 
largely collapsed due to low catch rates, high operating costs and low 
ex-vessel prices. The fishery targets South Pacific albacore, which 
ranges from Australia in the West to Chile in the East. In recent 
years, Chinese vessels have been catching South Pacific albacore at 
record levels. These vessels have been operating in the high seas and 
the exclusive economic zones (EEZs) of South Pacific countries.
    If there was a level playing field between these vessels and U.S. 
vessels operating out of American Samoa, then the fishery would likely 
not have collapsed--unfortunately there is no parity. Chinese vessels 
are receiving substantial subsidies for fuel, labor and other expenses, 
allowing them to operate at much lower costs. When albacore prices drop 
due to global market forces, U.S. vessels cannot compete with 
subsidized foreign fleets. This is contributing to the loss of U.S. 
fisheries. The reauthorized MSA needs to provide the Secretary of 
Commerce with the ability to level the playing field, either through 
equivalent subsides to U.S. fleets, the prevention of foreign subsidies 
through market access restrictions and/or trade sanctions.
    Another critical issue with respect to the lack of parity between 
U.S. fisheries and foreign fisheries are the stark differences in the 
level of monitoring, domestic implementation of RFMO measures and 
enforcement. This is critically important because the U.S. is a good 
citizen; it diligently monitors its vessels both within the EEZ and 
high seas, undertakes a public rulemaking process to implement 
conservation and management measures in regulations and then enforces 
the regulations and prosecutes violations.
    The same cannot be said for most other members of the tuna RFMOs. 
What is particularly alarming is that the United States agrees on RFMO 
conservation and management measures that will have substantial 
economic impacts when applied to U.S. fisheries, while recognizing that 
other RFMO member fisheries will not be affected due to a lack of 
compliance monitoring and enforcement.
    For example additional cuts for the Hawaii longline fishery were 
accepted by the United States in December 2013 at the 10th Regular 
Session of the WCPFC. Due to an already reduced quota for bigeye tuna, 
the Hawaii longline fishery faces closure every calendar year, and in 
past years (2009 and 2010) was closed from catching bigeye tuna in the 
Western and Central Pacific Ocean (WCPO). No other longline fleet in 
the Commission was subject to a similar closure.
    The United States strictly enforced measures to the detriment of 
its fleet (amounting to tens of millions of dollars of lost revenue) 
while other countries are not subject to similar obligations with 
respect to the same targeted HMS stocks and flood U.S. markets with 
unrestricted catch.
    The MSA should contain language that would prevent further 
reduction of U.S. fisheries catch and effort limits if other countries 
cannot demonstrate compliance with existing international conservation 
and management measures.
    At around 1.5 million square miles, the Western Pacific Region 
represents the largest portion of the U.S. EEZ. The U.S. Coast Guard 
District 14 is responsible for conducting fisheries enforcement 
monitoring in this vast zone; however, available assets are only 
stationed in Hawaii and Guam. American Samoa, which is centrally 
located within South Pacific tuna fishing grounds and the only U.S. 
Territory in the Southern Hemisphere (the U.S. EEZ waters around Baker 
and Jarvis Islands are also in the Southern Hemisphere), does not have 
a U.S. Coast Guard Station with deployable patrol assets. American 
Samoa's post-harvest facilities include the largest U.S. tuna cannery 
on U.S. soil, and as such is a major fishery hub in the Western and 
Central Pacific.
    As combating illegal, unreported and unregulated (IUU) fishing is a 
major issue within international fisheries management, the U.S. Coast 
Guard should homeport patrol vessels or aircraft that could help 
monitor the U.S. EEZ in the region. The last successfully USCG detected 
and prosecuted foreign fishing vessel incursion was in 2009. Patrol 
assets based in American Samoa would also serve an important search and 
rescue mission, whereas under current conditions, New Zealand assumes 
first responder responsibilities. American Samoa is home port to about 
20 U.S. longline vessels, a dozen U.S. purse seiners and numerous other 
foreign fishing vessels. On average approximately 700 foreign fishing 
vessels make port calls in Pago Pago in any given year.
    For the past several years, the U.S. Coast Guard has conducted a 
foreign EEZ shiprider program, where U.S. Coast Guard assets are 
deployed in foreign EEZs with foreign shipriders to conduct fisheries 
enforcement of national laws of the host shiprider. While this program 
likely supports a broader international mission within the region, time 
spent in the EEZ of other countries takes away from patrols that could 
be done in the U.S. EEZ including American Samoa and the Pacific Remote 
Island Areas of Jarvis, Howland and Baker Islands, and Palmyra. The 
Council urges Congress to direct the USCG to prioritize monitoring of 
the U.S. EEZ over that of foreign EEZs.
2. Protected Species Authorities: Endangered Species Act and Marine 
        Mammal 
        Protection Act Driving MSA Management
    Federal fishery regulations for marine mammal conservation and 
management may be promulgated under MMPA authority independent of the 
fishery management council process. Circumvention of the Council 
process results in inconsistencies and conflicts with FMPs and the MSA 
National Standards, as well as a loss in public input and transparency.
    For example, the recently implemented MMPA False Killer Whale Take 
Reduction Plan resulted in duplication of protected species workshop 
requirements in both MMPA and MSA regulations; the existing longline 
exclusion zone created under the MSA was modified for consistency with 
the new MMPA regulation without concurrence from the Council. Public 
input and the transparency of the process were also denied when the 
Council process was bypassed.
    Regulation of Federal fisheries outside of the MSA, such as through 
MMPA, ESA and MBTA, continue to threaten the livelihood of U.S. 
fishermen and place domestic fisheries at a further disadvantage on the 
international playing field.
    Congress should consider requiring that all fisheries-related 
marine mammal and other protected species conservation and management 
measures be promulgated through the MSA process, to ensure such 
measures are consistent with FMPs and the National Standards.
    Limited scientific information on species protected under the ESA 
and MMPA lead to further unnecessary restrictions on U.S. fisheries. 
Assessment of fishery impacts on ESA-listed sea turtle populations are 
dependent on nesting beach trends due to the lack of abundance 
estimates for the entire population, creating a situation similar to 
assessing human health conditions by conducting a survey at a maternity 
ward. New species listings under the ESA have been proposed despite 
limited data about population trends or vulnerability to threats, as is 
the case with the proposal to list 82 species of corals. Infrequent 
stock assessment surveys for marine mammals are producing overly 
conservative population estimates, leading to an extremely low 
threshold of allowable take for U.S. fisheries under the MMPA.
    In the entire Western Pacific only two MMPA dedicated marine mammal 
surveys have been conducted around the Main Hawaiian Islands since 
2002. The consequence of these data limitations are precautionary 
approaches to protecting species under the ESA and MMPA while having 
little true conservation benefits to the species. For example, under 
MMPA promulgated regulations, two observed interactions with false 
killer whales within the Hawaii longline fishery in any given year 
results in the closure of the entire southern portion of the U.S. EEZ 
around the Main Hawaiian Islands (110,000 square nautical miles, or 42 
percent of the U.S. EEZ around the MHI). This is indicative of the 
draconian regulations in the absence of adequate data.
    These data limitations for protected species result from 
questionable allocation of funding resources by NMFS and the USFWS to 
fulfill data needs to properly manage species under the ESA and MMPA. 
Yet, the resulting burden of potentially unnecessary regulations or 
closures is shouldered by U.S. fishermen.
    The MSA should direct NMFS and the USFWS to better prioritize 
allocation of resources to obtain data on protected species and 
habitats associated with MSA regulated fisheries.
B. Loss of Fishing Grounds
    About 90 percent of the MPA areas that have been established in the 
USA are found in the Western Pacific (see Attachment 4), an unfair skew 
by any definition. This is also probably the reason that since 2009, 
NOAA inventories MPAs by numbers per State/Territory rather than 
spatial extent of MPAs per State/Territory.
    Our nation seems to care more about turning Pacific Island coral 
reefs into giant aquaria, finding spurious reasons to enclose more of 
our islands in 50-mile zones that ban most fishing activity while 
trumpeting these places as conservation icons. The banning of fishing 
in the Northwestern Hawaiian Islands has not made fish more abundant in 
the Main Hawaiian Islands as promised by the proponents of MPAs.
    In the same vein, the closure of fishing in the Northwestern 
Hawaiian Islands was also supposed to protect monk seals. Ironically, 
they are crashing to extinction in the Northwestern Hawaiian Islands, 
where there is no fishing, but thriving in the Main Hawaiian Islands, 
where fishing abounds. In short, three quarters of the State of Hawaii 
has been closed to fishing for little to no net gain to the residents 
of the State. At the same time visitors are not lining up in droves to 
visit the Northwestern Hawaiian Islands Marine National Monument (MNM), 
the Marianas Trench MNM in Guam and Commonwealth of the Northern 
Mariana Islands (CNMI), the Rose Atoll MNM in American Samoa or the 
Pacific Remote Island Area MNM. Nevertheless, they were sold to the 
State of Hawaii and U.S. Territories by the Federal Government as 
money-making initiatives that would bring in millions of dollars.
    Further, closing fishing grounds means fishermen are subject to 
greater expense and may have to take greater risks to go fishing. The 
National Institute for Occupational Safety and Health documented a 
correlation between increases in fishermen drowning in Guam with the 
increasing coastal fishery closures (http://www.wpcouncil.org/wp-
content/uploads/2013/02/Guam-MPA-drowning.pdf). Do fishermen have to 
accept a greater risk of going bankrupt or dying to pursue their 
livelihoods?
    Ironically, most of the areas that are now Marine National 
Monuments were already ``protected'' because of their remoteness as 
well as through previous existing conservation designations. Now the 
fishing opportunities they offered are gone, replaced with an army of 
bureaucrats managing an archipelago of paper parks, where fishers are 
locked out potentially forever!
    The MSA needs to be strengthened such that its authority to manage 
fishery resources, including the access and rights to operate in EEZ 
waters by commercial and non-commercial fishing vessels, cannot be 
superseded by other Federal statutes, such as ESA or MMPA. The 
following section will provide greater detail on this problem and its 
effect on OY.
1. Ecosystem-Based Fishery Management and Optimum Yield Hampered by 
        Fishery Closures
    MSA Section 406 enhances fishery conservation and management by 
incorporating ecosystem considerations when managing fisheries. The 
NMFS Ecosystem Principles Panel in 1999 recommended the development of 
FEPs. The Council was the first to implement this type of plan in 2004 
with its Coral Reef Ecosystem FMP and again in 2009 when it converted 
its FMPs to archipelagic-based FEPs.
    These archipelagic-based comprehensive plans include provisions to 
consider ecosystem function, integrity, ecological linkages and effects 
of environmental forcing on managed marine resources. MPAs, MNMs, 
sanctuaries and ``zones where fishing is not permitted'' (an MSA term) 
are just one ecosystem-based management tool. No-fishing zones already 
exist as a provision in MSA Section 303(b)(2)(A), and fishery closures 
from other statutes like the Antiquities Act, NMSA and Presidential 
Executive Orders are in conflict with MSA provisions.
    These conflicts stem from closures typically not being time bound 
and not evaluated or assessed for performance of the closure. MSA 
provides for a stricter evaluation of the performance of a closure and 
should be the primary statute that establishes fisheries closed areas 
regardless of biological, stock-related or diversity conservation 
purposes.
    Monuments and protected areas are also hampering the achievement of 
OY (MSA Section 301(a)(1)). One of the largest MPAs in the world 
(Papahanaumokuakea MNM in the Northwestern Hawaiian Islands) shuts 
itself from commercial bottomfish fishing even though it was deemed 
sustainable. The loss of these bottomfish fishing grounds does not 
allow the United States to maximize the economic value of fisheries in 
the region, thus it will never be able to reach its OY.
    This results in a significant economic loss for both the bottomfish 
industry and the entire State of Hawaii, plus increased imports and a 
higher seafood trade deficit. Planned closures under the Council 
process ensure that the economic impacts of these closures are 
evaluated as dictated by MSA Section 303(b)(2)(C).
    Provisions should be added to the MSA to ensure that any marine 
areas in the United States that are closed to fishing are developed 
under the MSA.
C. Loss of Culture
    The Western Pacific Region is home to many native island people who 
have fishing as part of their cultural and traditional heritage. These 
cultures and traditions date back more than 3,000 years, and, as with 
traditional non-instrumental Pacific Ocean navigation, what is 
preserved and practiced today is but a fraction of the huge knowledge 
base amassed from direct experience and empirical observation.
    Through its experience of trying to rescue this traditional 
knowledge, the Council has found that many of the practitioners in 
Hawaii, American Samoa, Guam and the CNMI are elders who live on the 
margins of society, functioning without computers, e-mail or even bank 
accounts. What happens when native cultures disintegrate is well 
understood. The shelves of college libraries are groaning with the 
studies of people in the United States who have lost their culture and 
the social problems this brings in the creation of welfare dependency, 
spousal/child abuse, alcoholism and substance abuse.
    When these cultures are lost, their knowledge of the fisheries is 
also lost and it's very difficult and sometimes impossible to bring 
them back. The loss of culture causes a break in the chain of skills 
and information that passed between generations, resulting in 
traditions that are gone forever or that must be revived using 
historical narratives, illustrations and guesswork.
    The MSA needs to be strengthened to address the loss of traditional 
fishing and fisheries in the United States so that the knowledge and 
practices of indigenous cultures are not lost or destined for museums. 
Further, Congress should direct NOAA to provide funding to support 
existing MSA authorities, such as the Community Development Program and 
the Community Demonstration Project Program, and to recognize and add 
additional definitions such as customary exchange and subsistence 
fishing to the MSA.
1. The Need for Culturally Appropriate Definitions
    In some parts of the United States, fish is culture. In the Pacific 
Islands, modernization and rigid Western forms of fisheries management 
have eroded cultural connections held fast by fishing; connections that 
revolve around providing food to family, bringing communities together 
and passing on traditional practices to future generations.
    An important aspect of fishing in the U.S. Pacific Islands is the 
concept of generalized reciprocity. Fish are provided to others with no 
expectation of immediate specific or equivalent return, but rather with 
an understanding that at some point in the future the needs of the 
fisherman will be considered by the receiver and/or community in 
general.
    To this end, the Council has recently worked to incorporate this 
concept and its related issues into its management practices by the 
defining and implementing of ``customary exchange'' provisions. In 
partnership with fishermen and within its advisory body and committee 
process, the Council has provided the following definition for 
customary exchange:

        ``The non-market exchange of marine resources between fishermen 
        and community residents, including family and friends of 
        community residents, for goods, and/or services for cultural, 
        social, or religious reasons, and which may include cost 
        recovery through monetary reimbursements and other means for 
        actual trip expenses, including but not limited to ice, bait, 
        food, or fuel, that may be necessary to participate in 
        fisheries in the western Pacific.''

    Congress should amend MSA section 3 to support the implementation 
of this nationally important concept, describe customary exchange, and 
provide for its regional adoption based on local needs and practices.
    Along those same lines, Pacific Islanders also engage in 
subsistence fishing, where fishing is conducted to provide food for the 
family and community. This is an important part of the culture, social 
cohesiveness and food supply for the people. The Council has already 
proposed the following definition for subsistence fishing:

        ``Fishing undertaken by members of a fishing community in 
        waters customarily fished by that community in which fish 
        harvested are used for the purposes of direct consumption or 
        distribution in the community through sharing in ways that 
        contribute to food security and cultural sustainability of the 
        fishing community.''

    The MSA should accommodate regional practices and norms for 
regional fishery sectors.
2. Provide for Cultural Conservation through the Western Pacific 
        Sustainable 
        Fisheries Fund
    Section 204(e)(7) of the MSA establishes the Western Pacific 
Sustainable Fisheries Fund (SFF), which since 2010 has received funds 
from illegal foreign fishing fines and penalties to support projects in 
the Western Pacific Region. Further, the SFF may also receive funds 
from private donors such as philanthropic institutions. These funds 
have been used by the Council to provide for the development of 
fisheries and the preservation of cultural fishing traditions.
    NMFS has determined that the current language of Section 204(e)(7) 
does not to allow earmarking of donations to particular projects. The 
lack of earmarks may inhibit funding donations from philanthropic 
institutions unsure how their funds would be used and thus impede the 
Council's ability to stop the loss of culture and the loss of fishing 
in the region.
    Congress should amend Section 204(4)(7) to clearly allow donors to 
earmark funding for a particular Marine Conservation Plan project when 
contributions are provided to the SFF.
3. Make Minor Changes to the Marine Conservation Plans
    Section 204(e) lists several conservation and management objectives 
to be included in authorized Marine Conservation Plans. Included in the 
list in paragraph (iv) are grants to the University of Hawaii's Pacific 
Island Network. The Pacific Islands Network has ceased to function, so 
it no longer needs to be included in this section.
    Minor changes to the MSA Section 204(e) should be made to remove 
reference to this Network.
D. Loss of Perspective
    All too often in the evolution of MSA, the focus apparently has 
been on how to further restrict fishing. An obsession with overfishing 
has led ingenious avenues of litigation over federally managed 
fisheries. This forces Councils to manage all stocks at limits well 
below the maximum sustainable yield (MSY). New complex rules have been 
designed about peer review, fishery rebuilding plans, essential fish 
habitat, habitats of particular concern and ecosystem component 
species; all of which hinder the ability of the Councils to maximize 
the fisheries and their resources for the betterment of the Nation.
    In the Western Pacific, politicians and non-governmental 
organizations are striving to declare a shark sanctuary in Micronesia, 
regardless of whether such an initiative is rationale or has popular 
support or not. However, the entire U.S. EEZ in the Western Pacific is 
a giant shark sanctuary. There are no dedicated shark fisheries that 
land sharks on an industrial scale anywhere in the region. The fishery 
that catches the largest volume of sharks, the Hawaii longline fishery, 
lets most of them go, and they are released alive.
    Nevertheless, this shark sanctuary initiative has led to state and 
territorial laws banning the possession of shark fins, in direct 
conflict with the MSA, which contains provisions to safeguard sharks by 
requiring landings with fins attached. Another fishery opportunity is 
thus lost for our region. This loss is further compounded as our 
fisheries have often been the leader in developing fishery mitigation 
techniques, and a fishery may be able to provide the solution for 
sustainable shark fisheries. This solution would almost certainly be 
adopted by, or exported to, other nations, as happened with our 
approaches to bycatch minimization. Moreover, in the Mariana 
Archipelago, fishermen have been complaining for decades about fishery 
losses due to shark depradataion.
    As noted above, the MSA needs to be strengthened such that its 
authority to manage marine resources cannot be superseded by any other 
state or territorial statute that is in conflict with the MSA. A 
primary objective of the MSA is to achieve OY, with all other 
objectives subsidiary to this goal. The MSA was structured to provide 
for regional flexibility, which has been largely lost in its 
implementation. Three examples of loss of flexibility within the MSA 
are explained below.
1. Annual Catch Limits Flexibility with Respect to Data Poor Stocks
a. Data-Poor Fisheries

    The Western Pacific Region has more than 1,000 insular management 
unit species. The fisheries that harvest these species are small-scale 
with multiple gears and multiple landing sites. Scarce biological and 
demographic information limit conducting stock assessments to determine 
the status of the species. Without stock assessments for majority of 
these species, overfishing limits cannot be determined and thus annual 
catch limits (ACLs) are based on catch-only methods, which are also 
data poor. Because of the strict mandate for ACLs in the MSA, the 
Council is forced to comply and develop ACLs that may not meet the 
intent of the MSA.
    ACLs in the Western Pacific region are based on the 75th percentile 
of catch time series. Exceeding an ACL in any given year, therefore, is 
unrelated to stock status and does not mean that a stock is being 
overexploited. ACLs should not be established under such circumstances 
unless compelling meta-data indicates stock depletion (e.g., 
traditional and local ecological knowledge, information on changes to 
habitat, etc.). Alternative methods that do not require reference 
points should be explored and allowed to be used. The complexity of the 
small-scale insular fisheries does not conform to the reference-point 
based status determination currently being enforced.
    More flexibility should be given in the situation where data-poor 
stocks exist. National Standard 1 is too stringent given the data-
limited nature of the Western Pacific fisheries. The Council concurs 
with the December 18, 2013, draft House Bill regarding defining ``data 
poor stocks'' and application to ACLs.
    The MSA should distinguish between fisheries that are depleted from 
as a result of fishing and those that are depleted as a result of 
factors other than fishing.
    The MSA should have exemptions from the ACL requirement for data 
poor stocks and add provisions for a time frame for which reliable 
fishery information needs to be obtained in order to remove the stock 
from a data-poor situation.
b. Fishery Data Collection Improvements

    The Territory Science Initiative, introduced by Congresswoman 
Madeleine Bordallo in 2013, is a good first step towards initiating the 
data improvement process. The intent of this initiative is to support 
data collection projects and efforts in Guam, American Samoa, the CNMI, 
the U.S. Virgin Islands and Puerto Rico to increase locally based 
science, build scientific and monitoring capabilities and enhance 
fisheries science capacity. In order to continue to address the issues 
for data-poor stocks, these types of initiatives need to continue on a 
regular basis. The Saltonstall-Kennedy (SK) Grant Program also provides 
support to data collection, which is allocation via competitive basis 
on a national level. The Western Pacific is regionally unique in terms 
of data needs and requirements. Regionalizing the SK allocation and 
establishing a competitive process within each region would address the 
region-specific needs.
    The Council concurs with the December 18, 2013, draft House Bill 
regarding the use of asset forfeiture funds to support improvements in 
fishery independent data collection.
    The MSA should include a territorial data collection program with 
dedicated funding provided to the Territories to improve the amount and 
quality of fishery data being used for management.
c. Incentive for Coordinated State-Federal Annual Catch Limits

    The biomass of the majority of Western Pacific reef and near-shore 
fish stocks is within State/Territorial waters. Thus, effective ACLs 
are contingent upon the State and Territorial governments to 
collaborate with the Council to establish complementary catch limits 
across the range of the stock.
    An ideal management scenario is exemplified by the Main Hawaiian 
Islands Deep 7 bottomfish fishery where coordinated management is 
conducted by the Council, NMFS and the State of Hawaii. Federal and 
state waters open and close concurrently if/when limits are reached 
through each agency's rulemaking process. Funding/staff incentives are 
needed for the State/Territories to develop complementary catch limits 
within the State/Territorial waters and to improve monitoring systems 
and data for more effective implementation of ACLs and better 
conservation of fish stocks.
    MSA amendments to the ACL mandate should consider providing 
incentives for States and Territories to develop complementary 
regulations, including educational initiatives and improved fishery 
management capacity at the local level.
2. Recreational/Non-commercial Fishing
    The way the MSA is currently written and implemented constrains the 
regional flexibility that was at the heart of the 1976 Fishery 
Conservation and Management Act.
    For example, under Section 3(37), recreational fishing is defined 
as ``fishing for sport or pleasure.'' This narrow definition in 
practice is applied to almost all fishing that is not considered to be 
profit-driven. However, in the Pacific Islands, Alaska, and elsewhere, 
motivations for fishing can differ and overlap across fisheries. 
Commercial fishing is driven primarily by profit. Most other fishing is 
underpinned by a diverse spectrum of social and cultural forces.
    It is imperative that the MSA explicitly recognize these 
motivations. The Council has adopted the term ``non-commercial'' 
fishing to capture fishing driven by factors other than the profit 
motive and refers to recreational fishing as ``fishing undertaken for 
sport and pleasure, in which the fish harvested, in whole or in part, 
do not enter commerce or enter commerce through sale or barter or 
trade.''
    This definition, along with the definitions for subsistence fishing 
and customary exchange, provides the basis for non-commercial fishing 
in the Western Pacific Region. These definitions are regionally 
sensitive and allow for the recognition of the various fishing 
motivations to be addressed appropriately in management decision-
making. However, the Council continues to be constrained by the current 
inflexible definitions in the MSA.
    The MSA should be amended to include regionally appropriate 
definitions for recreational, subsistence and other non-commercial 
fishing.
3. Mandate that the Cooperative Research Program Funds Regional Council 

        Research Priorities
    The Council and its Scientific and Statistical Committee annually 
review the performance of its fisheries managed through the FEPs. As 
part of this annual review, research needs are identified and 
prioritized for transmittal to NMFS as required by Congress.
    Given this effort to coordinate research in the region, Congress 
should consider requiring the NMFS Cooperative Research Program (CRP) 
to fund and support projects that are identified by the regional 
Councils. In addition, the CRP should implement regional solicitations 
for projects and distribution of grant funds to improve equity in the 
distribution of funds among the regions and better meet regional 
research needs and priorities.
E. Loss of Opportunity
    The great campaigner for civil rights and social justice Malcolm X 
said, ``The future belongs to those who prepare for it today.''
    One of the fundamental reasons Congress drafted the MSA has been 
lost, namely to encourage fishery development, reduce fishery imports 
and be a more self-reliant nation. Indeed, one of the main goals of the 
MSA is ``to encourage the development by the United States fishing 
industry of fisheries which are currently underutilized or not utilized 
by United States fishermen, including bottom fish off Alaska, and to 
that end, to ensure that OY determinations promote such development in 
a non-wasteful manner.''
    Today, how many of us in the United States have even considered 
that our fishery resources are under-utilized? Yet our Nation continues 
to import fish from fisheries where it has little to no influence. This 
Viking-style approach to commerce that conducts careful conservation at 
home and pillage abroad is unacceptable. We should not be exporting 
problems offshore to countries that may not have the capacity to 
effectively manage their share of the global fishery resource.
    The United States has agreed to additional U.S. longline bigeye 
catch limits and limited U.S. purse-seine fishing on the high seas, 
while other much larger fishing nations with far greater impacts to 
bigeye tuna remain exempt from these international CMMs. This Council 
can tell you that fisheries in the U.S. Pacific Islands are free 
falling, not because of poor management, but because of overly complex 
management priorities coupled with a lack of mechanisms to maintain 
participation in an incredibly tough and difficult industry.
F. Conclusion
    The United States has some fundamental questions to ask itself: Do 
we want a U.S. fishing industry? Do we want fish on our dinner tables 
from American fisheries caught by American fishermen? Or are we about 
to see more and more fishing vessels up for sale, as our American Samoa 
longliners are today?
    It's time to take a long hard look at the MSA and the burden that 
it and other statutes impose on our fisheries. Otherwise, the next time 
hearings are held for MSA re-authorization, the testimonies may well be 
eulogies on the death of U.S. fisheries.

    Attachment 1. In order to meet its mission, the Council relies not 
only upon the 10 MSA National Standards, but also upon the following 
seven Guiding Principles:

  1.  Support quality research and obtain the most complete scientific 
        information available to assess and manage fisheries;

  2.  Promote an ecosystem approach in fisheries management, including 
        reducing waste in fisheries and minimizing impacts on marine 
        habitat and impacts on protected species;

  3.  Conduct education and outreach to foster good stewardship 
        principles and broad and direct public participation in the 
        Council's decision making process;

  4.  Recognize the importance of island cultures and traditional 
        fishing practices in managing fishery resources and foster 
        opportunities for participation;

  5.  Promote environmentally responsible fishing and the utilization 
        of sustainable fisheries that provide long term economic growth 
        and stability;

  6.  Promote regional cooperation to manage domestic and international 
        fisheries; and

  7.  Encourage development of technologies and methods to achieve the 
        most effective level of monitoring control and surveillance and 
        to ensure safety at sea
Attachment 2: Chronology of Council Achievements
    The Western Pacific Regional Fishery Management Council has led the 
Nation in many areas of fishery management. Here are highlights of some 
of these ``firsts.''

------------------------------------------------------------------------
    Year
  Initiated                             Measure
------------------------------------------------------------------------
                     Species Interaction Management
------------------------------------------------------------------------
       1987   Establish the 50 nm protected species zone in the NWHI to
               prevent longline fishery and monk seal interactions.
------------------------------------------------------------------------
       2002   Introduced gear technology to minimize sea bird
               interactions with pelagic longlines.
------------------------------------------------------------------------
       2002   Hosted a series of International Fishers Forums to provide
               longline and other pelagic fishermen an opportunity to
               learn, exchange ideas, and develop solutions about sea
               turtle, seabird, marine mammal and shark bycatch.
------------------------------------------------------------------------
       2004   Required the use of gear technology to minimize sea turtle
               interactions with pelagic longlines.
------------------------------------------------------------------------
       2005   Established a Marine Mammal Advisory Committee in advance
               of the False Killer Whale Take Reduction effort.
------------------------------------------------------------------------
                 Pioneer Fisheries Management Approaches
------------------------------------------------------------------------
       1980   Implemented a fishery management plan for deep-water
               precious corals utilizing harvest quotas a series of area
               closures for spatial management.
------------------------------------------------------------------------
       1983   Banned bottom trawling and other potentially destructive
               and non-selective gear.
------------------------------------------------------------------------
       1987   Banned drift gillnetting throughout the Region.
------------------------------------------------------------------------
       1989   Established the Nation's first vessel-based limited entry
               program, for the Northwest Hawaiian Islands bottomfish
               fishery.
------------------------------------------------------------------------
       1990   Given management responsibility for tuna species.
------------------------------------------------------------------------
       1991   Introduced fully automated satellite-based vessel
               monitoring (VMS) in the pelagic longline fishery to
               support spatial management.
------------------------------------------------------------------------
       1996   Implemented a risk-based annual harvest limit management
               regime in the NWHI which limited harvest to only 13
               percent of the exploitable population and 10 percent risk
               of overfishing.
------------------------------------------------------------------------
       2001   Implemented the first Ecosystem-based Fishery Management
               Plan--the Coral Reef Ecosystem Fisheries Management Plan.
------------------------------------------------------------------------
       2005   Developed a series of ecosystem workshops to integrate the
               biophysical, social, and policy attributes of fisheries
               management.
------------------------------------------------------------------------
       2010   First Council to transition all species-based Fishery
               Management Plans to place-based archipelagic Fishery
               Ecosystem Plans.
------------------------------------------------------------------------
                   International Fisheries Management
------------------------------------------------------------------------
       1997   Negotiated and implemented, with partners, a new
               international tuna fishery management organization in the
               Western and Central Pacific Ocean.
------------------------------------------------------------------------
                      Protected Species Management
------------------------------------------------------------------------
       2004   Developed, implemented, and have maintained a
               comprehensive sea turtle population recovery program.
------------------------------------------------------------------------
       2004   Convened a series of international conservation workshops
               for Pacific sea turtles.
------------------------------------------------------------------------
                   Education, Outreach, Communication
------------------------------------------------------------------------
       2003   Showcased renowned chefs known for locally-caught regional
               seafood cuisine.
------------------------------------------------------------------------
       2006   Developed annual high school summer course on marine
               science and fisheries management.
------------------------------------------------------------------------
       2007   Host annual teacher workshops on sustainable fisheries and
               student symposia on coral reefs and other topical issues
               in Hawaii and the U.S. Pacific Island territories.
------------------------------------------------------------------------
       2007   Held an international marine education conference that led
               to the establishment of an ongoing international marine
               educators network.
------------------------------------------------------------------------
       2011   Initiated community workshops and Fishers Forums on
               coastal and marine spatial planning.
------------------------------------------------------------------------
                             Fisheries Data
------------------------------------------------------------------------
       1991   Introduced comprehensive longline fishery logbooks and
               reporting requirements for pelagic longline vessels.
------------------------------------------------------------------------
       1991   Deployed full-time observers on pelagic longline vessels.
------------------------------------------------------------------------
       1998   Hosted the first symposium on Pacific game-fish
               tournaments.
------------------------------------------------------------------------
       1998   Used the satellite-based vessel monitoring (VMS) in the
               NWHI lobster fishery to report daily catches to monitor
               the annual harvest limit.
------------------------------------------------------------------------
       2007   Conducted and published a comprehensive study of shark
               depredation of pelagic longline catches.
------------------------------------------------------------------------
                           Spatial Management
------------------------------------------------------------------------
       1980   Implemented a fishery management plan for deep-water
               precious corals utilizing harvest quotas a series of area
               closures for spatial management.
------------------------------------------------------------------------
    Traditional and Indigenous Consideration in Fisheries Management
------------------------------------------------------------------------
2005-ongoing  First Council to use lunar calendars as a means to
               document traditional and marine resource use in Hawaii
               and other Pacific Islands
------------------------------------------------------------------------
       2006   Convened a series of traditional fishery management and
               marine resource use workshops (Puvalu series).
------------------------------------------------------------------------
       2007   Fomented a Traditional Knowledge Committee in the National
               Marine Educators Association.
------------------------------------------------------------------------
       2012   Coordinated and organized U.S. Pacific Island indigenous
               communities to be represented at the First Stewards bi-
               annual climate change symposiums in Washington, DC, which
               brings together American Indians, Alaskan Natives, and
               the Hawaiians, American Samoans, Chamorro and Refaluwasch
               of the U.S. Pacific Islands.
------------------------------------------------------------------------
       2013   Promoted socio-cultural aspects of non-commercial fishing,
               such as subsistence fishing and cultural exchange, and
               implemented them in regulation.
------------------------------------------------------------------------

Attachment 3. Claimed and potential maritime zones (EEZs) of Western 
        and Central Pacific Ocean
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
Attachment 4. Percent of U.S. MPAs by Region. Note this figure was 
created prior to the creation of the Marianas Trench, Pacific Remote 
Island Area and Rose Atoll Marine National Monumentss, which increased 
the Pacific Islands MPA percentage from 78 percent to 90 percent of the 
national total.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Begich. Thank you very much for your testimony.
    Next, I have Mel Moon, Director of the National Resources 
of the Quileute Nation. And thank you very much for being here.

                STATEMENT OF MEL MOON, DIRECTOR,

          QUILEUTE NATURAL RESOURCES, QUILEUTE TRIBE,

                      LA PUSH, WASHINGTON

    Mr. Moon. Thank you.
    [Speaking foreign language.]
    Mr. Moon. Greetings.
    [Speaking foreign language.]
    Mr. Moon. Good morning.
    My name is Mel Moon. I'm the Director of Quileute Natural 
Resources for the Quileute Indian Tribe in La Push, Washington. 
We're a tribe that's located in the Northwest Washington coast. 
And I'm happy to be able to speak with you in such good 
company.
    [Laughter.]
    Mr. Moon. I know Mr. Stelle and Dr. McIsaac, we've worked 
together quite a bit over time and I appreciate their company 
and their being here today. I also want to extend a thank you 
to Senator Cantwell for her work and support to the Quileute 
Tribe especially in our tsunami bill situation. The tribe was 
finding itself, in being located right at sea level, we were 
fighting the anxiety of the tsunami events and potentials that 
would disrupt our community, but we are very thankful for your 
help and forever grateful. Thank you very much.
    I'm going to speak today about two topics in particular and 
perhaps start with a little bit of a background on the tribe's 
history with the Magnuson Act. In 1855, 1856, the tribes 
entered into treaties with the United States. The Quileute 
Tribe, in particular, entered into the Treaty of Olympia which 
was signed in 1856. In 1970, 1971, the tribes, with the U.S. 
Government Justice Department, filed an injunction against the 
State of Washington because the tribes were not able to 
exercise their fishing rights. They were being withheld from 
that.
    1974, the U.S. District Court Judge Boldt ruled that the 
tribes did retain their original fishing rights, reaffirmed 
that those rights were still available. The state needed to 
desist and set the terms at 50 percent of the resource passing 
through the tribe's usual and custom areas.
    In 1976, the Magnuson Act gets created and it has an 
introduction of people like Mr. Stelle and his staff and people 
from the Pacific Fishery Management Council; we began to have a 
relationship. And that was primarily with four tribes on the 
Washington coast; there is the Makah Tribe, who is in the 
Treaty of Neah Bay; there is the Quileute Tribe; the Hoh Tribe; 
and the Quinault Tribe who are part of the Treaty of Olympia.
    Since that time, we've had a great deal of discussion and 
evolution about the meaning of our fisheries and how they 
should be prosecuted. And some of it is under, you know, terms 
of litigation, some of it is under terms of agreement, but it's 
gone through an evolution. I think that has at least created, 
in the end, a strong relationship.
    So we are engaged in discussions with the Pacific Fishery 
Management Council and with the NOAA, the National Marine 
Fisheries Service Reps on a number of our fisheries. And some 
of our fisheries that we deal with, like our crab, black cod, 
salmon, halibut, groundfish, covers quite a large range. The 
difference, though, is that the four coastal tribes actually 
exercise treaty rights outside of the three-mile area of the 
state. So that creates a co-management relationship with the 
Federal agency, the NOAA National Marine Fisheries forum. Under 
that, we have regular discussions on government-to-government 
basis about our issues. But of late, we've had recent 
discussions with the council about representation and how that 
representation on the Pacific Fishery Management Council would 
be best for both sides in terms of communications and outreach.
    A letter was sent out to all the tribal chairs. The 
response was mixed. And so, I think that kind of gave us a 
pretty clear indication that there's quite a diversity between 
the 25 tribes that may be affected. Our opinion is that we 
would like to see funding and support for the tribes to 
collectively create that representation structure with the PFMC 
process. It takes time, it takes discussion. You know, for me 
to present this is the answer, wouldn't solve the problem. So 
we need to have a backup, do a work group or do a sub-forum 
that answers the question, What is adequate representation? 
Because these tribes, some are executive order, some are treaty 
tribes, some are still just newly recognized, and some have 
off-reservation rights and some don't. So there's quite a 
diversity in terms of the makeup of the tribal interest.
    The other issue I wanted to speak about was the essential 
fish habitat measures. A number of areas have been designated 
for special management considerations. We have several off in 
our usual and custom area for fishing; we're witnessing some 
changes that are happening in our area particularly in crab and 
black cod where the fish are no longer there. So we're starting 
to see displacement from other fisheries that are being shut 
down. We're starting to see the impact of perhaps bottom trawl 
fisheries that are displacing some of our principle economic 
fisheries, such as black cod and crab.
    So I think we're going take a different look at EFH, there 
was a--does Marine Protected Areas need to be here? Well, we 
didn't think they needed to be. Does EFH need to be here? Well, 
I think we're now taking a second look at that. And again, I 
think we need resources, the tribes, in order to engage in this 
process adequately.
    Thank you.
    [The prepared statement of Mr. Moon follows:]

 Prepared Statement of Mel Moon, Director, Quileute Natural Resources, 
                  Quileute Tribe, La Push, Washington
    Thank you for inviting me to speak to you today. I am the Director 
of Quileute Natural Resources within the Quileute Tribe. I will be 
speaking about the reauthorization of the Magnuson Act modifications 
and recommendations which the Quileute Tribe, a signatory in 1856 of 
the Treaty of Olympia, recently presented to the PFMC. My talk is about 
fair and equitable tribal roles in the fisheries management scheme. I 
would also like to include some additional information and topics of 
interest I feel are relevant to the Magnuson Act reauthorization from 
the perspective of the four treaty tribes on the Pacific Coast of 
Washington, all of whom have reserved treaty fishing rights that extend 
into the ocean beyond state limits. At the PFMC of November 2013 in 
Costa Mesa, the Quileute Tribe addressed two issues that we feel would 
impact and affect all four of these treaty tribes as well as the PFMC. 
The first concerns the tribal seat on the PFMC--how it is selected and 
operates. The second regards the Essential Fish Habitat review process. 
Further, I would also like to mention our concerns over U.S. trustee 
support and responsibility towards the west coast ocean treaty tribes, 
including timely notice and communication of matters directly affecting 
our treaty rights. These concerns cover a number of issues; for 
example:

  <bullet> climate change;

  <bullet> increased role in groundfish management decisions

  <bullet> increased role in sustainability issues regarding fisheries 
        of economic importance to tribes

  <bullet> recognition of need for Disaster Relief

    In the 1970s, the State of Washington was still arresting Indians 
for fishing in their treaty areas, but off-reservation. So in 1974, the 
tribes filed an injunction against the state, which was interfering 
with their treaty rights. This is the landmark case many of you know as 
the Boldt decision, formally called United States v. Washington (384 F. 
Supp. 312, W. D. Wash.) affirmed that the tribes with treaties 
negotiated by Isaac Stevens in the mid-1850s had reserved, off-
reservation fishing rights in their Usual and Accustomed Fishing 
Grounds and each tribe was entitled to 50 percent of the fishery 
passing through its treaty area. Further, the treaty tribes were co-
managers of the fishery with the state of Washington. This case was 
fully affirmed by the United States Supreme Court in 1979 (under a 
different name after joinder: Washington v. Washington State Commercial 
Passenger Fishing Vessel Association et al., 443 U.S. 658). This is a 
living case; Paragraph 25 at the end leaves it open for subproceedings 
to keep refining our understanding of the treaty fishing rights because 
of their importance and complexity. Although the original case was 
about wild salmon and river fishing, subsequent subproceedings made it 
clear that hatchery fish and all the ocean species, finned or 
shellfish, are ``treaty fish'' as well.
    Under the Boldt decision provisions, the Yakama, Quinault and in 
1998 the Quileute are formally recognized as self-regulatory, having 
demonstrated their sufficient capacity. The Boldt decision opened the 
door for a formal tribal role in fisheries management--in fact, ordered 
it (field surveys, regulations), but despite this, it has been a 
struggle for the treaty tribes to have a meaningful role in decisions 
regarding their treaty rights and to protect their fishery.
    For example, in the 1970s, the state of Washington was aggregating 
the salmon from seven major rivers or estuaries within the Treaty of 
Olympia (Quillayute, Hoh, Queets, Quinault, Humptulips, Grays Harbor, 
and Chehalis), in determining the allowable harvests for the ocean 
troll fishery. The state totaled all the needs of the coastal treaty 
tribes and then averaged them with a combined escapement goal. This was 
resulting in overharvest of some runs by as much as 70 percent. Hoh v. 
Baldrige (522 F. Supp. 683 (W.D. Wash. 1981) was the Federal court case 
that put an end to that practice so that now salmon must be managed on 
a river by river basis within this area. The tribes had tried to 
resolve this problem through PFMC, but it proved necessary to resolve 
the matter in Federal court.
    The result is the annual North of Falcon process, which gives 
tribes full representation with the state in determining fishing 
seasons and developing a management plan founded on technical analyses 
by all parties, discussion, and negotiation. This is a good model for 
other forums. Because of this ruling and the required management terms 
presented and argued by the coastal tribes, the salmon within the Hoh 
v. Baldrige case area enjoy a non-ESA status, unlike many of the Puget 
Sound and Strait of Juan de Fuca stocks.
    North of Falcon is held just before PFMC in the spring. 
Representation of tribal interests at PFMC has been more difficult. 
Only one tribal seat exists at present, from all states on the Pacific 
Coast and Idaho, regardless of distinctions between treaty tribes with 
ocean rights and tribes that fish under different circumstances. Over 
the years, we have had four tribal representatives to the PFMC: Guy 
McMinds of Quinault, Bill Yallup of Yakama, Jim Harp of Quinault and 
today Dave Somes of Makah. I personally know and have respect for all 
of these representatives but need to point out the misconception that 
all tribes are the same and have similar policy, so that one person can 
represent them. This is not the case for the states. Coming from 
different widely geographic areas, with different languages and 
customs, and fishing for entirely different stocks of fish, tribes have 
different needs. Some tribes operate under executive orders; some have 
treaties with reserved off-reservation fishing rights, and four in 
Washington have treaties with off-reservation reserved rights in the 
ocean beyond three miles. The various treaties reflect and derive from 
these differences. Some tribes are still trying to obtain their 
original sovereign identity or restore it due to the termination 
policies of the U.S. government in the 1950s. While we are joined by 
the commonality that we are all-fish-eating people, the rights and 
concerns are vastly different.
    In its earlier years, PFMC created an Indian Advisory Board. This 
was not workable because it was structured for west coast non-Indian 
discussion and did not include the ocean treaty tribes as members of 
that board. The Indian Advisory Board was later terminated after the 
PFMC consulted with the tribes and realized that the treaty tribes 
wanted to be on the Board. The state of Washington then offered one of 
its seats for one of the ocean treaty tribes to occupy. Since at least 
1996, the PFMC, in accordance with 16 U.S.C Sec. 1852, has provided for 
a tribal seat (1 of 14 voting seats overall). Before North of Falcon, 
this was the only forum and process for ocean salmon management between 
the co-managers (State and Tribes). The PFMC has a far larger role than 
North of Falcon, incorporating a much larger area. It is critical for 
the diverse (more than 25) tribes to have a larger role in the process, 
as significant a role as they do have in North of Falcon. To that end 
the Treaty of Olympia tribes presented statements in Costa Mesa this 
past fall.
    If the tribal representation remains limited to one person, then:

  <bullet> At the least, all tribes with jurisdictions with the PFMC's 
        jurisdiction should be able to present nominations for the 
        seat;

  <bullet> the PFMC may evaluate them and reduce the final number for a 
        vote, but all tribes need to have an opportunity to comment on 
        the nominees;

  <bullet> Because so many tribes are represented by one person, a 
        provision regarding conflict of interest should be developed 
        and implemented.

    The Quileute Tribe, however, believes that one tribal 
representative does not adequately reflect the existence of four 
sovereign tribal governments with fishing rights extending into Federal 
waters of the Washington Pacific Coast, or the existence of over 25 
tribes in four states. Just as PFMC technical processes have evolved 
through the years to accommodate changing resource knowledge and the 
nature of fisheries, so should the structure of representation. Federal 
and state seats allow for rotation of individual representatives at the 
Council Table, based on expertise. Tribal representation might well 
parallel this procedure.
    We suggest that PFMC create a process inclusive of the affected 
treaty tribes and our Federal trustees, to discuss a more equitable 
tribal representation in the PFMC forums (Council and Advisory 
Committees).
    Regarding the topics of concern at the beginning, other than the 
tribal seat: Quileute has been following the Essential Fish Habitat 
process, to update the designated areas after five years and to 
evaluate the Requests for Proposals. We submitted a statement on that 
matter in November at the PFMC as well. It is important when making 
these decisions to have clarity on what factors create the EFH, what 
factors might ``off-ramp'' it. In addition, for each EFH created to 
protect an area, how might that delineation shift fishing pressures 
unduly to another area?
    On another note, as Samuel Rauch of NMFS has testified in March of 
2013, central to the Council decisions are fishing jobs, the 
``lifeblood'' of many coastal communities. To protect the jobs of our 
tribal members in our own coastal communities, we need to be able to 
fully engage. For that, we need to be assured that the Federal trustee 
will have the time and funds to fully engage with the treaty tribes:

  <bullet> on EFH;

  <bullet> on evaluation of the halibut stocks and distribution in Area 
        2A;

  <bullet> on working with the International Pacific Halibut 
        Commission;

  <bullet> on the need to have data such as bycatch in a timely way to 
        plan for our fisheries;

  <bullet> on sustainability concerns for commercially important 
        fisheries such as black cod and Dungeness Crab--helping us with 
        monitoring programs;

  <bullet> on climate change vulnerabilities; and

  <bullet> for disaster relief when stocks crash.

    It is important for the Federal trustee to recognize, in working 
with tribes on all of the issues covered by the Magnuson-Stevens Act, 
the PFMC, the North of Falcon process, and treaty negotiations in 
general, that each tribe is a sovereign government, and that consortia 
should only be consulted in their place if the tribe has delegated its 
position to the consortium, for that purpose.
    Thank you for the opportunity to present these issues of concern.
            Sincerely,
                                             Mel Moon, Jr.,
                            Director of Quileute Natural Resources,
                On behalf of the Quileute Tribe of La Push, Washington.

    Senator Begich. Thank you very much.
    Thank you for your testimony.
    I will pass by my questions. I'll go to the members in 
attendance and start with those who, in the order of 
appearance, and I'll start with Senator Schatz and then Senator 
Cantwell. And I may forego my questions so we can get to the 
next panel because I know that two Senators have colleagues on 
there.
    So, Senator Schatz.
    Senator Schatz. Thank you, Chair Begich.
    For Mr. Stelle, what's the status of the proposed amendment 
to the Bigeye Tuna Fishery Management Plan that would allow 
transfer of the quota from U.S. flight territories to Hawaii 
longliners?
    Mr. Stelle. Thank you, Senator.
    The status is that it's out for public comment. Public 
comment period closes end of the month. We are on schedule to 
make a secretarial determination on it by the end of March. If 
that is affirmative, then we are anticipating implementation by 
May of this year. So fundamentally, it's totally on our radar 
screen. We're tracking it.
    Senator Schatz. Thank you very much.
    Thank you, Chairman.
    Senator Begich. Any additional questions?
    OK, Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    And I do want to submit a statement for the record. And I 
want to thank you for holding this hearing and for your 
aggressive approach to going around the country in various 
regions to talk about these issues and being recently in the 
Pacific Northwest and focusing on a hearing as it related to 
our larger maritime industry. It is a worth $30 billion in 
annual economic activity and supports 57,000 direct jobs. So, 
when we're talking about these issues for us, it's big 
business.
    And, Mr. Stelle, I wanted to start with you. Thank you for 
bringing up where we are in the Pacific Northwest as far as 
management, sometimes my colleague and I, from Alaska, get a 
little bit of heat from the Northeast. They don't like our 
opinions about where they should be on management issues, but 
since we have a lot more fish it seems to be working.
    So, one question, you know, are there still major fisheries 
being managed in the U.S. that need more data and better 
science? And are there any data-poor fisheries in the Pacific 
Northwest that could benefit from, you know, a major 
investment?
    Mr. Stelle. Yes, on the first. And I think, as I alluded to 
earlier, the Western Pacific is Exhibit A on that point, on 
data-poor fisheries. It's a major impediment. On the Pacific 
Coast, data-poor stocks per se----
    Don, what do you think? How would you answer that?
    Dr. McIsaac. Yes. Thank you, Senator Cantwell.
    There are some data-poor stocks on the West Coast. When 
they become a bottleneck species, it can be a problem. We have 
a pretty good relationship with the Science Center right now in 
coordinating how the science money is spent. But I'd be remiss 
if I did not say that additional money for science on 
groundfish studies would be beneficial.
    Senator Cantwell. Well, I should--yes.
    I wanted to talk about REFI Bill and get your input on 
that. With the rising costs of participating in a West Coast 
groundfish forum, are fishermen able to pay down their loans 
and what should we be doing on that?
    I mean, to me, Magnuson-Stevens is not about the big, broad 
changes, but the constant staying on top of the industry needs 
in driving further efficiencies. And those resources help us 
drive further efficiencies where everybody wins. And so, I 
certainly agree with your philosophy on that.
    But anyway, on the groundfish fisheries, any thoughts from 
either of you on that point?
    Mr. Stelle. First of all, on the weak stock issue, it's 
probably some of the bycatch stocks, where the data stock 
assessments is most difficult.
    On the issue of buyback and some of the financial features 
of the groundfish fishery, the two principle challenges, I 
think, are refinancing or financing the buyback loans is one 
category. And the second is the scheduled reduction and phase-
out of Federal support for observer coverage. And those are two 
real substantial, immediate challenges facing the industry from 
a financial perspective.
    Senator Cantwell. Mr. McIsaac, has the Council looked at 
this issue and do they have an opinion?
    Mr. McIsaac. Yes.
    The Council has looked at it. We have a letter on record in 
support of the buyback bill that is out there for 
consideration. And as Mr. Stelle indicated, the individual 
fishermen out there that are now coming to the dock and paying 
a portion of their landings for this buyback loan. Another 
portion for observer coverage and, of course, all those that 
are almost State landing taxes, is quite a burden.
    So the Council does feel like moving forward with 
refinancing. A pretty old loan at a pretty high interest rate 
would be a good thing to do.
    Senator Cantwell. OK, and just quickly since I have about a 
minute left, hardly a subject for a minute, but how do the 
budget cuts, you know, as it relates to salmon affect our 
obligations as it relates to treaty rights?
    Either, Mr. Moon or Mr. Stelle.
    Mr. Stelle. Mel, go first please.
    Mr. Moon. Well, certainly the work that we're doing on the 
coast, I think, is reaching a sustainability level. I know 
we've moved into management measures that have actually 
resulted in non-ESA situations on the coast. So those funds are 
well spent. We are, you know, dealing with some plentiful 
stocks. Of course, there's a natural ebb and flow, but it would 
really be good to be able to maintain that level.
    Mr. Stelle. I'd flag two topics generally, Senator. The 
first is science on survivals, productivity and survivals. And 
in particular, near shore marine, early life stage marine 
survivals, they're in the toilet and we don't know why. And so, 
we're creating a muffling productivity and that's a major----
    Senator Cantwell. Is that about acidification or----
    Mr. Stelle. It could well be an indirect effect of changing 
acidification.
    So the first is productivity in the science realm, 
productivity. And the second, as you well know, is habitat. If 
we continue with the long-term demographics as we see them, and 
if we don't change the way we manage our landscapes, we're 
going to be losing habitat and that continued loss of habitat 
is loss of productivity which is loss of those trust resources.
    So those are, I would say, the two bigger challenges in 
salmon land. Salmon land management, per se, is quite 
sophisticated, quite stable and in pretty good shape. So it's a 
science issue and it's a habitat issue.
    Senator Cantwell. Thank you.
    Thank you, Mr. Chairman. I know you want to get to the 
second panel as do I.
    Senator Begich. No problem. Let me just clarify one thing. 
When you say habitat, upstream habitat, as well as----
    Mr. Stelle. Yes, sir. Riverine and estuarine.
    Senator Begich. Very good. Thank you very much. Makes me 
more confident in the decision I made last week.
    [Laughter.]
    Senator Begich. So thank you very much.
    Senator Cantwell. Mr. Chairman, let me just say that I know 
we're going to hear on the second panel, you know, about this 
issue. And certainly I, again, applaud you for, you know, 
working on this.
    When we start talking about, you know, the same impacts 
that shellfish have had from acidification that the food source 
for salmon having the same challenges. But certainly thank you 
for your global approach to all of this.
    Senator Begich. Thank you very much. Thank you very much.
    And for me, and my questions, I'll submit for the record 
for you to respond to because I want to give to my two 
colleagues here as much time with the second panel as time will 
allow before the votes.
    But again, thank you all very much for attending today. 
Good information. Good written testimony also.
    Thank you.
    If the next panel could come forward.
    And again, we have votes at 11:15. The first vote will be 
15 minutes and then three 10-minute votes after that. So we'll 
have, I think, the ability to do the panel and probably get to 
your questions. So I'll skip my questions again, too.
    [Pause.]
    Senator Begich. Thank you, again, to the next panel.
    We appreciate your willingness to attend today and to 
participate and those that--any time we have folks from the 
West Coast, Hawaii, you have to travel a long distance, so we 
thank you for taking the time to be here. I had someone last 
night I was supposed to be at an event with, they haven't been 
able to get out of Juneau for 2 days because of fog and other 
weather conditions. So thank you for attending.
    The first panelists we have, and I'll start from this side, 
left. And kind of my left, your right, I guess and move 
forward. Michael Goto, Auctioneer with the United Fishing 
Agency of Honolulu. So Michael, we'll start with--there we go. 
Well, I've actually gone right to left, now. OK. My list is 
that way. So, Michael, we'll start with you. And we'll go ahead 
and again we'll just go that way down the list.
    Go ahead, please, Michael.

          STATEMENT OF MICHAEL GOTO, REPRESENTATIVE, 
                 HAWAII-BASED LONGLINE FISHERY

    Mr. Goto. Thank you, Mr. Chairman.
    I apologize for running in late. Security mixed up my 
jacket at the metal detector so someone has my wallet in the 
building.
    [Laughter.]
    Mr. Goto. So, I might have a hard time getting home now.
    Senator Begich. Well, did you get a better jacket?
    [Laughter.]
    Mr. Goto. No, I did not.
    [Laughter.]
    Mr. Goto. Mr. Chairman, members of the Subcommittee, thank 
you for giving me the opportunity to speak at this hearing for 
the Reauthorization of Magnuson-Stevens Act. I would especially 
like to thank Senator Brian Schatz for his support and 
encouragement in having me at this hearing.
    My name is Michael Goto and I am representing the Hawaii-
based Longline Fishery. I'm a third generation operator of the 
Honolulu Fish Auction, the focus of the local seafood industry 
in the state. I serve on the Board of Directors of the Hawaii 
Longline Association, the main co-op of longline fishermen, as 
well as a council member on the Western Pacific Fishery 
Management Council. These positions have given me valuable 
insight into the realm of fisheries management, as well as 
impacts of working under the Magnuson-Stevens Act.
    Members of the Committee, my main point to you is simple: 
the Hawaii-based longline fishery is the most important tuna 
longline fishery in the United States. There's also a globally 
iconic model of environmentally responsible longline fishing. 
This fishery is a standard of sustainability and optimal use of 
fishing harvest through science-based management and commercial 
value of its products.
    This level of success has been achieved in part through the 
Magnuson-Stevens Act and the ten National Standards. 
Unfortunately, the MSA is not the only statute with which 
Hawaii Longline Fishery must comply. The application of other 
statutes, specifically the Endangered Species Act, the Marine 
Mammal Protection Act, and conservation measures from 
international tuna conventions, have the potential to impede 
the survival and continuity of the fishery; especially through 
the misuse of those statutes by litigious advocacy 
organizations.
    Additionally, the Hawaii fishery must also contend with 
market competition from foreign fisheries which may be 
practicing illegal, unreported and unregulated fishing, or IUU, 
whose adherence to sustainable fishery management is not nearly 
as regulated as those of any domestic fishery; especially the 
Hawaii longline fleet.
    To give you a little background, the Hawaii-based Longline 
Fishery consists of a shallow-set swordfish fishery and a deep-
set tuna fishery; the latter of which is the core of the 
industry. Due to Hawaii's geography, the fishery operates 
mainly in the Western and Central Pacific Ocean. The target of 
the deep-set fishery is the Pacific bigeye tuna which, in its 
raw form, yields the highly-coveted product known as 
``sashimi,'' one of the most highly sought food commodities in 
the world.
    Now that you've heard a little bit about the fishery, I'd 
like to throw some numbers at you for the sake of perspective. 
In a 2012 NOAA study, the Hawaii longline fleet was only 
thirty-fourth in the Nation in landed seafood volume yet it was 
fifth in total landed value to the tune of $100 million. This 
amount was only at the base level; before wholesale and retail 
markups; before considering restaurants and tourism; even air 
cargo carriers and freight. All told, this small fishery 
produces nearly half a billion dollars in domestic commerce.
    From the same 2012 study, the total U.S. domestic landings 
of bigeye tuna were around 15 million pounds. The Hawaii 
longline fleet landed 14 million of this total, translating to 
about 93 percent of the take attributed to the Hawaii longline 
fleet. This relates the importance of bigeye catch to both the 
Hawaii fleet and the commercial value of which it produces.
    ``Domestic'' is the key word here. Nearly 98 percent of 
Hawaii longline landings stay in the state or the Continental 
U.S., with just 2 percent heading to foreign markets. To 
reiterate, this is a domestic fleet providing domestic product 
to a domestic market.
    Aside from the economic and national significance of the 
fishery, the underlying value is the great social and cultural 
importance to the state of Hawaii. The sashimi product has 
become a staple of local culture in Hawaii. It's the equivalent 
to crawfish in the Gulf; to salmon in Alaska; to lobster in New 
England; or to crab in Maryland. To be without this fundamental 
aspect of Hawaii culture is unthinkable.
    Hawaii is also critically dependent on seafood not just as 
a cultural staple, but as a form of subsistence. Per capita, 
Hawaii residents annually consume about triple the amount of 
fish compared to the U.S. average making locally caught fish a 
key component of food security to the state of Hawaii.
    In summary, the Hawaii longline fishery is a low-volume, 
high-value fishery. It contributes immensely to the economy and 
commerce to the state of Hawaii and the continental U.S. and 
sustains the culture and tradition of the state of Hawaii and 
contributes significantly to the food security of the islands.
    Talking quickly about management importance, with the 
guidance of the Magnuson-Stevens Act and the ten National 
Standards, Hawaii's fleet has pioneered exemplary fishery 
management, including the mitigation of protected species, the 
most important of which, and I see my time is about up, are 
reducing interactions to protected species and impacts on 
ecosystem and complying with international quota-based 
management for harvesting tuna.
    Fast-forward to the end of my--ironically the fisheries 
supplying tuna into the U.S. market are not held to the same 
standards in the Hawaii fleet. And I am, of course, talking 
about imports. Illegal, unreported, and unregulated fishing 
methods are continuously taking advantage of unfair situations 
that the Hawaii longline fishery finds itself in. With increase 
in crew, transportation, enforcement costs, extreme fuel 
prices, the Hawaii fleet struggles to survive against these 
odds especially with this foreign product undercutting their 
market and driving them out of business.
    Ultimately, current management measures in place are, in 
effect, giving opportunity for unregulated foreign product to 
flood the U.S. market, severely crippling the Hawaii fishery, 
and having immeasurable environmental impacts.
    Thank you for the time.
    [The prepared statement of Mr. Goto follows:]

          Prepared Statement of Michael Goto, Representative, 
                     Hawaii-based Longline Fishery
    Mr. Chairman and members of the Committee, thank you for the 
opportunity to testify at this hearing for the reauthorization of the 
Magnuson-Stevens Act.
    My name is Michael Goto and I am representing the Hawaii-based 
Longline Fishery. I am a third generation operator of the Honolulu Fish 
Auction: the focus of the local seafood industry in the state. I serve 
both on the Board of Directors of the Hawaii Longline Association, the 
main co-op of longline fishermen, and as a Council Member of the 
Western Pacific Fishery Management Council. These positions have given 
me valuable insight into the realm of fisheries management and the 
impacts of working under the Magnuson-Stevens Act.
    Members of the Committee, my main point to you is simple: the 
Hawaii-based longline fishery is the most important tuna longline 
fishery in the United States. It is also a globally iconic model of 
environmentally responsible longline fishing. This fishery is a 
standard of sustainability and optimal use of fishing harvest through 
both science-based management and commercial value of its products.
    This level of success has been achieved in part through the 
Magnuson-Stevens Act and its 10 National Standards. Unfortunately, the 
MSA is not the only statute with which the Hawaii Longline Fishery must 
comply, and the application of other statutes, and the misuse of those 
statutes by litigious advocacy organizations, has the potential to 
impede the survival and continuity of this fishery, especially the 
Endangered Species Act, Marine Mammal Protection Act, and conservation 
measures from international tuna conventions.
Background
    I'd like to begin with some background of our industry. The origins 
of the Hawaii-based longline fishery can be traced back to the turn of 
the 20th century. In 1917, Japanese immigrants to the Hawaiian Islands 
introduced their style of ``flag'' fishing on wooden sampans. These 
humble origins expanded rapidly. By 1991, the fleet had grown to over 
140 vessels, many of which transferred in from all coasts of the U.S. 
mainland. This transition began the evolution to our current version of 
longlining, now using steel-hulled vessels and sophisticated electronic 
technologies.
    The Hawaii-based longline fisheries currently consist of a shallow-
set swordfish fishery and a deep-set tuna fishery, the latter of which 
is the core of the industry. Due to Hawaii's geography, the fishery 
operates mainly in the Western and Central Pacific Ocean. The target in 
the deep-set fishery is the Pacific bigeye tuna which, in its raw form, 
yields the highly coveted product known as ``sashimi,'' one of the most 
sought after food commodities in the world.
    The fishery intersects with the commercial market at Pier 38 in 
Honolulu Harbor. Here, the company known as United Fishing Agency 
operates the Honolulu Fish Auction on a daily basis. Based on the 
famous Tsukiji Fish Market in Tokyo, thousands of pounds of fresh 
pelagic product are displayed and sold daily. Dozens of seafood dealers 
convene into the sub-40 degree floor at 5:30 am to bid on individual 
pelagic fish landed by longline vessels. Quality is paramount in this 
raw-product market, driving fishermen to handle all catch with extreme 
diligence. The longline style of fishing and post-harvest care, coupled 
with the auction style of sale, produces a fierce competitive 
atmosphere and maintains a profitable fishery for all parties involved.
Commercial Value/Domestic & Cultural Significance
    Now that you've heard about the fishery and market, I'd like to 
throw some numbers at you for the sake of perspective:

  <bullet> In a 2012 NOAA study, the Hawaii Longline Fleet was only 
        34th in the Nation in landed seafood volume (27 million lbs), 
        yet was 5th in total landed value to the tune of over $100 
        million. This amount was only at the base level, before 
        wholesale and retail markups, before considering restaurants 
        and tourism, even air cargo carriers and freight. All told, 
        this ``small'' fishery produces nearly half a billion dollars 
        in domestic commerce.

  <bullet> From the same 2012 study, the total U.S. domestic landings 
        of bigeye tuna were around 15 million pounds. The Hawaii 
        longline fleet landed 14 million of this total. This translates 
        into 93 percent of the take attributed to the Hawaii fleet. 
        This relates the importance of bigeye catch to both the fleet 
        and the commercial value of which it produces.

    ``Domestic'' is the key word here. Nearly 98 percent of Hawaii 
longline landings stay in the state and Continental US, with just 2 
percent heading to foreign markets, mainly Japan. To reiterate, this is 
a domestic fleet providing domestic product to a domestic market.
    Aside from the economic and national significance of the fishery, 
the underlying value is the great social and cultural importance to the 
State of Hawaii. The sashimi product has become a staple of local 
culture in Hawaii. It is the equivalent crawfish in the Gulf, salmon in 
Alaska, lobster in New England, or crab in Maryland. To be without this 
fundamental aspect of Hawaii's culture is unthinkable.
    Hawaii is also critically dependent on seafood, not just as a 
cultural staple, but as a form of subsistence. Per capita, Hawaii 
residents annually consume almost triple the amount of fish compared to 
U.S. average, making locally caught fish a key component of food 
security for the State of Hawaii.
    Additionally, ocean pelagic fish is the single highest value crop 
in the State, greater even than sugarcane, papaya, and coffee.
    In summary, the Hawaii Longline Fishery:

  <bullet> Is a low volume, high value fishery.

  <bullet> Contributes significantly to the economy and commerce of the 
        State of Hawaii and continental United States.

  <bullet> Sustains the culture and tradition of the State of Hawaii 
        and contributes significantly to the food security of the 
        Islands.
Management Importance/Impact
    With the guidance of the Magnuson-Stevens Act and the 10 National 
Standards, the Hawaii Longline Fleet has pioneered exemplary fishery 
management, including the mitigation of protected species interaction 
to having one of the most comprehensive observer programs in the world.
    Sustainability is a crucial goal for fisheries worldwide. The two 
biggest adjustments the Hawaii Longline Fleet has made are:

  (1)  Reducing interactions with protected species and impacts on the 
        ecosystem.

  (2)  Complying with international quota-based management for 
        harvesting tuna.

    Regarding the first point:

  <bullet> Hawaii fleet works directly with fisheries scientists and 
        managers to reduce impacts on the ecosystem and protected 
        species, including NMFS PIRO, PIFSC, Coast Guard, and the 
        WesPac Council. Federal observers are placed onboard selected 
        vessels to ensure compliance and all landings and interactions 
        are rigorously documented.

  <bullet> In 2001, measures were taken to reduce seabird interaction 
        using methods such as side-setting, dying bait, and setting at 
        night. Bycatch rate was reduced by 96 percent.

  <bullet> In 2004 and 2008, measures were taken to reduce Loggerhead 
        and Leatherback turtle interaction through changes in hooks, 
        type of bait, and the implementation of a hard cap which would 
        close the fishery if reached. No other longline fleet in the 
        Pacific operates under a hard cap to protect sea turtles.

    Other Precautionary Conservation Measures include:

  <bullet> 1991--First limited entry pelagic fishery in US, capped at 
        164 longline permits.

  <bullet> 1991--First pelagic fishery in U.S. to require daily logbook 
        reporting.

  <bullet> 1991--Longline Exclusion Zones set up around Hawaii.

  <bullet> 1993--Fishery observers placed on vessels to monitor 
        protected species interactions.

  <bullet> 1994--First U.S. fishery to require vessel tracking using 
        satellite technology (as a result of fishery area closures).

  <bullet> 2000--Prohibited shark-finning.

  <bullet> 2004--Became the only Pacific fishery with a hard limit on 
        sea turtle interactions.

  <bullet> 2004--Established the most extensive government fishery 
        observer program of any Pacific longline fishery (100 percent 
        swordfish/over 20 percent tuna).

  <bullet> Currently, there is a Take Reduction Team in place 
        mitigating the interactions with False Killer Whales. However, 
        these measures aim to shut down large areas of the longline 
        fishing grounds with just a few interactions. A consequence of 
        the MMPA and ESA, the Magnuson-Stevens Act is being oriented 
        toward reducing fishing effort, not just the interactions they 
        are trying to prevent.

    Secondly, Hawaii's tuna fishery is part of an international tuna 
convention overseen by a management commission (WCPFC) which allocates 
quota to the participating states and territories. The Hawaii Longline 
bigeye quota is currently 3763 metric tons. This quota translates to 
only 3 percent of the total Western and Central Pacific bigeye catch, 
and is a reduction of the average historic catch of the Hawaii Longline 
Fleet.
    In addition:

  <bullet> The fishery operates many thousands of miles to the 
        northwest of the equatorial Pacific, where 90 percent of the 
        bigeye mortality occurs.

  <bullet> As a consequence of the strict compliance with the tuna 
        convention measures, the Hawaii Longline Fishery was the only 
        fishery, foreign or domestic, to ever close on reaching its 
        allotted bigeye catch limit.

    Despite this, further reductions are on the horizon for the years 
2015 and 2017. The net result of this loss is not just economic value, 
but of the threat of predatory market incursion. Foreign fisheries 
annually try to invade the Hawaii tuna market by offering to supplement 
the lack of domestic supply should the fishery close.
    Ironically, the fisheries supplying this tuna are not held to the 
same requirements as the Hawaii fleet in terms of conservation and 
management standards, both to the tuna stock and protected species. In 
short, the current measures in place are, in effect, giving opportunity 
for unregulated foreign product to flood the U.S. market, severely 
damaging the Hawaii Longline Fishery.
    Within the scope of the international commission's activities, the 
Hawaii Longline Fishery has unfortunately become a pawn in much larger 
game. ``Allocation'' over ``conservation'' has become the true nature 
of the convention, resulting in the further suffering of the fishery.
    Mr. Chairman, members of the Committee, I hope my summarization of 
the Hawaii Longline industry has shed some light on the values and 
successes of the fishery, as well as the plights it currently faces.
    Similar to most domestic fisheries, the Hawaii Fleet is at a great 
disadvantage to foreign fishery efforts, with both international bigeye 
quota management and predatory market practices. In addition, our own 
management system seeks to further restrict fishing effort through 
statutes which supersede the true intentions of the Magnuson-Stevens 
Act.
    The reauthorization of Magnuson-Stevens Act is an essential 
component of sustaining this unique, model fishery. Maintaining this 
inequitable course would mean the eventual demise of the Hawaii 
Longline fishery. Therefore, it is imperative that considerations be 
made to assist this fishery through:

  <bullet> Not allowing the Magnuson-Stevens Act continue to play a 
        subsidiary role in fishery management through the primacy of 
        other Federal statutes which contradict or are inconsistent 
        with the requirements and polices of MSA.

  <bullet> The United States supporting the Hawaii Longline Fishery in 
        the international fishing management arena, and not making any 
        further concessions such as additional bigeye catch limit 
        reductions. As a model fishery, it is contradictive to continue 
        to restrict and relegate this industry.

  <bullet> Developing funding programs to promote public awareness of 
        American seafood products. By making the distinction from 
        foreign products and fishing practices, the Magnuson-Stevens 
        Act will be both protecting domestic markets and promoting 
        sustainable, responsible fishery management.
                                 ______
                                 
                              Attachment 1
          Written Statement of the Hawaii Longline Association
    The Hawaii Longline Association (``HLA'') very much appreciates 
this opportunity to provide comments regarding our perspectives on, and 
specific suggested improvements to, the Magnuson-Stevens Fisheries 
Conservation and Management Act (the ``Magnuson Act'' or the ``Act''). 
The application of Federal law to fisheries conservation and management 
issues in Hawaii is a critically important topic that has direct 
relevance to the health, productivity, and sustainability of Hawaii's 
fisheries. In this light, we offer the following points regarding the 
background and management of Hawaii's commercial longline fisheries, as 
well as the ways in which the Magnuson Act can and should be amended to 
improve the management and future sustainability of our fisheries. 
Thank you for your consideration of these points.
Background and Management of the Hawaii Longline Fisheries
    HLA is a nonprofit organization formed to represent and advance the 
interests of individuals and entities involved in the Hawaii-based 
commercial longline fisheries, and to promote participation by industry 
in fishery conservation and management decisions and processes. The 
Hawaii-based commercial longline fisheries consist of a shallow-set 
fishery and a deep-set fishery. These two fisheries are managed as 
separate fisheries under the Magnuson Act and other applicable Federal 
laws.
    The target species of the Hawaii longline fisheries--swordfish 
(shallow-set) and bigeye tuna (deep-set)--are highly migratory species 
subject to extensive management under the Western and Central Pacific 
Fisheries Convention for the western and central Pacific Ocean, and by 
the Antigua Convention for the eastern Pacific Ocean. Both conventions 
are international fisheries agreements that seek to ensure, through 
effective management, the long-term conservation and sustainable use of 
highly migratory fish stocks throughout the Pacific Ocean. To 
accomplish this goal, the Conventions establish regional fishery 
management organizations (``RFMOs''). As a Contracting Party to both 
Conventions and as a Member of the two RFMOs, the United States 
implements the decisions of the RFMOs through implementing statutes 
applicable to the Conventions.
    The Hawaii longline deep-set fishery is subject to strict annual 
bigeye tuna quotas pursuant to the authorities established in the 
implementing statutes for the Conventions. From 2009 to 2013, the 
applicable annual bigeye tuna quota in the central and western Pacific 
was 3,763 mt. The current quota will remain in place in 2014; however, 
the quota will be decreased to 3554 mt for the years 2015 and 2016. In 
addition, over the past few years, a quota of 500 mt per year has been 
set for U.S. longline vessels larger than 24 meters operating in the 
eastern Pacific Ocean. Application of these quotas has negatively 
impacted the deep-set fishery, causing an early closure of the deep-set 
fishery in the western and central Pacific Convention Area in 2009 and 
2010. Moreover, the deep-set fishery's bigeye tuna quotas represent a 
very small portion of the overall international bigeye catch, and the 
limited-entry deep-set fishery is not the source of bigeye catch growth 
that has resulted in overfishing on an international scale.
    Swordfish stocks in the North Pacific Ocean (targeted by the 
shallow-set fishery) are also included within the scope of the 
Conventions, and are healthy and are not subject to overfishing or 
approaching an overfished condition. Indeed, the shallow-set fishery's 
annual swordfish landings regularly fall far below sustainable catch 
levels. The shallow-set fishery is also subject to annual closures if 
incidental takes of endangered leatherback or loggerhead sea turtles 
reach certain levels.
    Both the deep-set fishery and the shallow-set fishery are 
conservatively managed, neither is responsible for the overfishing of 
any highly migratory fish stocks, and all fish landed in both fisheries 
are rigorously documented. Moreover, both fisheries are subject to 
stringent requirements under Federal environmental laws such as the 
Endangered Species Act (the ``ESA'') and the Marine Mammal Protection 
Act (the ``MMPA''). For many years, the Hawaii-based longline fisheries 
have been reliably observed, with 100 percent coverage of the shallow-
set fishery and 20-25 percent coverage of the deep-set fishery. 
Collectively, these fisheries are among the most rigorously regulated, 
monitored, observed, and reported commercial fisheries in the world.
    The participants in the Hawaii longline fisheries recognize that 
there is a direct relationship between a healthy ocean ecosystem, 
predictable regulatory programs, and sustainable commercial fisheries. 
In the past decade, the Hawaii-based longline fisheries have 
demonstrated that they are able to adapt, innovate, dramatically reduce 
bycatch impacts, conserve species, manage regulatory obligations, 
defend against constant advocacy litigation, and still succeed in 
highly competitive fisheries dominated by large industrial high seas 
Asian fleets that are largely unmonitored and unregulated. In this 
context, HLA believes that Federal law should be designed and applied 
to further encourage the future economic, conservation, and 
environmental success of the Hawaii-based commercial longline 
fisheries.
Magnuson Act Amendments--Suggestions for Improvement
    First, because the fish stocks targeted by the Hawaii-based 
commercial longline fisheries are subject to management under one or 
more international agreements, they fall within the Magnuson Act's 
``International Exception.'' This exception is well-conceived and makes 
practical sense because additional regulation of these fisheries under 
certain provisions of the Magnuson Act--particularly those related to 
overfishing and annual catch limits--would be duplicative of the manner 
in which these fisheries are already stringently regulated pursuant to 
international agreements. Such duplication would be extraordinarily 
unfair to U.S. fisheries by placing them in a significantly less 
competitive position with respect to foreign fleets that are subject to 
no such duplication. The International Exception can, and should, 
however, be more directly and clearly stated in the Magnuson Act. In 
this light, we recommend that the following Magnuson Act provisions 
related to overfishing and annual catch limits be amended as follows:

  <bullet> Section 303 of the Act should be amended to clarify and 
        confirm that subsections (a)(1)(A), (a)(10), and (a)(15) of 
        Section 303 do not apply to fisheries that are managed under an 
        international agreement in which the United States 
        participates.

  <bullet> Section 304(e) of the Act should be amended to clarify and 
        confirm that Section 304(e) does not apply to fisheries managed 
        under an international agreement in which the United States 
        participates.

    These recommendations are clarifying amendments to the Magnuson Act 
(as opposed to new substantive statutory terms), and would serve to 
significantly facilitate the clear application of the Act and to 
eliminate the potential for future litigation.
    Second, we also recommend that the Magnuson Act's confidentiality 
provisions be amended to clarify and confirm that the vessel owner has 
full access to all information generated aboard the vessel, including 
all information collected and generated by observers (except for the 
observer's personal journals or other personal information). All 
information and data relating to protected species interactions or 
observations must be fully available to the owner of the vessel on 
which the information was collected.
    Third, all U.S. fisheries are subject to the ESA and the MMPA. 
Often, the implementation of these Federal acts contradicts, or is in 
consistent with, the policies and requirements of the Magnuson Act. We 
believe the Magnuson Act can and should be amended in some minor, but 
important, ways to facilitate more consistency among all of these 
Federal statutes, and to thereby create more fairness and 
predictability for U.S. fisheries. These suggestions are as follows:

  <bullet> The Magnuson Act should be amended to clarify and confirm 
        that, for any Federal action taken pursuant to the Magnuson Act 
        (such as approval of a fishery management plan or amendment, or 
        the issuance of implementing regulations) that triggers the 
        consultation requirement of ESA Section 7, the applicable 
        Council and any fishing association representing the vessels 
        and individuals affected by the Federal action are 
        ``applicants'' for purposes of implementing ESA Section 7.

  <bullet> The Magnuson Act should be amended to state that any 
        restriction on the management of fishery resources that is 
        necessary to implement the ESA or the MMPA must be implemented 
        under the authority of the Magnuson Act and in compliance with 
        the applicable procedures and requirements of the Magnuson Act.

    HLA appreciates your consideration of these suggestions and looks 
forward to the opportunity to continue to participate in the Magnuson 
Act reauthorization process as it moves forward.
                                 ______
                                 
                              Attachment 2
                 Hawaii Seafood Industry Talking Point
    Problem: America's seafood supply is increasingly dominated by 
imported seafood from countries with questionable fishery management, 
fishing practices and seafood safety controls. According to NOAA, in 
2012, only 6 percent of the total U.S. seafood supply was produced by 
American fisheries. Our federally-managed fisheries produce sustainable 
and safe domestic seafood, but face stiff competition from imported 
seafood in the market. American fishing communities need support in the 
U.S. market.

    Hawaii Situation: Hawaii has a significant domestic fishing 
industry supplying primarily a local and domestic market. Our pelagic 
longline fishing fleet is one of the most intensively studied, 
monitored and managed in the world. As such, we have a model for 
responsible fishing and sustainable seafood production for the rest of 
the world to emulate. Our U.S. science-based management system under 
NOAA and the Western Pacific Regional Fishery Management Council is 
what ensures the sustainability of Hawaii's fisheries and fishing 
communities. As an island state, Hawaii fisheries and seafood are 
essential to our economy, quality of life and public health.

    Solution: Restore full funding of the Saltonstall-Kennedy Fisheries 
Research Program to help American fishing communities become more 
competitive in the American market through outreach, education, 
promotion and research.

    Shared Benefits: Strengthening Hawaii and other American fisheries 
and fishing communities helps with jobs and offsetting the growing U.S. 
trade deficit in seafood. Efforts made possible through a fully funded 
Saltonstall-Kennedy Fisheries Research Program will: (1) enhance the 
recognition of America's sustainable fisheries, (2) help to elevate the 
public recognition of the value-added to American seafood products that 
stems from NOAA fisheries management and (3) demonstrate to other 
countries that the American market recognizes the need for responsible 
fishing and sustainable and safe seafood.

    Senator Begich. Thank you very much for your testimony.
    Next, I have Mike Gravitz, Policy and Legislative Director, 
Marine Conservation Institute.
    Thanks very much for being here, Mike.

     STATEMENT OF MICHAEL GRAVITZ, DIRECTOR OF POLICY AND 
           LEGISLATION, MARINE CONSERVATION INSTITUTE

    Mr. Gravitz. Thank you, Senators. And thank you Senator 
Schatz for inviting us here. On behalf of the Marine 
Conservation Institute, I appreciate the opportunity to provide 
testimony on Magnuson-Stevens Act and needed improvements.
    As Sylvia Earle, one of this country's most distinguished 
ocean explorers said so trenchantly, ``Where there is no water, 
there is no life; where there is no blue, there is no green.'' 
So, just as blue places are required for the survival of green 
places, good habitats, something other people have mentioned, 
is the foundation for healthy oceans and fisheries.
    While there are many threats to the ocean, there is one 
overarching imperative. Scientists agree that protecting whole 
ecosystems rather than species one-by-one is the best, most 
cost effective and quickest way to maintain the ocean's 
biological diversity, its abundance and resilience in the face 
of climate change.
    To accelerate ocean recovery in the U.S. and abroad, the 
Marine Conservation Institute recently initiated the Global 
Ocean Refuge System, or GLORES. GLORES is designed to catalyze 
strong protection for at least 20 percent of the ecosystems in 
each marine area by 2030. Enough, we hope, to avert mass 
extinction that could come as the oceans warm and acidify.
    Turning to the Magnuson-Stevens, based on the last seven 
years of history, we believe that MSA is working well and needs 
only modest changes like----
    Senator Begich. Mike, can I have you pause for one second? 
There's some background sound coming from somewhere. You can 
hear it now.
    I just want to make--because as you talk it keeps 
interrupting, but I'll let the tech people figure it out. Go 
ahead.
    Mr. Gravitz. Thank you.
    Like a 7-year-old car needs a tune-up and some touchup 
paint; it does not need to be swapped for a new one. Its major 
parts are fine.
    Every hunter and nature lover knows that degraded habitats 
don't produce healthy wildlife populations on land. Why would 
we think it works any differently in the ocean? To address this 
current law and regulations, require the councils to evaluate 
new information about ocean habitat every 5 years and assess 
whether important places are being adequately protected.
    The program has designated hundreds of millions of acres of 
ocean as Essential Fish Habitat, or EFH, but only a very tiny 
portion of this has received actual protection from damaging 
activities. Any application of the EFH principles and processes 
has been uneven among councils.
    The habitat protection program, we believe, can be greatly 
improved with a few straightforward fixes. Refocus habitat 
protection on smaller, more important places--those are called 
``habitat areas are of particular concern''--and require these 
places to have specific management measures to protect them and 
specific objectives to measure success. Use a precautionary 
approach on habitat and explicitly allow predictive models as 
the best available science to establish these important places 
until visual inspection of an area allows better 
decisionmaking. Require regional councils to protect identified 
concentrations of deep-sea corals with HAPC designation and 
management measures that prohibit bottom contact fishing. 
Mandate the 20 percent of each type of representative habitat 
in a region to be protected from destructive fishing methods.
    Protecting marine habitat and life with laws and regulation 
is certainly a good first step, but laws don't enforce 
themselves. Adequate international enforcement against illegal, 
unregulated and unreported fishing known as pirate fishing, 
matters a great deal to U.S. fishermen and fishing communities. 
Based on reasonable assumptions we believe that the U.S. may be 
importing from $1.2 to $2.9 billion of illegal catch a year, 
representing about 20 percent of the U.S. imports. If the 
seafood was replaced with domestic product, the U.S. fishing 
industry might be able to reclaim as many as 28,000 jobs in 
coastal areas. State-by-state breakdowns of this total impact 
are available.
    Clearly, we need some other tools for faster and more 
effective enforcement than the current biannual international 
blacklist system for IU fishermen and nations. Even though our 
government personnel work hard every day, the process is not 
working well enough. Our cops simply need better tools to use.
    I want to also mention the importance of NOAA's protected 
resources program that rebuilds populations of marine mammals 
and other endangered species on the Pacific Coast and around 
Hawaii. We work in Hawaii to build support among fishermen and 
local communities for the protection of the Hawaiian monk seal, 
one of the few rare seals on earth. We started this program 
because NOAA seemed to lack the capability to effectively reach 
out to local fishermen and communities to explain its programs 
and build understanding. NOAA's ability to communicate with 
affected local communities about fisheries and protected 
species needs to improve and we believe it can improve.
    Thank you very much for your time and attention.
    [The prepared statement of Mr. Gravitz follows:]

     Prepared Statement of Michael Gravitz, Director of Policy and 
               Legislation, Marine Conservation Institute

              ``No Water; No Life and No Blue; No Green''

      --Sylvia Earle, Board member, Marine Conservation Institute

Introduction
    On behalf of Marine Conservation Institute, I appreciate the 
opportunity to provide testimony on aspects of the Magnuson-Stevens 
Fishery Conservation and Management Act (MSA or Magnuson-Stevens) in 
the Pacific and Western Pacific and highlight improvements that would 
make the law even more effective than it has been since its last 
reauthorization in 2007.
    Since 1996, Marine Conservation Institute has defined and shaped 
the science and practice of marine biodiversity conservation, a field 
that examines man's impacts on our oceans -for good and for bad. As 
Sylvia Earle has noted so crisply -``No water; No Life and No Blue; No 
Green''. Healthy oceans are essential to human survival and prosperity, 
but they are in deep trouble worldwide. There are many threats to ocean 
health: ocean warming, ocean acidification, ocean and coastal habitat 
destruction, too many nutrients, as well as the over fishing, pirate 
fishing, and the scourge of destructive fishing that Marine 
Conservation Institute focuses on. Unfortunately, the list goes on and 
on.
    While each threat has its own set of potential solutions, there are 
some unifying themes and ONE overarching imperative for protecting 
marine life. Most marine scientists agree that protecting marine life 
in their ecosystems is the best way to maintain the oceans' biological 
diversity, abundance and resilience. Rather than protecting species one 
by one, protecting whole ecosystems is the most cost-effective and 
quickest way to help keep our oceans healthy.
    Understanding the importance of protecting key places in the ocean 
led us to help persuade President George W. Bush to strongly protect 
three very large places in the tropical Pacific: Papahanaumokuakea in 
the Northwestern Hawaiian Islands in 2006; and the Pacific Remote 
Islands and Rose Atoll marine national monuments in 2009. These 
successes set off a worldwide movement to protect much larger areas of 
the sea.
    To accelerate efforts to recover the diversity and abundance of 
marine life, Marine Conservation Institute recently initiated the 
Global Ocean Refuge System (GLORES, pronounced glor-ees), a strategic, 
science-based approach to safeguard marine ecosystems on a global 
scale. GLORES is designed to catalyze strong protection for at least 20 
percent of the ecosystems in each marine biogeographic region by 2030, 
enough to avert mass extinction that could come as the oceans warm and 
acidify.
    As Marine Conservation Institute's Director of Policy and 
Legislation, I oversee our congressional and Executive Branch advocacy 
on protecting ocean habitat especially in the Pacific. This work 
includes protecting deep sea corals from destructive fishing, reducing 
illegal, unregulated and unreported (also known as pirate fishing), 
financing marine conservation programs, stemming the flow of marine 
debris, and restoring healthy populations of the Hawaiian monk seal. 
Before joining Marine Conservation Institute, I was the Ocean Lobbyist 
for Environment America for five years, where I advocated for passage 
of the revised MSA in 2005-2006, worked on implementing regulations for 
annual catch limits after the bill was signed into law, and advocated 
for improvements to the National Marine Sanctuary Act.
Summary Assessment of Progress under MSA
    Based on the experience of the last seven years, we believe that 
Magnuson-Stevens fundamentally is working well and needs only small 
changes to serve our conservation needs. Likening it to a seven-year-
old car, MSA needs a tune-up and some touch up paint here and there. It 
does not need to be swapped for a new car, and it does not need to have 
any major systems taken out and replaced with something ``better''.
    For the most part, the flexibility that some desire to add to the 
law today was what prevented the pre-2007 versions of the law from 
producing sustainable fisheries and protected habitats. In the real 
world on the regional fishery management councils, it often turned out 
that flexibility was an excuse for inaction, half measures, or ignoring 
scientific advice. We should not go back to that era of timid and 
ineffectual fishery and habitat management.
    The 2007 revisions have driven a sea of change in the behavior of 
regional fishery management councils, fishermen, and NOAA by: (1) 
setting firm annual catch limits and accountability measures based on 
the best, unbiased science available; (2) beginning to recognize the 
importance of habitat for healthy oceans and fish populations; (3) 
taking bycatch reduction seriously; and (4) improving domestic and 
international enforcement of fishery laws.
    When Magnuson-Stevens was reauthorized in early 2007, the Pacific 
and Western Pacific regions had 12 fish populations that were 
overfished or experiencing overfishing. Today, that number has dropped 
to 10 fish populations. While the numerical progress seems relatively 
modest in those intervening years, most of these troubled fish 
populations were deeply depleted and are very slow growing, and 
therefore slow to recover (e.g., rockfishes off the west coast); or 
they are highly migratory species like bluefin or bigeye tunas that are 
fished by the US, and more significantly international fleets, outside 
U.S. waters under the control of international fishery management 
organizations that are struggling to become more effective.
    One way of assessing the overall progress of Magnuson-Stevens is to 
look across all regions of the U.S. and all the fisheries for which we 
have adequate status information. There are 230 fish populations that 
can be tracked closely enough across the time period from 2007 to now. 
While this index of progress, called the Fish Stock Sustainability, is 
imperfect, it was at 506 out of a perfect 920 at the end of 2006 and it 
was 616 at the end of 2012. Clearly there is more work to be done, but 
the trend line is in the right direction.
    Another way to assess progress under MSA is to look at the number 
and type of fish populations rebuilt to sustainable levels under the 
new management framework. Thirty-four stocks have been rebuilt as of 
the third quarter of 2013. Some of the better known populations 
include: some crab species in Alaska, various salmon populations on the 
west coast, red grouper in the Gulf of Mexico, black sea bass off the 
south Atlantic, summer flounder off mid-Atlantic, and flounder, haddock 
and pollock in New England. Unfortunately, many rebuilt stocks are 
still at low levels compared to historic sizes.
    Lest we be too self-congratulatory about progress, it is useful to 
remember that as of the third quarter of 2013, there were still 40 
overfished populations and 26 populations being fished above 
replacement rate, for a total of 66 fish populations in trouble out of 
the 230 or so for which NOAA has sufficient information for evaluation. 
That is nearly 30 percent of the fish populations that NOAA has enough 
information to assess.
    While progress on establishing sustainable fish populations is 
important, this is hardly the only or even the most important measure 
of progress under Magnuson-Stevens. Healthier oceans are not just made 
up of sustainably fished populations of commercial species. Healthier 
oceans require less bycatch of non-target species, larger populations 
of forage fish at the bottom of the food web, less habitat damaged by 
destructive fishing methods like bottom trawling, and protection of 
vulnerable marine mammals and other marine wildlife like sea birds and 
sea turtles from being killed by fishing. On this count, there has been 
progress but less than we would hope.
    One crucial improvement in MSA fishery management that would make 
for healthier oceans is to remember that oceans are not a collection of 
single species to be managed separate and apart from each other. No 
ecosystem works that way. Instead the ocean must be managed as the 
dynamic and interconnected ecosystem that it is. Management must be 
based on the entire ecosystem and its participants. Some fish require 
protected habitat to reproduce; all species need special places where 
the eggs and larvae grow into juveniles; fish require abundant prey to 
grow well, even if that prey is something humans would like to catch 
and eat too.
    When the 2007 version of Magnuson-Stevens is reauthorized, we want 
Congress to recognize these principles of marine ecosystems and adopt 
an Ecosystem Based Management approach that recognizes the need to 
consider the interactions among populations and between populations and 
their habitat.
Habitat Protection is Key to Healthy Oceans: Essential Fish Habitat
    You might ask what habitat protection has to do with sustainable 
fish populations or healthy oceans, and the answer is simple. Hunters 
and nature lovers on land know that you can't have healthy, diverse 
populations of animals in places that have been abused, clear cut, or 
burnt over; and marine scientists have shown that degraded ocean 
habitats like seagrass beds that are dying from sedimentation or too 
many nutrients, ocean bottoms that have been plowed by bottom trawls, 
or coral gardens that have been cut down by heavy nets, does not 
support abundant, diverse marine life. Like on land, many fish and 
invertebrates need complex structures in which to live and grow. Rocks, 
rubble, and reefs filled with marine plants, sea fans, gorgonians, and 
anemones provide protection from predators, sources of food, shelter 
from currents, and places to reproduce.
    Therefore, it is critical that Magnuson-Stevens be used to protect 
these kinds of places from destructive activities of all types, not 
just fishing related damage. The first attempt to do this was made in 
the 1996 amendments to MSA when Essential Fish Habitat (EFH) was first 
defined. For the next ten years the regional councils did not do much 
with MSA's habitat requirements, so the 2007 amendments created a 
somewhat better framework for marine habitat protection. Better, but it 
is still not up to the task of consistently protecting critical 
habitats for fish and other marine life across different regional 
councils and across different types of marine habitat.
    Current law requires the regional councils to collect new 
information about EFH every five years and assess whether existing 
fishery management plans are adequately protecting those places. 
Councils are not required to take action to designate any EFH. In 
addition, there is no clear set of standards for deciding where and 
when to apply management measures for designated EFH areas; EFH can be 
designated with no management actions for that area. Finally, there no 
requirements for management objectives to be set for EFH when it is 
established. When councils protect EFH they can do so with spatial and 
temporal closures, restrictions on the type of fishing gear that can be 
used in an area, and other means. However, most EFH is accompanied by 
no special protection. The application of EFH by the councils has also 
been uneven.
    For example, the Western Pacific Council prohibited bottom trawling 
and other bottom contact gear such as long lines in their entire region 
a long time ago to protect reefs and other habitat. The South Atlantic 
Council has established many bottom fishing closures for endangered 
species of fish including Warsaw grouper and Speckled hind, as well as 
corals in places like the Occulina Banks. The council is now reviewing 
whether the closures are working or need to be re-located to be more 
effective. This council seems to understand the utility of EFH and is 
willing to dynamically manage those areas.
    The Pacific Council has established some EFH. In 2002, it 
designated extensive Rockfish Conservation Areas to rebuild populations 
of this group of species, but only after the populations had been 
overfished to extremely low levels. The council also has set aside 
large areas of ocean beyond depths where bottom trawling can be done 
today. Though much of that area will probably never be fishable, it is 
another step which will prevent fishing in places before we know much 
about their sensitivity. But there are many more steps that can, and 
should be taken.
    Part of the problem with the EFH program is that the definition of 
EFH is very broad. While that allows councils to deal with fishing and 
nonfishing impacts on marine life, when too much of the ocean gets 
designated as EFH, there is loss of focus on more important, but 
smaller areas that might make a bigger difference in ocean health. We 
recommend that, rather than doing away with EFH, the law be modified to 
focus councils on fish or other marine populations that are not 
recovering under MSA and tight annual catch limits because these 
species' recovery is constrained by damaged habitat. This will focus 
the councils on habitat issues that could make a difference for 
healthier oceans.
    The program does have a category of ocean area called Habitat Areas 
of Particular Concern (HAPC), but it is only a regulatory, not 
statutory distinction. It would be useful to put the HAPC definition 
and process into Magnuson-Stevens and require that HAPC areas be 
accompanied by mandatory management measures that protect these 
habitats.
    The ocean is vast and assessing what is on the bottom is an 
expensive, time consuming process. Unlike on land, much of what is on 
the ocean's bottom is unknown other than its depth and contours. It 
would be as if all we knew about Yellowstone National Park was its 
topography; and very little about the trees, plants, or animals that 
lived in the park was known. An example of how little we know about 
bottom habitat even in places close to our shores is a research trip 
two years ago co-led by one of Marine Conservation Institute's 
scientists to the submarine canyons off the Mid-Atlantic coast. Only 
100 miles off the mouth of the Chesapeake Bay, Dr. Sandra Brooke and a 
team sponsored by NOAA discovered whole new underwater worlds on the 
bottom and sides of the canyons.
    In order to overcome lack of visual evidence of important habitats, 
scientists have developed techniques to predict where important bottom 
living marine life should exist based on the physical characteristics 
associated with known habitat of different species. For many areas of 
ocean, these models are the `best available science' on the question of 
what habitat lies beneath the waves. Called Predictive Habitat 
Modeling, the technique can be used to predict where important species 
like deep sea corals should be, and armed with these maps, scientists 
can then narrow their search for important habitats worth protecting. 
Unfortunately, many councils are unwilling to use these habitat models 
to establish EFH in the absence of visual evidence gathered by manned 
or unmanned submersibles, for which there is little funding.
    One improvement to MSA would be to require councils to use these 
models when available to at least protect areas until they can be 
visually assessed so that they are not damaged in the meantime. Areas 
with a high likelihood of important habitat would then be protected 
until scientists could see what was there. Remember that today NOAA has 
reduced funding and assets available for field exploration to assess 
habitat compared to just a few years ago. To address this problem, we 
recommend a three step process: (1) use peer-reviewed Predictive 
Habitat Models to identify high probability coral habitats; (2) protect 
areas where justified by the models; and (3) verify model results with 
submersibles or remotely operated vehicles. We believe this is a 
sensible precautionary approach designed to deal with the expense and 
challenges of marine exploration.
    Another potential improvement to the EFH program would be a 
requirement that the councils set aside some percentage-say 20 percent-
of each type of underwater habitat (representative areas) with 
prohibitions on any kind of bottom contact gear like bottom trawling or 
bottom long lines as a way of encouraging proactive preservation. The 
requirement could be phased in over a period of time, for example, five 
years, to allow time for the councils to develop a thoughtful process 
based on best available science.
    Two other gaps in NOAA's habitat protection program are evident. 
The scientific basis for how much existing habitat contributes to the 
recovery of damaged populations and whether the existing program is 
really achieving its stated objectives both need additional research. 
The importance of habitat protection is undeniable, and, frankly common 
sense, but additional research would allow the program to more 
carefully tailor set-aside areas for critical stages of marine life. 
Second, there is no one source of US-wide information on the program 
available to the public or Congress. We suggest a short, periodic 
report to Congress to tell the program's story and build support for 
its achievements.
    Recommendations:

  <bullet> Require regional councils to use clearer criteria for 
        picking EFH and establishing management measures for them.

  <bullet> EFH and HAPC should be accompanied by explicit management 
        objectives to enable periodic assessment of effectiveness and 
        change in management, if needed.

  <bullet> Put a Habitat Areas of Particular Concern (HAPC) definition 
        into MSA to help narrow the focus on habitat that really makes 
        a critical difference for improving ocean health.

  <bullet> Require that some management measures must accompany HAPC 
        designation,

  <bullet> Using a precautionary approach, explicitly allow use of 
        predictive models as the `best available science' to establish 
        EFH until visual inspection of an area allows better 
        decisionmaking.

  <bullet> Mandate that 20 percent of each type of representative 
        habitat in a region be protected from destructive fishing 
        methods.
Habitat Protection: Deep Sea Corals Are the New Frontier
    Deep sea corals are corals that live on the food that floats down 
to them from above; they are too deep to use light and photosynthetic 
algae like their shallow water cousins. Deep sea corals often live in 
extensive colonies and individual corals can be hundreds or even 
thousands of years old. They are very fragile and easy to destroy with 
bottom trawl nets, traps, long lines, etc. It is for that reason that 
the Senate added a program to Magnuson-Stevens at the behest of the 
late Senator Frank Lautenberg to identify areas where these corals 
existed and begin to protect them from damaging activities.
    Now that we know much more about the typical members of these deep 
sea communities from the program's research, it would be good to 
enlarge the definition of these deep sea communities to include other 
marine life like sponges that grow at great depths and mesophotic 
corals that grow at depths beyond scuba access but not quite as far 
down as deep sea corals.
    The Deep Sea Coral Research and Technology Program typically spends 
three years conducting research in each region to determine the extent 
and location of the corals. Three years of research just wrapped up in 
the Pacific region and the Pacific Council is now considering findings 
from the program. Marine Conservation Institute and others have engaged 
with the council providing reams of information on vital habitat that 
is not now protected. We will be watching to see if the council acts on 
some of the new information. The NOAA deep sea coral research program 
will start in the Western Pacific region in 2015 where approximately $2 
million is budgeted for research and surveys over the following three 
years.
    Once regional councils are presented with data on their deep sea 
coral areas, they have discretion as to whether to designate them for 
special management measures. We believe that the councils should be 
required to take some measures to protect extensive deep sea coral 
areas from damaging activities. Currently, the burden of proof is on 
advocates to show why areas of deep sea corals should be protected. We 
would like to see the burden of proof shifted to the councils to show 
why areas of extensive coral concentrations should not be protected 
once they are identified. Another possibility here is to require 
councils to protect some percentage, say between 20--50 percent, of any 
deep sea coral areas discovered within their borders.
    Recommendations:

  <bullet> Expand the definition of deep sea corals to include deep sea 
        sponges and other unique deep sea organisms.

  <bullet> Narrow the focus of habitat protection to the smaller, more 
        meaningful HAPC areas

  <bullet> Require regional councils to protect identified 
        concentrations of deep sea corals with HAPC designation and 
        management measures that prohibit bottom contact fishing gear.
International Marine Law Enforcement and Pirate Fishing Is A Weak Link 
        in Achieving Healthy Oceans
    Protecting marine habitat from damaging fishing techniques and 
other threats with regulations and maps is certainly the first step in 
achieving sustainable fisheries and healthier oceans. But statutes, 
regulations, and maps do not enforce themselves. The ocean is a big 
place with lots of opportunity for unobserved illegal behavior. To stop 
any of it requires resources to find and arrest lawbreakers and the 
will to prosecute them. Marine Conservation Institute became interested 
in this field because we believe that setting aside Marine Protected 
Areas or other kinds of habitat protections is just the first step in 
ocean healing. These places must be well managed and well protected 
from those who flout protection laws.
    Please note that I am NOT going to talk about domestic enforcement 
of fishery laws. Instead, I want to focus on how NOAA enforces the 
fishery laws around our Pacific territories, national marine monuments, 
and around the world so as to reduce Illegal, Unregulated and 
Unreported or pirate fishing. To begin, the U.S. and other nations 
enforce fishery laws with a mix of 18th century and 20st century 
technology that needs to be brought into the 21st century. What do I 
mean?
    While some fishing vessels carry ship to shore self-identification 
systems like the Vessel Monitoring System (VMS) and ship to ship and 
ship to satellite systems (Automatic Identification System--AIS), many 
do not. Some fishing vessels carry an internationally recognized boat 
identifier, like a vehicle identification number here in the US, but 
many do not. Some U.S. vessels even carry automatic monitoring 
equipment that allows compliance personnel to watch or monitor the 
fishing effort from 1,000s of miles away. This is the 20th century part 
of the equation. In the final analysis, we believe that most 
enforcement actions happen because the U.S. Coast Guard boards a 
suspicious fishing vessel 18th century style and finds or verifies a 
violation of U.S. or international fishery laws during the inspection.
    What would a 21st century integrated monitoring and enforcement 
system look like? Unfortunately, none exists, a problem that ought to 
be remedied when Magnuson-Stevens is reauthorized. Fortunately, the 
pieces of such a system do exist; they just have never been put 
together and used as a system.
    Our 21st century system would use a variety of technologies to 
detect fishing boats in any protected area, starting with high 
frequency radar to detect vessels up to 50 miles offshore, even those 
not carrying VMS or AIS or boats with their equipment turned off to 
avoid detection. There would be an array of moored buoys equipped with 
hydrophones to listen for approaching boats and to calculate their 
positions. This information would be communicated up to a satellite 
then down to earth at a monitoring center. Alternatively, wave gliders 
(fancy surfboard-like boats that can navigate independently across the 
ocean) or autonomous sailboats could also carry hydrophones and cameras 
to detect and take pictures of offending fishing vessels. Finally, 
having identified a potential offender and its location, an aerial 
drone could be flown to the vessel's position to take pictures of 
potentially illegal activity and of the vessel's identifying name and 
flag. This information would be beamed back to the monitoring center, 
the offending vessel would be tracked to its next port of call or 
interdicted on the high seas by the U.S. Coast Guard, and then boarded 
by enforcement authorities to look for evidence of illegal activity.
    Someday, we believe that elements of this system will be in place 
to protect some of our most valuable and threatened places like the 
Pacific marine national monuments and territories. To get there, we 
need a program at NOAA to do research and development on integrating 
these new technologies and the money to pilot test them in real life 
situations. And to be honest, the final element of this picture -
boarding the vessel in a foreign port--requires a degree of 
international cooperation on fishery law enforcement that is unusual 
today, though not unheard of. To really encourage the last enforcement 
step to spread internationally, the U.S. needs to ratify and implement 
international agreements like the Port States Agreement that allows 
interception, inspection and seizing of the offending vessel in port or 
refusing entry to the vessel.
    Why the fuss over international and Pacific marine fishery law 
enforcement? There are two very important reasons:

  1.  Significant economic impact on U.S. fishermen and fishing 
        communities. According to best estimates, the global value of 
        IUU fishing averages between $10 and $23 billion per year--
        meaning nearly one out of every five dollars of fish sold in 
        international commerce is thought to be derived from IUU 
        sources. Although IUU fishing can be prosecuted under several 
        current U.S. laws, additional measures, both national and 
        international, are needed to further reduce this pirate 
        fishing. Although no direct studies of these impacts have yet 
        been made, primarily due to the difficulty of identifying and 
        tracking IUU catch, reasonable assumptions and existing data 
        indicate that the U.S. may be importing in the range of $1.7 
        billion worth of pirate seafood each year--accounting for 
        around 18 percent of U.S. imports of wild caught seafood. 
        Broadly speaking, the possible range of IUU seafood imports to 
        the U.S. is $1.2-$2.9 billion, or 13 percent-31 percent of the 
        $9.4 billion worth of imported wild caught seafood. If this 
        seafood was replaced with domestically caught and processed 
        seafood, an important assumption, U.S. fishing and related 
        industries might be able to reclaim as many as 28,300 jobs in 
        coastal areas and provide other benefits to coastal economies. 
        Lost revenues and jobs by state appear below.

Total Landings Revenue, Revenue Lost to IUU Fishing, and Number of Jobs lost to IUU Fishing for the U.S. Seafood
                                          Industry for 2011, by state.
----------------------------------------------------------------------------------------------------------------
                                                          Total Revenue Lost  Due to
           State               Total Landings  Revenue     IUU Fishing  (Millions of   Number of Jobs  Lost Due
                                (Millions of Dollars)              Dollars)                 to IUU  Fishing
----------------------------------------------------------------------------------------------------------------
                   Alaska                     1,911.54                         612                      10,190
----------------------------------------------------------------------------------------------------------------
            Massachusetts                      565.238                         181                       3,010
----------------------------------------------------------------------------------------------------------------
                    Maine                      424.712                         136                       2,265
----------------------------------------------------------------------------------------------------------------
                Louisiana                      333.619                         107                       1,780
----------------------------------------------------------------------------------------------------------------
               Washington                      331.404                         106                       1,765
----------------------------------------------------------------------------------------------------------------
                    Texas                      239.082                          77                       1,275
----------------------------------------------------------------------------------------------------------------
                  Florida                      224.646                          72                       1,200
----------------------------------------------------------------------------------------------------------------
               New Jersey                      214.191                          69                       1,140
----------------------------------------------------------------------------------------------------------------


Total Landings Revenue, Revenue Lost to IUU Fishing, and Number of Jobs lost to IUU Fishing for the U.S. Seafood
                                     Industry for 2011, by state.--Continued
----------------------------------------------------------------------------------------------------------------
                                                          Total Revenue Lost  Due to
           State               Total Landings  Revenue     IUU Fishing  (Millions of   Number of Jobs  Lost Due
                                (Millions of Dollars)              Dollars)                 to IUU  Fishing
----------------------------------------------------------------------------------------------------------------
 
-------------------------California------------201.269--------------------------64-----------------------1,070--
----------------------------------------------------------------------------------------------------------------
                 Virginia                      191.665                          61                       1,020
----------------------------------------------------------------------------------------------------------------
                   Oregon                      148.337                          48                         790
----------------------------------------------------------------------------------------------------------------
                  Hawai'i                       91.513                          29                         490
----------------------------------------------------------------------------------------------------------------
                 Maryland                       76.722                          25                         410
----------------------------------------------------------------------------------------------------------------
             Rhode Island                       75.956                          24                         405
----------------------------------------------------------------------------------------------------------------
                   North Carolina               71.177                          23                         380
----------------------------------------------------------------------------------------------------------------
                  Alabama                       50.941                          17                         270
----------------------------------------------------------------------------------------------------------------
                 New York                       37.625                          12                         200
----------------------------------------------------------------------------------------------------------------
              Mississippi                         30.3                          10                         160
----------------------------------------------------------------------------------------------------------------
            New Hampshire                       23.483                           7                         125
----------------------------------------------------------------------------------------------------------------
                   South Carolina               23.268                           7                         125
----------------------------------------------------------------------------------------------------------------
                         Connecticut            19.668                           6                         105
----------------------------------------------------------------------------------------------------------------
                  Georgia                       16.295                           5                          85
----------------------------------------------------------------------------------------------------------------
                 Delaware                        7.091                           2                          40
----------------------------------------------------------------------------------------------------------------
                    Total                   $5,309.742                      $1,700                      28,300
----------------------------------------------------------------------------------------------------------------
Source: Plundering the Seas; The Damage from Pirate Fishing on U.S. Fishermen. October 2013 Draft.
Available from Marine Conservation Institute by request.

  2.  Significant impact on priceless natural resources around the 
        world. Even when marine habitat is protected with a Marine 
        Protected Area designation of some kind to achieve a 
        conservation objective, unless the area is enforced, the 
        designation often draws IUU fishermen to the location to feast 
        on resources that are frequently richer than in surrounding 
        waters. Protecting habitat without real protection through 
        enforcement is no good. Marine Protected Areas become Marine 
        Poaching Areas.
Recommendations for Improving Marine Law Enforcement under MSA
    Congress should improve the Magnuson-Stevens framework for handling 
nations and vessels that violate U.S. fishery laws, international 
fishing treaties, or RFMO agreements, especially countries and vessels 
that are repeat offenders. Getting countries in trouble with a 
`blacklist' every two years, working for remediation, and assessing 
progress has not resulted in a large decline in illegal, unreported or 
unregulated fishing or easier enforcement. This Committee and NOAA 
ought to investigate some other means of faster, more transparent, and 
more effective enforcement. One idea is to involve the flag issuing 
county more directly in the enforcement action. The principle of ``You 
flag it; you fix it or pay for it'' would put some responsibility on 
the nations that flag fishing vessels to help in enforcing the laws or 
paying for violations of those vessels they `rent' their flag to.
    Congress might want to consider a requirement for universal AIS or 
VMS usage and comprehensive fishing vessel ID for all boats catching 
fish that might be imported into the US. The exporter or producer would 
have to certify that each shipment was caught by a vessel equipped with 
AIS/VMS and a vessel ID.
    Congress should establish a research, development and pilot program 
for advanced technologies for marine monitoring, vessel identification, 
and enforcement. It might first be used in U.S. marine monuments, 
marine sanctuaries, and possibly elsewhere. This program would push 
forward new technologies like high frequency radar, acoustics, aerial 
drones, wave gliders, etc. for more cost effective marine law 
enforcement than currently available via U.S. Coast Guard cutters and 
aircraft.
    The Senate should streamline existing laws and treaties related to 
IUU fishing by passing S.269 (International Fisheries Stewardship and 
Enforcement Act), a bill that the late Senator Inouye repeatedly 
introduced, preferably in a standalone bill without waiting to do so in 
MSA reauthorization.
    The Senate should ratify the Agreement on Port State Measures to 
Prevent, Deter and Eliminate illegal, unreported and unregulated 
fishing and pass the implementing legislation embedded in S. 267 
(Pirate Fish Elimination Act) which will be used by the U.S. and other 
countries around the world to deny port entry to vessels suspected of 
trying to unload IUU fish.
    Congress should consider asking NOAA, the U.S. Coast Guard, and the 
Department of Justice for some basic information about what their 
fishery enforcement effort, case load and case status and disposition 
is. It is difficult to understand the law enforcement enterprise 
without some basic data that should be available to the public and law 
makers.
    Finally, a provision in MSA's Enforcement section (Section 3119d)) 
requires offending vessels in large areas of the Pacific be escorted or 
towed to Guam rather than the nearest U.S. court available in Samoa, 
Honolulu, or the Northern Mariana Islands. It would be more efficient 
to allow the Coast Guard to take the vessel to the nearest or most 
convenient district court at its own discretion. There are one or two 
cases where vessels have had to be towed much farther than needed which 
discourages proactive enforcement by the authorities who have to pay 
for interdictions and towing.
    Recommendations for Marine Law Enforcement and Fighting Illegal, 
Unreported, and Unregulated (IUU) Fishing

  <bullet> Equipment for VMS and/or AIS should be carried on board all 
        commercial fishing vessels and turned on at all times in U.S. 
        waters.

  <bullet> Edible fish imports to the U.S. should be required to be 
        accompanied by verification from the producer or exporter that 
        AIS/VMS was used on board when the fish was caught by a 
        vessel(s) accompanied by a specified vessel ID number. There 
        should be stiff penalties for false information.

  <bullet> All fishing vessels should be equipped with a unique vessel 
        ID number like a U.S. vehicle VIN.

  <bullet> NOAA, U.S. Coast Guard, and the Departments of State and 
        Justice should develop an improved framework beyond the 
        biennial Black List for reducing IUU fishing.

  <bullet> Senate should establish a research, development and pilot 
        program for advanced technologies for marine monitoring, vessel 
        identification, and enforcement.

  <bullet> Senate should ratify the Ports State Agreement and pass S. 
        267 to implement this agreement aimed at reducing international 
        IUU fishing by making sales of IUU fish much harder.

  <bullet> Senate should pass S.269 to streamline existing fishing 
        enforcement laws and provisions.

  <bullet> Senate should require basic information about fishery 
        enforcement activity and case load to be provided to relevant 
        committees and the public on some periodic basis.

  <bullet> Senate should modify MSA to enable the U.S. Coast Guard 
        flexibility in where it takes offending vessels in the Pacific.
Financing Conservation and Enforcement Efforts
    NOAA's budget for marine enforcement, especially remote Pacific and 
international enforcement efforts is tightly constrained. The Office of 
Law Enforcement in the National Marine Fisheries Service which collects 
evidence for cases, the Office of General Counsel for NOAA which issues 
violations and summary settlements, and the Justice Department's 
Environment and Natural Resources Division which prosecutes cases all 
have limited staff and resources for fisheries and habitat enforcement.
    In an effort to reduce backlogs and create a more robust 
enforcement effort, we recommend that the Senate consider providing 
additional dollars for these activities from the Saltonstall-Kennedy 
program that receives 30 percent of U.S. tariffs on imported fish and 
fish products. The Senate could direct NOAA to take some of this 
existing money and put it into enforcement. Or, we believe it would be 
reasonable to modestly increase the tariffs on imported fish and fish 
products to support better international enforcement. Since up to 20 
percent of imported fish is very likely to be caught by international 
pirate fishing, doesn't it make sense to raise the tariff on fishery 
imports to try to reduce the amount of pirate fishing worldwide?
    The Congress (taxes and tariffs have to start in House Ways and 
Means) might consider raising the tariffs (or asking the relevant 
authority to do so) on imported fish and fish products which today 
average about 1.4 percent of the value of the imports. This works out 
to a current average tariff of $0.04 per pound. Increasing the average 
tariff by a penny a pound would raise approximately $50 million per 
year for: (1) research and development and a pilot program for 21st 
century fishery monitoring and enforcement and for (2) fishery 
enforcement efforts aimed at reducing IUU fishing. With average tariff 
rates of $0.04 per pound, it is difficult to imagine any trade 
distortion if the average tariff goes up by one cent per pound, or any 
substantial impact on prices at the consumer level. In addition, the 
tariff increase would not be seen as subsidizing the U.S. fishing 
industry, an important WTO criterion, as we understand it.
Hawaii and the Endangered Hawaiian Monk Seal
    Although the MSA is the focus of this hearing, I also want to point 
out the critical importance of the National Marine Fisheries Service's 
(NMFS) other major statutory authorities--running an effective 
protected species program that conserves and rebuilds population of 
marine mammals and other listed marine species. Let's not forget that 
conservation of legally protected species is hugely important to the 
preservation of marine biodiversity and healthy ecosystems. 
Preservation of marine biodiversity and healthy oceans should in fact 
be a co-equal objective of NOAA's along with sustainably managing 
fisheries.
    MCI conducts a field program in Hawaii whose purpose is to build 
support among fishermen and local communities for the protection of the 
Hawaiian monk seal, one of the four rarest seals on Earth. The seal's 
entire population of approximately 1,000 lives entirely in Hawaiian 
waters. Marine Conservation Institute started this program because it 
was our conclusion that NMFS lacked the capability to reach out to 
local fisherman and communities on a regular basis to explain its 
program for the monk seal and to build understanding and trust by 
listening, really listening to these groups.
    We are now trying to fill this role as an `unofficial' partner of 
the agency. We regularly fill the communication gap between NMFS and 
fishermen and average citizens in Hawaii. We do this with regular 
conversations in town meetings, docks, fishermen hangouts and beaches. 
We run focus groups on seal conservation, distribute materials on how 
to avoid human--seal interactions, and work with volunteer groups doing 
seal conservation work.
    Based on our two years of experience at this work, we are preparing 
a report on what is needed to improve the management of human-monk seal 
interactions in Hawaii by both NMFS and the state Department of Land 
and Natural Resources. The report will be released later this year.
    One lesson to be learned from our experience in Hawaii with the 
monk seals that is relevant to MSA reauthorization is this. NOAA's 
ability to communicate with affected local communities about fishery or 
protected species issues needs to improve and can improve. While it is 
a science and regulatory agency at its core, NOAA needs to communicate 
with the public and affected parties like fishermen even when those 
messages are hard ones. And finally, there may be a useful role for 
organizations like ours--small nonprofits--to get involved in other 
situations laden with conflicts and mediate between NOAA and other 
stakeholders.
    Thank you very much for your time and attention to improving the 
Magnuson-Stevens Act. MSA and its implementation by NMFS and NOAA has 
helped make the U.S. an admired leader in marine conservation and 
sustainable fisheries around the world. We want to see the Senate build 
on that good progress and make MSA programs even better.

    Senator Begich. Thank you very much for your testimony.
    Ray Toste, President and General Manager, Washington 
Dungeness Crab Fishermen's Association.
    Ray, thank you very much for being here.

         STATEMENT OF RAY TOSTE, PRESIDENT AND GENERAL

   MANAGER, WASHINGTON DUNGENESS CRAB FISHERMEN'S ASSOCIATION

    Mr. Toste. Thank you, Chairman Begich, and Ranking Member--
--
    Senator Begich. Your microphone, there we go.
    Perfect, thank you very much.
    Mr. Toste. Senator Cantwell would just as soon take the 
mike away from me.
    [Laughter.]
    Mr. Toste. Good morning.
    Chairman Begich, Ranking Member Rubio, and Senator 
Cantwell, and members of the Committee, thank you for the 
opportunity to testify on MSA Reauthorization.
    My name is Ray Toste and I reside is Westport, Washington. 
I'm President and General Manager of the Washington Dungeness 
Crab Fisherman's Association and I'm also co-founder of the 
Ocean Coalition of Fishermen, an umbrella group which, over the 
last 17 years, has grown to represent 17 member organizations, 
which represents over 5,000 individual members. Our members are 
in Washington, Oregon, California and Alaska.
    Mr. Chairman, I have been fishing commercially for almost 
five decades. I was going to scratch that out, but--I'm proud 
to say that I'm still a working fisherman to this very day. My 
job takes me fishing not only in my home state but to 
California, Oregon, Washington and Alaska. It's profoundly 
gratifying to know that my work brings delicious American 
seafood to restaurants and kitchens across the country. It's 
the only way they--the American public--can share in this great 
heritage and it is their resource.
    I was going to skip something here because I was told to, 
but I can't. And it has to do with Senator Cantwell and Mr. 
Begich, who I met in Kenai more than once, especially when you 
were campaigning. You folks have shown a lot of courage, 
especially last week in Seattle. It's easy to be a Seahawk fan. 
It's not so easy to go against a powerhouse like you did on the 
Pebble Mine thing. Because of that, my youngest son will now be 
buying an outfit in Bristol Bay. Thank you, guys. You did well.
    I've always believed that conserving marine resources for 
future generations is a central part of a fisherman's 
responsibility. It's just simply the right thing to do. But as 
I grow older, I feel responsible to those who come after us 
more strongly than ever. For me, it's no longer an abstract 
thing; it's a personal thing. All three of my sons I have put 
through college, they all live in Westport, and they all 
commercial fish. The fact that that option was available to 
them speaks to improved fishery management.
    Although I don't participate in the Pacific Groundfish 
Fishery, I've watched it closely for many years. Not having a 
stake in the fishery, I believe I can comment as a neutral 
party. A decade or more ago, it was truly a mess. Overfishing 
had depleted the resource, hurting the environment; bottom 
line, it was bad. But not having a vested interested in it and 
going occasionally, sometimes you get a real good perspective 
of how well the Pacific Council has done. They've addressed the 
bycatch. It dramatically reduced.
    I'm here to tell this committee: The sustainability 
mandates and Magnuson-Stevens Act are working. Pacific Fishery 
Management Council is to be commended for its role improving 
and turning the fishery around.
    I also want to address the management of the Dungeness Crab 
Fisheries. This is a unique fishery requiring careful and 
customized management. I am pleased to report that management 
is working well. Specific management arrangements were put in 
place in 1996, granting interim authority to the states of 
Washington, Oregon and California up to 200 miles. The system 
has been uniquely successful for the Pacific and it's a model 
that works there; may not work for somewhere else, but it works 
there.
    And since interim authority was first granted, a lot of key 
management improvements have been made and they include: 
L.E.200, which I spent 89 coastal port meetings to achieve and 
it ended cross-boundary fishing; we then went to pot limits in 
Washington, Oregon, and now in California; pot tags were 
introduced to aid in enforcement; log books, which helped 
science and Marine Spatial Planning.
    And better and equal protocols which have helped us fish at 
the right time and have led to better product for the 
consumers. Protocols will be working now together with 
Washington, Oregon, California. We test the same. It works.
    I'm optimistic about the future Pacific fisheries. 
Sustainable science-based management has helped to improve 
fisheries' health. The choice of my three sons, with college 
degrees, speaks for itself. So long as Congress doesn't do 
damage to a good law and repeat the mistakes of the past, I 
believe they have a promising future working as commercial 
fishermen for many years.
    And once again, Senator Cantwell, I want to thank you. I 
have no idea how you got the money to do it when you did it, 
the Doppler radio is a huge success. It is truly going to save 
lives. And one of those could well someday be a grandson. There 
are two things I know how to do well, I think: catch fish and 
create sons.
    [Laughter.]
    Mr. Toste. And this is a huge help to Grace Harbor and 
everybody thanks you.
    Thank you, Mr. Begich.
    [The prepared statement of Mr. Toste follows:]

    Prepared Statement of Ray Toste, President and General Manager, 
           Washington Dungeness Crab Fishermen's Association
Introduction
    Chairman Begich, Ranking Member Rubio, and Members of the 
Committee, thank you for the opportunity to testify today on West Coast 
and Western Pacific perspectives on Magnuson-Stevens Act (MSA) 
reauthorization. My name is Ray Toste. I reside in Westport, which is 
located on the west coast of southwest Washington State, on Grays 
Harbor. I am President and General Manager of the Washington Dungeness 
Crab Fishermen's Association (WDCFA). I am also the co-founder of the 
Ocean Coalition of Fishermen, an umbrella group which over the last 17 
years has grown to represent 17 member organizations, which in turn 
represent over 5,000 individual members from Alaska, Washington, Oregon 
and California. I am pleased to be testifying today on behalf of both 
WDCFA and the Ocean Coalition of Fishermen.
    Mr. Chairman, I have been fishing commercially for almost five 
decades. And although I'm definitely not as young as I used to be, I'm 
proud to say that I'm still a working fisherman to this very day. My 
job takes me fishing not only in my home state of Washington, but also 
off the coasts of California, Oregon and Alaska. I'm deeply proud of 
what I do. For me, fishing is not merely a job--it's a way of life. And 
it's profoundly gratifying to know that my work brings fresh, delicious 
American seafood to restaurants and kitchen tables across the country.
    I also believe that a central part of being a good fisherman is 
being a good steward of the resource. To that end, I currently work 
with seven different fishing organizations. I serve on the Grays Harbor 
Marine Resources Committee, and on the Washington Coastal Marine 
Advisory Council at the Governor's request. I have worked closely with 
local, state and the Federal governments on many marine issues. One is 
conservation of Bristol Bay, where some of the most productive salmon 
runs in the world are threatened by a massive mine development 
proposal. Members of this committee have been champions for America's 
fishermen in pushing back against the unwise Pebble Mine proposal. I 
particularly want to thank you, Chairman Begich, for your recent 
comments, as well as Senator Cantwell for her leadership on this vital 
issue.
Magnuson-Stevens and Pacific Fisheries
    I've always believed that conserving marine resources for future 
generations is a central part of a fisherman's responsibilities--it's 
simply the right thing to do. But as I grow older, I feel a 
responsibility to those who come after us more strongly than ever. For 
me it's no longer an abstract thing: it's personal. All three of my 
sons have chosen to become working commercial fishermen just like me. 
It's a source of deep happiness for me that after leaving home and 
earning college degrees all three of my boys chose to come back to 
Westport and make commercial fishing their livelihood. The fact that 
the option was available to them speaks to improved fisheries 
management in the state of Washington and across the entire Pacific 
region.
    The truth is, I haven't always been optimistic about our ability as 
a country to conserve our marine resources. Although I don't 
participate in the Pacific groundfish fishery, I've watched it closely 
for many years. Not having a stake in that fishery I believe I can 
comment as a neutral party--a disinterested observer. A decade or more 
ago it was truly a mess. Overfishing had depleted the resource, hurting 
not only the environment but also the bottom line of fishermen. 
Depleted fisheries and poor management meant many couldn't make a 
living and didn't see a future. Today, the picture is very different. 
Communication and cooperation between the National Marine Fisheries 
Service (NMFS) and the fishing industry has improved. Overfishing has 
been addressed and bycatch has been dramatically reduced.
    I'm here to tell this committee that the sustainability mandates in 
the Magnuson-Stevens Act are working. They've forced much-needed 
changes in the groundfish fishery in the Pacific. And now fishermen are 
enjoying the benefits. The Pacific Fishery Management Council is to be 
commended for its role in improving management and turning the fishery 
around. This committee should learn from this experience. First and 
foremost, it should do nothing in the upcoming reauthorization of MSA 
to weaken the sustainability mandates. They are working, they are 
needed, and they should be retained.
    As in any fishery there are still many challenges and improvements 
needed to how Pacific fisheries are being monitored and mangaged. 
Presently resource contraints, both in funding for the Council and for 
NMFS are hindering progress in the region. The regional NMFS office has 
been consistently understaffed during the last few years meaning that 
Council priroties can not be addressed in a timely fashion. Lack of 
time and resouces is continually cited as a constraint for why 
management actions or regulatory reforms important to the industry are 
postponed.
    We should be looking to help fishermen adapt to management 
requirements and simplfing regulations to ensure they are not overly 
burdensome to either the industry, enforcement authories or the 
National Marine Fisheries Service. This will increase profitablity for 
the industry and reduce cost to government agencies.
    Additionally, with more robust funding we can increase and improve 
fisheries data. It is important to improve the quality of science being 
used to manage fisheries. Increased opportunities for organized 
collaborative research would be welcome and could reduce costs of 
scientific data collection while also improving data quality. Often 
there are significant time lags between when a stock is assessed and 
when those assessments are reflected in management, which can lead to 
skeptism among fishermen about management decisions.
    Securing the long-term durability of Pacific fisheries will require 
reducing costs, improving data to ensure industry access to healthy 
target species, and leveraging the high level of accountability in 
Pacific fisheries to improve the price and market opportunities of 
Pacific fishery resouces. I want future generations of fishermen to be 
able to participate in profitable fisheries that are managed reliably 
and in coordiantion with the fishing industry.
The Dungeness Crab Fishery
    I also want to address management of the dungeness crab fishery. 
This is a unique fishery, requiring careful and customized management. 
I'm pleased to report that management is working well. Specific 
management arrangements were put in place in 1996, granting Interim 
Authority to the states of Washington, Oregon and California to manage 
the fishery out to 200 miles. That system has been uniquely successful 
for the Pacific. It's not a model that would work in other fisheries, 
but it works for us.
    Since Interim Authority was first granted it has enabled many key 
management improvements. These include:

  <bullet> L.E.200, which ended cross-boundary fishing;

  <bullet> pot limits in Washington and Oregon, and now in California;

  <bullet> pot tags, which aid enforcement;

  <bullet> log books, which aid science and help with Marine Spatial 
        Planning; and

  <bullet> better and equal testing protocols, which have helped us 
        fish at the right time and led to a better product for 
        consumers.

    As this Committee considers tweaks and adjustments to the Magnuson-
Stevens Act, I believe it should make this highly successful management 
system of the dungeness crab fishery permanent. The system has been in 
place for almost 20 years and it is working well. So long as Interim 
Authority is not made permanent by Congress there is always a risk that 
it won't be extended. I urge the Committee to act on this 
recommendation. It's time.
    This committee should also consider whether a buydown of the 
fishery is possible. For complex reasons that I'd be happy to explain, 
a previous Federal court decision resulted in the fishery becoming 
overcapitalized. So long as seasons are strong--as they have been in 
the last few years--dungenous crab fishermen can get by. But if we have 
successive bad seasons it will be the ruination of what is Washington's 
biggest fishery. I'm very sad to say that this season is shaping up to 
be the worst season since 1973. A way to reduce capitalization of the 
fishery is urgently needed. All Washington State fisheries that fell 
under Federal tribal management judicial regulations have been 
mitigated with some sort of buy down except for coastal crab. The buy 
back is literally in place at this time--the heavy lifting is done, but 
due to lack of Federal and state funds a much needed buydown is on 
hold. Many other fisheries have received Federal assistance in reducing 
capitalization. I urge this committee to help provide similar 
assistance in securing the long-term future of the dungenous fishery.
Conclusion
    Mr Chairman, I am optimistic about the future of Pacific fisheries. 
Sustainable, science-based management has helped improve fisheries' 
health. A state-of-the-art Doppler radar, which Senator Cantwell and 
her staff worked so hard to bring to the harbor area a couple of years 
back, is keeping fishermen safer on dangerous Pacific seas. It's saving 
lives, and we're all very grateful to the Senator for that. I served on 
her blue ribbon panel. Other new technologies are helping improve 
management.
    I do encourage the Committee to consider how we can ensure more 
young people are able to enter the business. One thing we must 
prioritize is ensuring that financing is more readily available to 
those starting out. For my three sons, however, their choice to become 
fishermen speaks for itself. So long as Congress doesn't do damage to a 
good law and repeat the mistakes of the past, I believe they have a 
promising future working as commercial fishermen for many years to 
come.

    Senator Begich. Thank you very much. Thank you for your 
testimony.
    Next, I have Joe Dazey, Executive Director, Washington 
Trollers Association.

STATEMENT OF JOE DAZEY, EXECUTIVE DIRECTOR, WASHINGTON TROLLERS 
                          ASSOCIATION

    Mr. Dazey. How does this thing work? OK.
    Thank you, Senator Begich. And also, thank you, Senator 
Cantwell, for the invitation to address the Committee.
    I am the Executive Director of the Washington Trollers 
Association. And in preparing my comments, I consulted with the 
California Salmon Commission, the Oregon Salmon Commission, and 
the Oregon Albacore Commission. We have four issues we'd like 
to bring out. The first has to do with definitions and is 
something that rankles fishermen at every committee meeting I 
go to. The terms ``overfished'' and ``overfishing'' are used 
extensively throughout the Magnuson-Stevens Act. These terms 
are misleading and are used when harvest is not the reason for 
a stock's depleted status. There are instances in the lower 
Columbia River of stocks that have an extremely high 
probability of extinction within the next 50 years even with 
zero harvest levels.
    The HSRG has a 4H model that attributes stocks' impacts to 
hydroelectric operations, hatcheries, habitat degradation, as 
well as harvest. The Magnuson-Stevens Reauthorization Act 
should provide a distinction between overfished and depleted 
designations.
    Next, we'd like to see more flexibility in rebuilding 
programs. Due to a predicted low return of Klamath Fall Chinook 
in 2006, the Pacific Fishery Management Council, with guidance 
from NMFS, felt constrained to close the fishery. Now the stock 
was not endangered, the fishery was closed due to a predicted 
low return that was below a floor number that would ensure a 
maximum productivity. This closure came on the heels of a 
greatly reduced fishery in 2005 and the result was $150 million 
in economic loss and $60.4 million in disaster relief to 
fishermen in Oregon and California. Without fishing opportunity 
there's a significant toll on families, unemployment goes up, 
there's increase load on social services, and local governments 
suffer from decreased tax revenue.
    This is one example. There have been a lot of closures of 
complete or partial of salmon fisheries over the years. 
Reauthorization of Magnuson-Stevens should provide for 
consideration of social and economical impacts on fishing 
communities by allowing a phase-in of rebuilding programs over 
3 years.
    We'd also like to talk about annual catch limits, or ACLs. 
The Albacore Tuna Fishery is managed by the IATTC and the 
Western Pacific Fishery Commission, as well as the U.S. Fishery 
Management Councils. Establishing unilateral conservation 
measures such as ACLs, or limited entry, will constrain the 
U.S. fleet while having little or no effect on conserving the 
resource. Foreign fleets are building and ours are not. If such 
measures are taken, U.S. representatives to international 
treaty discussions will have diminished ability to protect U.S. 
interests. The Council should have flexibility in deciding the 
timing and benefit of internationally managed stocks with ACLs. 
And in addition, the establishment of an annual catch limit can 
have significant economic impacts on fishing communities. The 
Council should have the ability to take this into consideration 
when deciding an ACL.
    We'd also like to talk about data collection. Data 
collection can benefit from collaboration between fishermen and 
scientists. This has been demonstrated by a project undertaken 
in 2007 using disaster relief money made available to fishermen 
in Oregon and California. A project was undertaken to collect 
tissue samples from Chinook salmon which would then be analyzed 
for their genetic markers. Salmon returns are currently 
estimated using the fishery resource allocation model, the 
FRAM. The FRAM gets its inputs from coded wire tags. There are 
several issues with coded wire tags, notably that they only 
sample a small portion of hatchery stocks and no wild stocks. 
And it's the wild stocks that are endangered.
    The coded wire tags are also collected at shore-side 
processors. If they are collected at sea, we've got a better 
idea of where the fish were actually caught; where the 
distributions of fish stocks are. The GSI samples have shown 
different distributions of fish stocks than modeled in the 
FRAM. GSI at sea collection of samples has the potential to 
significantly improve salmon management by shifting effort away 
from endangered stocks. The MSA Reauthorization Act should 
encourage collaborative research between fishermen and 
scientists.
    Thank you.
    [The prepared statement of Mr. Dazey follows:]

         Prepared Statement of Joe Dazey, Executive Director, 
                    Washington Trollers Association
Definitions
    The terms ``overfished'' and ``overfishing'' are used extensively 
throughout the Magnuson-Stevens Act. These terms are misleading and are 
used when harvest is not the reason for a stocks depleted status. There 
are, for instance, stocks in the Lower Columbia River that have an 
extremely high probability of extinction within 50 years with zero 
harvest levels. The Hatchery Science Review Group (HSRG) has developed 
a 4H model that attributes impact on stocks to hydroelectric 
operations, hatcheries, and habitat degradation as well as harvest. In 
2002, low rainfall and fish-blocking dams led to an infestation of 
parasites that killed almost all of the outbound juvenile salmon. This 
led to an overfishing concern in 2006 even though fishing was not the 
cause of the problem. Reauthorization of MSA should provide a 
distinction between overfished and depleted designations.
Flexibility in Rebuilding Programs
    Due to a predicted low return of Klamath Fall Chinook in 2006, the 
Pacific Fishery Management Council, with guidance from the National 
Fishery Management Service, felt constrained to close the fishery. The 
stock was not endangered; the fishery was closed because the predicted 
return was below a floor number that would ensure maximum productivity. 
This closure came on the heels of a greatly reduced fishery in 2005. 
The result was $150 million in economic losses and $60.4 million in 
disaster relief to commercial and sports fishermen in Oregon and 
California. Fuel docks, ice plants, and other support services were 
hurt and some closed. In many coastal communities, fishing is a major 
source of employment. Without fishing opportunity, there is a 
significant toll on families, unemployment goes there is increased load 
on social services, and local governments suffer from lost tax revenue.
    This is one example. Salmon fisheries in California, Oregon, and 
Washington, have experienced many partial or complete closures over the 
years. Reauthorization of MSA should provide for consideration of 
social and economic impacts on fishing communities by allowing a phase-
in of rebuilding programs over three years.
Annual Catch Limits/International Agreements (ACLs)
    The albacore tuna fishery is managed by the Inter-American Tropical 
Tuna Commission and the Western/Central Pacific Fishery Commission in 
addition to the U.S. Fishery Management Councils. Currently foreign 
countries are increasing their fleets. Establishing unilateral 
conservation measures such as ACLs or limited entry will constrain the 
U.S. fleet while having little to no effect on conserving the resource. 
If such measures are taken, U.S. representatives to international 
treaty discussions will have diminished ability to protect U.S. 
interests. The Councils should have flexibility in deciding the timing 
and benefit of ACLs on internationally managed stocks. In addition the 
establishment of an annual catch limit can have significant economic 
impacts on fishing communities. The Councils should have the ability to 
take this into consideration when deciding an ACL.
Data Collection
    Collaboration between fishermen and scientists will always benefit 
data collection opportunities. As an example, in 2007 using disaster 
relief funds made available to fishermen in Oregon and California, a 
project was undertaken to collect tissue samples from Chinook salmon 
which were then analyzed for their genetic markers. The process 
involves fishermen taking a fin clip sample from fish and recording the 
GPS coordinates and other measurements. These data are then sent to one 
of the regional science centers for analysis. Salmon stock returns are 
currently estimated using the Fishery Resource Allocation Model (FRAM). 
Inputs to the FRAM are based on coded wire tags. There are several 
issues with coded wire tags, notably that they apply only to to a small 
percentage of hatchery stocks and no wild stocks. In addition, they are 
collected when the fish are delivered to a shore-based processor. At-
sea collection of GSI samples has shown different distributions of fish 
stocks than modeled in the FRAM and has the potential to substantially 
improve management of salmon by shifting effort away from endangered 
stocks. The MSA Reauthorization Act should be amended to encourage 
collaborative research.

    Senator Begich. Thank you very much.
    Last person we have is Dr. Trevor Branch, Assistant 
Professor Aquatic and Fishery Science, University of 
Washington.
    Thank you very much for attending.

        STATEMENT OF TREVOR A. BRANCH, Ph.D., ASSISTANT

       PROGESSOR, SCHOOL OF AQUATIC AND FISHERY SCIENCES,

           COLLEGE OF THE ENVIRONMENT, UNIVERSITY OF

                           WASHINGTON

    Dr. Branch. Thank you very much, Chairman Begich and other 
members of the Subcommittee, for the privilege of testifying at 
this hearing.
    It's, of course, a special honor to speak before Senator 
Cantwell from my hometown of Edmonds and, of course, on the eve 
of this weekend's Super Bowl.
    I'll focus my remarks on key elements of the Magnuson-
Stevens Act and the impact of fisheries on the West Coast to 
the U.S.
    First, some context. Globally, we've reached the limits of 
what it is possible to catch from the ocean. Worldwide catch 
has peaked in the mid-1990s and have since declined by about 5 
percent and 30 percent of the world's fisheries are overfished.
    U.S. fisheries are doing somewhat better. Yesterday's 
updated report from NOAA shows that 20 percent of U.S. 
fisheries are overfished and 13 percent are experiencing 
overfishing. These encouraging results arise directly from the 
2006 Reauthorization of the Magnuson-Stevens Act which requires 
annual catch limits, or ACLs, and strict rebuilding time 
periods for overfished stocks.
    In comparison to the world and the U.S. as a whole, West 
Coast fisheries are in good shape biologically. Only 8 percent 
of assessed stocks are overfished and none are experiencing 
overfishing. On the West Coast, although more than 90 species 
of groundfish are managed by the council, regulations are 
driven by seven species that are under rebuilding plans. Since 
the bottom trawl fishery catches many species together, strict 
regulations have been put into place, including: closing 
productive fishing areas; gear restrictions; vessel buybacks; 
highly restrictive ACLs; and most recently catch shares, which 
include 100 percent observer coverage.
    One of the key issues in the groundfish fishery is the real 
fear of a disaster tow, where a single large catch could stop 
individuals fishing for all species for the entire year. In 
particular, catch limit for yelloweye rockfish is just 2,205 
pounds which is less, I might add, than the starting line of 
the Seattle Seahawks.
    [Laughter.]
    Dr. Branch. And that amounts to just 20 pounds of yelloweye 
per boat for the entire year. If these limits are exceeded, 
pounds must be bought or leased to others before they can 
continue fishing.
    It's a testimony to the strong incentives on the catch 
share fisheries and also the fear of the fishermen that the 
fleet caught just 6 percent of this yelloweye quota in 2013. In 
most respects, catch shares are working as they were intended 
to. They allow maximum flexibility in when, where, and how to 
fish. And the catch shares discards have declined, revenues 
have gone up and catches of the rebuilding species have gone 
down. However, profits could be still higher.
    The focus on this fishery in rebuilding the weakest link 
has led to substantial under-catching of the ACLs. Only three 
of 26 stocks in the catch share fishery have catches anywhere 
close to the ACLs or catches for the average stock are just 27 
percent of the respective ACL. The net result is that about ten 
times more catch is lost due to under-fishing than to 
overfishing.
    Catch shares have had a major positive impact on the 
biology and economics of the West Coast groundfish fishery. 
Looking forward, I predict that catch shares will be called 
upon to address allocation issues in the future. For example, 
charter boats might buy quota from the commercial fishers to 
increase bag limits for their clients.
    In revising the Act, careful thought is needed as to 
whether or not quota should be sold or leased across different 
sectors; such as trollers, longliners, recreational fishers, 
charter boats, and tribal groups.
    ACLs are a key requirement under the MSA. Without annual 
fisheries independent surveys, stock assessments will be 
inaccurate and so will the ACLs. The reauthorization should 
stress the critical importance of continued or perhaps expanded 
funding of annual bottom trawl surveys, pot surveys, hook and 
line surveys, and diver surveys depending on the region.
    Setting ACLs has also greatly increased the demand for 
stock assessments. It's estimated that NOAA will need to add 
140 new hires to the current 90 capable of running these 
assessments. However, funding has lagged in the two major 
programs that support greater student training in this field. 
The first program is a fellowship program between NOAA and Sea 
Grant that now covers less than half of the typical Ph.D. The 
second program is NSF which rarely funds fisheries' research, 
especially since the NSF NOAA program, called CAMEO, fell 
victim to budget cuts.
    To summarize, U.S. fisheries are in better shape than the 
rest of the world thanks to MSA. The focus in rebuilding West 
coast species has been biologically successful, but will take 
many years because these species, a lot of them, are very long-
lived. Extra flexibility in rebuilding timelines will greatly 
increase revenues and profits currently lost when fishers avoid 
the overfished species.
    The key to future success is prioritizing annual surveys 
and training stock assessment scientists to meet NOAA's current 
and future needs.
    Thank you once again for inviting me to testify.
    [The prepared statement of Dr. Branch follows:]

  Prepared Statement of Trevor A. Branch, Ph.D., Assistant Professor, 
  School of Aquatic and Fishery Sciences, College of the Environment, 
                        University of Washington
    Good morning Chairman Begich, Ranking Member Rubio, and members of 
the Subcommittee. I am very grateful for the invitation to speak about 
the progress made to date, and ongoing challenges in moving to 
sustainable fisheries management under the most recent reauthorization 
of the Magnuson-Stevens Act. I will address key elements of the Act and 
their impact on fisheries on the West Coast of the United States. My 
name is Trevor Branch and I am an Assistant Professor at the School of 
Aquatic and Fishery Sciences, part of the College of the Environment at 
the University of Washington.
Background: fisheries status and trends
    Globally, we have reached the limits of what it is possible to 
catch from the ocean. FAO data show that marine catches peaked at 86 
million tons in the mid-1990s and have since declined by 5 percent. Of 
the fisheries that produce most of the world's catch, 30 percent are 
overfished, 57 percent sustainably fished, and only 13 percent are 
still developing.\1\<SUP>,</SUP>\2\
---------------------------------------------------------------------------
    \1\ FAO. The state of world fisheries and aquaculture 2012. (Food 
and Agriculture Organization of the United Nations, 2012).
    \2\ Branch, T. A., Jensen, O. P., Ricard, D., Ye, Y. & Hilborn, R. 
Contrasting global trends in marine fishery status obtained from 
catches and from stock assessments. Cons. Biol. 25, 777-786 (2011).
---------------------------------------------------------------------------
    American fisheries are doing somewhat better than the rest of the 
world. According to the latest NOAA status report, 21 percent of 
fisheries are overfished (low abundance), while overfishing (high 
harvest rates) is still occurring in 12 percent of U.S. fisheries. 
These encouraging biological signs arise directly from the most recent 
reauthorizations of the Magnuson-Stevens Act, which requires strict 
rebuilding time periods for overfished stocks. However, in some 
fisheries these regulations have resulted in substantial economic 
hardship and social change.
West Coast status and trends
    On the West Coast, the biological status of fisheries managed by 
the Pacific Council is better still. Only 11 percent of assessed stocks 
are currently overfished, while overfishing is occurring in none of 32 
assessed stocks. More than 90 species of groundfish are managed by the 
Pacific Council, but fishing regulations are driven by eight species 
that are under rebuilding plans (four are still overfished): seven 
species of long-lived rockfish, and one flatfish, petrale sole. A full 
suite of regulations has been imposed to rebuild these species 
including closing the formerly most productive fishing areas, gear 
restrictions, vessel buybacks, highly restrictive annual catch limits, 
and most recently, catch shares.
    Under catch shares, each individual is allocated quota for every 
species, and can trade or lease that quota to others in the fishery. In 
the West Coast groundfish fishery, catch shares also include 100 
percent on-board observer coverage and 100 percent monitoring of 
landings. The rationale behind catch shares is to allow maximum fishing 
flexibility, allow year-round fishing, and provide strong individual 
incentives to avoid overfished species. Early indications are that 
discards have declined for most species, revenues have increased from 
$38 million to $54 million, and catches are greatly reduced for the 
overfished species. One of the key issues in the fishery is the 
legitimate fear of a ``disaster tow'', where a single large catch would 
put an individual out of business. In particular, the quota for both 
yelloweye rockfish and for cowcod is just 2,205 pounds, implying that 
each vessel is allocated about 20 pounds of yelloweye and cowcod for 
the whole year. If these quotas are exceeded, pounds must be bought or 
leased from others before they can continue fishing. Staying with these 
limits seemed unlikely, yet remarkably, the fleet only caught 6 percent 
of the yelloweye rockfish and 22 percent of the cowcod in 2013.
Overfishing, underfishing and ``weakest-link'' management
    In the groundfish fishery, management has successfully focused on 
ending overfishing, and on rebuilding overfished stocks. The net 
result, however, is that rebuilding the weakest links in the fishery 
has led to substantial under-catching of the total allowable catches 
(TACs). Out of 26 stocks under catch shares, catches are within 10 
percent of TACs for only three species: sablefish, Pacific whiting, and 
petrale sole; while for 11 stocks, catches are less than 20 percent of 
their respective TACs. For the average stock under catch shares, only 
27 percent of the TAC is caught.
    Therefore, although average biomass is rebuilding rapidly, and is 
on average above maximum sustainable levels, harvest rates are just 1 
percent of the available biomass.\3\ This is a much lower harvest rate 
than in almost any other fishery in the world. Our previous 
calculations suggest that catch lost due to overfishing amounts to 
about 3 percent of total sustainable yield, while lost yield from 
under-catching TACs amounts to about 30 percent of total sustainable 
yield.\3\
---------------------------------------------------------------------------
    \3\ Hilborn, R., Stewart, I. J., Branch, T. A. & Jensen, O. P. 
Defining trade-offs among conservation, profitability, and food 
security in the California Current bottom-trawl fishery. Cons. Biol. 
26, 257-266 (2012).
---------------------------------------------------------------------------
    For this fishery, focus on rebuilding the eight overfished species 
has been biologically successful: rebuilding is underway, but will take 
many years because most of these species are extremely long-lived and 
slow-growing species. The tradeoff of meeting these biological targets 
is substantial lost revenues and profits.
    The key take-home message is that greater flexibility in mandatory 
rebuilding timelines and rebuilding rates would allow for greater 
profits in this fishery, while overall harvest rates would still remain 
low.
Effects of catch-shares
    Catch shares have already had a major impact on all aspects of the 
West Coast groundfish fishery. Discards have declined, catches are a 
smaller fraction of TACs, fleet sizes are likely to shrink, and profits 
have increased. Most of the major issues are likely to involve 
questions of fairness, equitability, and control. Based on many other 
catch share fisheries, the relative balance of power will shift towards 
quota owners, and away from processors, deckhands, and coastal 
communities. In addition, the original recipients of quota shares will 
benefit far more than those who buy in at a later stage.
    It is inevitable that allocation issues will arise among different 
sectors: trawlers, fixed-gear fishers, recreational fishers, charter 
boats, and tribal groups. One benefit of catch shares is that they 
provide a market-based method of shifting quota among these groups, 
that should be allowed in the reauthorization of the Magnuson-Stevens 
Act. For example, charter boats might be willing to pay handsomely to 
buy quota from commercial fishers, in order to increase bag limits and 
fishing experiences for their clients.
    Therefore, in revising the Act, consideration should be given to 
whether leases and sales of quota should be allowed among commercial, 
recreational, charter boats, and tribal groups.
Academic training
    The 2006 Magnuson-Stevens Act requires Councils to specify annual 
catch limits for all managed fisheries. This has led to an increased 
demand for trained stock assessment scientists to conduct these basic 
assessments. In 2009 it was estimated that NMFS employs about 90 stock 
assessment scientists, but given retirements and anticipated future 
needs, 135-146 new hires would be needed in this field within 10 
years.\4\ As a result, a number of new academic posts, including my 
own, were created to train more PhD-level graduates. Together with my 
colleagues at the School of Aquatic and Fishery Sciences, we teach a 
sequence of seven courses aimed at training graduate students in the 
programming, statistical, and modeling skills required to conduct stock 
assessments.
---------------------------------------------------------------------------
    \4\ Berkson, J. et al. Is there a shortage of fisheries stock 
assessment scientists? Fisheries 34(5), 217-219 (2009).
---------------------------------------------------------------------------
    However, funding for graduate students has lagged behind. The NMFS-
Sea Grant fellowship program in Population and Ecosystem Dynamics funds 
only 2-4 students a year, and with rising tuition costs, now covers 
less than half of a typical four-year PhD program. In addition, 
academics working on relevant fisheries research rarely receive funding 
from the National Science Foundation (NSF), which is not allowed to 
overlap NOAA's mission. There used to be a joint NOAA-NSF program that 
funded fisheries research, and was highly successful, but this program 
(the Comparative Analysis of Marine Ecosystem Organization, or CAMEO) 
fell victim to budget delays.
    This reauthorization of the Magnuson-Stevens Act should include 
dedicated funds for graduate students through Sea Grant, NOAA and NSF 
to train and hire a new generation of stock assessment scientists to 
meet NOAA's current and anticipated needs.
Data requirements
    A key requirement for management of these fisheries is a long time 
series of fisheries-independent data. Without regular (annual) 
fisheries-independent surveys, stock assessments will be inaccurate and 
imprecise, and the science available will not be the best possible 
available science. Of crucial importance is the continuation of the 
annual bottom trawl survey and other surveys such as pot surveys or 
hook-and-line surveys that are able to sample fish in the rocky 
habitats that are inaccessible to the bottom trawl survey.
Summary
    Compared to the world as a whole, and the rest of the U.S., 
fisheries managed by the Pacific Council are in better biological shape 
and are lightly fished. However, rebuilding plans for eight species 
seriously constrain catches of other species in the region, resulting 
in substantial lost revenue. Increased flexibility is needed in 
rebuilding times and in quota transfers if economics and social impacts 
are to be reduced. Of critical importance is continued funding for 
fishery-independent surveys producing the key data underlying 
management decisions, and increased funding to train stock assessment 
scientists to meet NOAA's needs.

    Senator Begich. Thank you very much.
    And again, to my colleagues, the vote has started but we'll 
have time for both of you to do your questions. I'll submit 
mine for the record. I actually have some additional ones now 
that you've made some interesting comments; all of these.
    So let me pause and Senator Schatz and then Senator 
Cantwell.
    Senator Schatz. Thank you, Chair Begich.
    And I'll submit some additional questions for the record.
    But my very quick question for Mr. Goto is, could you just 
explain on the ground what pirate fishing means to you at the 
fish auction and what the real economic impacts are?
    As quickly as you can since we're having a vote.
    Before you get started, I just wanted to announce that 
we've found his coat.
    Senator Begich. Oh, good.
    And just so you know, Senator Schatz, each of you can take 
your 5 minutes because then we'll be able to tag the vote on 
the back end.
    Senator Schatz. OK.
    Senator Begich. But I'm glad he found his coat.
    Mr. Goto. Yes. Now I can fly home and watch Peyton Manning 
win the Super Bowl. I'm just kidding.
    [Laughter.]
    Mr. Goto. I'm the most unpopular person in the room now.
    Senator, to address your question, IUU, we don't see it 
directly ourselves but the impacts of it are very substantial. 
The only real competition that any domestic fishery has is with 
imported product. And to really show how that affects the 
domestic market, we see fluctuations in price especially in our 
system of sales. We do an auction system so that the market 
basically flows as the demand flows.
    Hawaii-caught tuna and all seafood has developed a very 
good reputation across the globe and it's very popular. And it 
really does compete with cheaper, I'll say, unsustainably 
caught product because, despite the fact that you may know the 
origins of it, you don't have any indicators of how it was 
caught or the impacts that were taken because of it.
    So not only are those the issues, but it really does affect 
the value of our fish. If we do have a lot coming in at a 
certain time, it will really cause the market to dip and, you 
know, fishermen expenses are very high as I brought up within 
my testimony. Fuel prices are through the roof. You think when 
you go to the gas pump to fill up your car it's expensive. 
Imagine filling up a 75 foot boat. It's really expensive just 
to get that and then there are crew transport issues, 
regulatory issues, you know, it really adds up.
    So to produce food, we all think food comes from farms and 
ocean, but we don't really think about the sustain costs of it. 
And to, like I said, to project that down the line, if the 
fishery is going to lose money, or the vessels are going to 
lose money, it's a disaster in the end for them. They can't 
keep on going; they can't keep on producing in light of, like I 
said, the unsustainable product that's being brought in.
    So, to answer your question, Senator. Thank you.
    Senator Schatz. Thank you very much.
    Thank you, Chairman.
    Senator Begich. Senator Cantwell.
    Senator Cantwell. Thank you, again, Mr. Chairman, for this 
important hearing.
    And I just wanted to say to Mr. Goto that the Chairman of 
this committee is making a name for himself here; making sure 
that our colleagues, when it comes to disaster relief or 
whatever, to understand that you can't just aid the food 
product that grows out of the ground and ignore the 
catastrophes we have in the oceans. So I want to thank him for 
continuing to educate my colleagues on that and on 
``Frankenfish.'' So he has done a good job on both of those 
issues.
    Dr. Branch, talk about the finfish, salmon and whiting as 
it relates to ocean acidification. What are the impacts? What 
are the concerns?
    I know you gave a representation of how we're doing on the 
Pacific Council and where we are juxtaposed to the rest of the 
world, but don't we have a looming issue here with 
acidification and some of the things that were cited in the 
previous, Mr. Stelle's comments, about the near shore issue?
    Dr. Branch. Yes.
    For ocean acidification, I think there are still some 
unknown questions. I've been told the last five or ten years it 
was thought that fish wouldn't be affected at all by ocean 
acidification. It would mainly be bivalves, mollusks, clams, 
and oysters and so on; which have already been affected on the 
West Coast. But then, some people have been doing research on 
clownfish, of all things, the ``Nemos'' of the ocean and 
showing that if you give them a choice between two sides of an 
experimental aquarium, one side containing the smell of a 
predator and the other side containing just seawater. Usually, 
they will avoid the side with the predator smell, but if you 
put them in slightly acidified water, about what you'd get 
before the turn of the century, they will choose the side with 
the predator smell in preference. They actually think it's an 
interesting smell to go to explore, they get bolder and less 
cautious. And if you take these same juvenile clownfish and put 
them out in the coral reef, it turns out they get eaten about 
ten times more often than ones in regular seawater.
    So this is something where, if this is true, not only of 
clownfish and other tropical reef fish, but also of our fish on 
the West Coast, this could be a big issue. And I think we need 
to find out if that is true or not.
    Senator Cantwell. And how can we leverage the acidification 
research?
    How can NOAA leverage what's being done in the University 
of Washington Center on acidification now?
    How can we work cooperatively? Because, we meet fishermen 
all throughout our region that are ready to help participate in 
collecting data and information.
    Dr. Branch. I think the key, I mean, the new center at the 
University of Washington, thanks very much to funding for that, 
I think is going to be a key part of figuring out what species 
are going to be affected and what species aren't and how to 
cope with ocean acidification in the future and hopefully 
mitigate against the causes of ocean acidification as well.
    Senator Cantwell. Do we have the science that we need, Mr. 
Dazey?
    Mr. Dazey. I don't know if we have enough science or not.
    There has been a lot of research done on ocean 
acidification by Dr. Feely and some of Dr. Branch's associates 
at the University of Washington. One of the things that 
concerns the salmon fleet is that ocean acidification will 
affect copepods. And that's a large part of the diet of 
juvenile salmon.
    Senator Cantwell. So you're talking about a shellfish that 
they feed on being affected just as the shellfish industry has 
been affected.
    Dr. Dazey. That is correct.
    Senator Cantwell. Which was a very big threat and only data 
and information got us, through this buoy system, the right 
kind of information to help in that seeding process.
    So, I mean, what would we do here if it's such a big food 
source for salmon?
    Dr. Dazey. That's correct.
    Copepods are a huge resource for salmon. One of the 
possibilities in doing the at-sea collection of GSI samples is 
collecting things like ocean acidity or temperatures; other 
things beyond just the tissue sample from the fish. That, of 
course, requires more effort from the fishermen and takes time 
away from his primary business of catching fish.
    Senator Cantwell. Well, the reason I bring this up is 
because throughout this hearing we've had a lot of dialogue 
about all the things we're doing to try to protect salmon. And 
yet, I think we also have to realize that there is this larger 
looming threat of acidification. And so, while we've all been 
aware that this is accelerating, or having an impact on the 
oceans, I think this one is a very big potential.
    I'm just going to ask Mr. Toste about the, you know, the 
access question about young fishermen and what we need to do to 
continue to make sure that they have access.
    Mr. Toste. In Washington State, in the crab fishery, Phil 
Anderson, the Director and I, got our heads together a couple 
of years ago and we enacted a two-part bill to the Legislature. 
And it was on the transfer of crab permits. I think, if you're 
a young man and you got a boat that you're trolling with, the 
investment of crab gear is huge. The investment of crab gear 
and a permit may make it impossible. I think if there's some 
way to fund, help fund permits.
    Now, in Alaska you have a banking system that does just 
that. At one time, in Alaska, the permits couldn't even be 
taken by the IRS or in the case of a divorce.
    [Laughter.]
    Mr. Toste. So a lot of guys were buying crab permits. The 
State of Alaska brought that to an end in a hurry.
    But what we did is we made the license transferable every 
365 days. And the permit, if I'm selling this fellow my permit, 
say for $50,000 and he gives me five down and he's going to pay 
me over the next 10 years, I hold the permit in my name. He 
simply has an additional operator's license. So that way I can 
finance that permit as I sell out which, when you get my age, 
selling them out over a period of time is inviting. For the 
young man getting in, it's inviting. It has kind of helped 
there. I know it has worked there on crab. But not a lot of the 
other states do that. California is nearly impossible to buy 
into. And I think bankers, if they knew that they could use a 
permit as collateral, would be an enormous help to getting 
people in.
    Senator Cantwell. Thank you.
    And, you know, my colleague and I, Senator Begich, had a 
listening session in Seattle. And it's very clear there are 
many aspects of the fishing industry, whether it's the permit 
issue or vessel issue, that our friends in the banking industry 
don't understand. And yet, they are very solid, you know, 
managed resources. So it's very predictable from that 
perspective.
    So anyway, again, thank you, Mr. Chairman, for all your 
indulgence on this very important issue not only just to our 
region but to our whole nation. I really appreciate your 
leadership on it.
    Senator Begich. Thank you very much, Senator Cantwell. And 
thank you all for being here.
    And let me say this and this is a comment I use a lot, and 
that is, you know we're about to, probably Monday, Tuesday, 
vote on a farm bill and move forward. And as I like to say if 
you can imagine that farm bill called ``the fish bill,'' all 
those programs that are in there, the value of that and what it 
would be. And I always say the only difference is we harvest 
from the sea verses the land, but it's a food product that is 
utilized not only for consumption, Hawaii is a great example, 
triple consumption, but also it's an export product for us 
around the world.
    So we hope, and that's our effort, to create equity when 
they talk about the farm bill, we'd like to see a fish bill of 
equal qualities. So that's the long-term.
    But we really thank you all for being here today. I will 
keep the record open for 2 weeks. I will submit my questions. 
We do have a vote that closes in just a couple minutes.
    But again, thank you all very much for participating.
    At this time, we'll adjourn the meeting.
    Thank you.
    [Whereupon, at 11:33 a.m., the hearing was adjourned.]
                            A P P E N D I X

    Response to Written Questions Submitted by Hon. Marco Rubio to 
                              Will Stelle
    Question 1. Under a typical LAPP program, how would a new market 
entrant participate in the fishery?
    Answer. Limited access privilege programs (LAPP) have been 
implemented throughout the country and have a variety of approaches to 
new entrants. Generally, a new entrant to a LAPP fishery would need to 
purchase a permit from a current fishermen in the fishery. The permit 
typically has an amount of quota share--the percent of the annual catch 
limit the individual can harvest--associated with it. The new entrant 
would then be able to fish for that amount of quota and have the 
ability to lease or purchase additional quota from other fishermen.
    Other approaches, such as in the North Pacific, allow crew members 
to hold or lease quota, which they can fish to generate capital to 
purchase a permit, vessel, or additional quota. In another example, the 
Pacific Trawl Rationalization Program included an Adaptive Management 
Program that sets aside a specific amount of quota to be used to 
support new entrants and fishing communities' participation in the 
fishery.
    The Magnuson-Stevens Act includes LAPP provisions which allow 
Regional Fishery Management Councils to request implementation of a 
loan program to support participation of small scale fishermen and new 
entrants. To date, the North Pacific and Gulf of Mexico Councils have 
taken advantage of this option for their crab and red snapper programs, 
respectively.

    Question 2. Which of your Fishery Ecosystem Plans have resulted in 
an increased catch quota for the participating fishermen?
    Answer. The Pacific, Western Pacific, South Atlantic, Mid-Atlantic 
and North Pacific Fishery Management Councils all have fishery 
ecosystem plans, but they have quite different objectives. The Pacific 
Coast Fishery Ecosystem Plan for Federal waters off Washington, Oregon, 
and California is a coastwide policy planning tool. It details the 
Pacific Fishery Management Council's ecosystem-wide objectives for 
better understanding the status and functions of the U.S. portion of 
the California Current Large Marine Ecosystem. The Pacific Coast 
Fishery Ecosystem Plan is intended to improve Council decisions across 
fisheries by providing the Council and the public with more and better 
information about the interactions that marine species have with their 
environment, and that fisheries have with each other and with the 
marine ecosystem. This Fishery Ecosystem Plan also articulates the 
Council's broad policy priorities for marine resource management within 
the U.S. West Coast Exclusive Economic Zone, so that other agencies and 
policy processes may better account for the effects of their actions on 
the marine environment.
    The Western Pacific Fishery Management Council reorganized its 
fishery management plans in 2010, referring to them as Fishery 
Ecosystem Plans for 5 island areas. In contrast to the Pacific Coast 
Fishery Ecosystem Plan, the Western Pacific Fishery Ecosystem Plans are 
the fishery management plans under which all Magnuson-Stevens Act 
management, including annual catch limits, is implemented. The Western 
Pacific Fishery Ecosystem Plans reorganized, but did not significantly 
change, the implementing regulations for Western Pacific fisheries.
    The South Atlantic Fishery Management Council developed a Fishery 
Ecosystem Plan in 2009, which organizes information on the habitat and 
biology of species, fishery information, social and economic impacts of 
management and ecological consequences of conservation and management, 
into a reference document that will be used when developing fishery 
management plan amendments and regulations.
    The North Pacific Fishery Management Council developed an Aleutian 
Islands Fishery Ecosystem Plan in 2007 as a high level compendium of 
information--not directly impacting management. The goal of that 
Fishery Ecosystem Plan is to provide enhanced scientific information 
and measurable indicators to evaluate and promote ecosystem health, 
sustainable fisheries, and vibrant communities in the Aleutian Islands 
region.
    The Mid-Atlantic Fishery Management Council is currently developing 
an Ecosystem Approach to Fisheries Management (EAFM) Guidance Document. 
Rather than drastically change the Council's management approach, the 
final product will serve as a non-regulatory umbrella document to guide 
policy decisions as the Council transitions from single-species 
management toward an ecosystem-based approach.
    In the short term, we cannot attribute changes in catch levels, 
either up or down, in these fisheries specifically to ecosystem-based 
provisions of these Fishery Ecosystem Plans. However, the Councils 
expect that in the long term, ecosystem considerations will result in 
improved management and sustainability of the fisheries.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Marco Rubio to 
                           Dr. Donald McIsaac
    Question. Under current implementation of MSA, we put a lot of 
emphasis on conservation. Do you think we need to put more emphasis on 
the socioeconomic factors of fishery management?
    Answer. The Pacific Council strongly believes fish conservation 
should trump immediate economic yield when stock productivity is at 
stake. However, we also believe more emphasis on socio-economic 
information can improve the quality of fishery management decision-
making, and there are a number of ways that more emphasis could be 
placed on socioeconomic factors. To this end, there are needs for more 
policy flexibility around annual catch limits and rebuilding time 
frames to allow the Councils and National Marine Fisheries Service 
(NMFS) to take socio-economic considerations into account (and in some 
cases even further improve conservation); more governmental resources 
to implement policies already adopted by the Council to improve socio-
economic benefits from the fishery; and the ability to access and 
publicly release port and fishery level information in order to 
properly take into account social and economic factors in decision and 
management processes.
    The Council needs greater policy flexibility to take into account 
the needs of human systems while at the same time being responsible to 
conservation mandates. Even within a biologically stable fishery, the 
range of natural fluctuations present problems with respect to the 
needs of fishery-dependent human communities for stability and the 
generally low tolerance of human communities to economic fluctuation. 
Therefore, flexible policies are needed which allow for more 
consistency of harvest than would be commensurate with natural stock 
fluctuations while at the same time assuring long-term sustainability 
of the resource. Rigid specification and interpretation of annual catch 
limits and rebuilding policies present challenges in this regard. For 
example, for the West Coast trawl rationalization program, 
interpretation of annual catch limits has prevented implementation of 
an annual individual quota surplus carryover provision, even though the 
Council's Scientific and Statistical Committee has determined that such 
a provision would have no detrimental effect on the affected stocks. 
The carryover policy allows unused quota from one year to be carried 
over into the next. Leaving fish in the water for an extra year would 
actually have a conservation benefit, but current rigid interpretation 
of MSA language regarding annual limits prevents implementation of the 
policy. Consequently, the incentive is to harvest as much of the 
current year quota as possible to the point of risking exceeding the 
current year limits.
    Another example of a limit on the policy flexibility that Councils 
have to take into consideration socio-economic information is provided 
by the language in Section 304(e)(4)(a) of the MSA, regarding 
rebuilding an overfished species. When strictly interpreted, the 
language creates a potentially untenable situation on two counts. On 
the first count, it requires that policy be designed to achieve 
rebuilding within a time period ``as short as possible.'' While the 
section continues with language acknowledging the need to take into 
account the needs of fishing communities, the practical sensibility 
which Councils believe was intended by Congress has been interpreted by 
the Courts as nearly ignoring the needs of fishing communities until 
such time as they are in a disastrous state. Current administration of 
this requirement necessarily leads to large reductions in catch of 
directed fishery stocks that are being rebuilt, and can restrict mixed-
stock fisheries when the rebuilding stock coexists with healthy stocks. 
Even a clear demonstration of disaster-level consequences has not led 
NMFS to adequately exercise the room for discretion Congress provided 
in this area. For example, for the 2011-2012 groundfish fishery, on a 
12-0 vote (with one abstention) the Council recommended biologically 
precautionary rebuilding annual catch limits (ACLs) for yelloweye 
rockfish and cowcod that would have provided some alleviation for 
economic activity levels that were below those previously associated 
with a federally-declared disaster. Despite a policy that was 
successfully rebuilding the stocks and a recommendation that provided 
substantial economic relief through only a few tons of additional 
harvest and virtually no appreciable impact on decades-long rebuilding 
schedules, NMFS refused to implement this unanimous recommendation, 
opting instead for ACLs that were slightly lower but accompanying 
management measures that entailed greater risk of exceeding the ACLs 
than the Council's recommendations.
    The oft-cited purpose of an ``as short as possible'' rebuilding 
schedule is the anticipation of the compensating economic benefits that 
will become available when a stock is rebuilt. For situations in which 
the stock to be rebuilt has low productivity and is taken in a mixed-
stock fishery (i.e., constraining the harvest of more highly productive 
healthy stocks), it may well be that there will never be a sufficient 
jump in production to compensate for the upfront severe harvest 
reductions needed to achieve the rapid rebuilding policy objective. 
Under such circumstances, so long as a stock is not listed as 
threatened or endangered under the Endangered Species Act and is on a 
reasonable rebuilding trend, there does not appear to be either a 
biological or economic reason that rebuilding should be achieved within 
a time period ``as short as possible.'' The occurrences of such 
exceptions should be rare, but where they are so justified, the law 
should have flexibility adequate to allow for rational management of 
the fisheries.
    It is important to note that the purpose rebuilding programs are 
designed for is to increase stock sizes to provide for biological 
stability and the attendant future economic benefits to the same 
fishery-dependent communities negatively impacted (potentially to 
levels of an economic disaster, e.g., Pacific Coast groundfish in 2000) 
by the rebuilding program. It has been said that a solution may be as 
simple as changing the word ``possible'' to ``practical.'' At any rate, 
there is a need for a threshold clarification that would allow Councils 
to properly take into account important social and economic impacts to 
communities when reducing catches in a rational stock rebuilding plan.
    On the second count, 304(e)(4)(a)(ii) creates a knife edge criteria 
for rebuilding timeframes which, under certain circumstances, 
eliminates any flexibility for the consideration of socio-economic 
factors. While a strict 10-year rebuilding requirement is appropriate 
in some situations, focusing on rebuilding in a certain amount of time 
using this approach can also result in overly-restrictive fishery 
management that is illogically and unnecessarily harmful to fishermen 
and fishing communities. It is apparent that more flexibility is needed 
to optimize multiple goals. The 10-year rule, where stock rebuilding 
must occur within 10 years if possible, can lead to an unsound, 
discontinuous policy that can grossly disrupt fisheries for little 
conservation gain. If a stock can rebuild in 10 years at a cost of 
closing all fisheries, this becomes a mandate with no leeway for socio-
economic considerations. Paradoxically, the requirements for rebuilding 
a fish stock in worse condition, e.g., one that requires 11 or more 
years to rebuild with no fishing, provides for more than 11 years to 
rebuild (11 years plus the length of one generation of the species), 
with obviously less economic disruption. This is illogical and 
potentially disastrous for some fishing-dependent communities.
    The second issue of concern related to taking socio-economic 
considerations into account is a lack of governmental resources--
consideration of socio-economic factors is being thwarted by budget 
cutbacks. From a management cost perspective, a low-cost way to manage 
the fishery is to meet the biological objectives of the national 
standards using variations of the harvest regulations from past 
seasons. This is done annually or biannually when catch limits are set 
for each of the Council-managed fisheries. The greatest opportunity for 
considering socio-economic information in a meaningful fashion comes 
with respect to innovations in the harvest regulations through which 
the catch limits are achieved. The process of making innovative 
regulatory adjustments is being hampered by NMFS funding shortfalls. As 
an example, the Council has taken its final action on numerous issues 
intended to enhance benefits from the trawl rationalization program, 
but implementation of these actions has been delayed a year or more due 
to personnel shortages within the NMFS regions (in at least two cases 
delays have been more than two years). The current implementation 
backlog is down to four items, however, Council deliberations on other 
measures to take into account socioeconomic information and enhance 
benefits from the rationalized trawl fishery have been delayed for 
nearly a year due to the inability of NMFS staff to provide support.
    One of the challenges that has created lengthy implementation lags 
has been the inability of NMFS staff to fully participate during the 
policy development process in the Council arena due to travel 
restrictions and excessive workload. Limited NMFS participation as led 
to more extensive and time-consuming staff consultations later in the 
process, and, in some cases, even to Council reconsideration of an 
action, resulting only in a reaffirmation of its previous action. In 
June 2014, the Council is scheduled to begin scoping new management 
regulations to enhance benefits achieved for all sectors of the 
groundfish fishery. It is the Council's understanding that NMFS 
participation at this and following meetings is likely to be limited 
due to travel restrictions related to budget cuts.
    Ironically, the lack of funds for full NMFS participation and 
support of the Council process not only slows and makes Federal fishery 
management processes more inefficient but at the same time contributes 
to diminishment of the higher levels of fishery-related socio-economic 
benefits which would otherwise be within reach.
    The third limitation on consideration of socio-economic factors is 
confidentiality constraints. The protection of confidentiality for 
sensitive information is of serious concern to the Council and its 
constituents, as well as agency and Council staff. At the same time, 
there is a public interest in knowing total harvest and landings for a 
particular port or region--as indicated, for example, by MSA mandates 
to consider port dependence. In today's global economy, circumstances 
arise where the competitive market has allowed nearly all of the 
substantial fish buying and processing, and in some cases harvesting, 
in a particular port to occur through a single company. In a few 
instances in the past, situations have arisen where a single processing 
company was the only one active in a fishery, creating confidentiality 
problems around public release of information regarding how many fish 
remained to be harvested prior to closure of the fishery. 
Confidentiality concerns may also arise where there is a single 
harvesting co-op for a sector (e.g., the West Coast at-sea mothership 
and catcher-processor co-ops). In order to appropriately manage the 
fishery and take socio-economic factors into account, the government 
needs to be able to release the following information types of 
information: total volume (weight) catch/discards/landings of a species 
or stock caught in a particular fishery, total volume (weight) catch/
discards/landings of a species or stock caught by a particular sector, 
total volume (weight) of a species or stock landed at a particular 
port, and economic activity impact estimates for a community based on 
landings of a species or stock at a particular port.
    The confidentiality concerns with most of these statistics occur 
when there is only one significant processor/buyer in a port. For 
processors, ex-processor prices and product recovery rates are 
generally considered to be the most sensitive processor information. 
The information releases identified here would not lead to divulgence 
of such information.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                            Arnold Palacios
    Question 1. Are you concerned that the pending determination before 
NOAA of corals under the Endangered Species Act may further limit 
fishing, both commercial and recreational, in your region?
    Answer. The Council is greatly concerned about the pending ESA 
determination of corals. It cannot be emphasized strongly enough that a 
broad scale listing off 66 species as proposed by NMFS would be an 
unmitigated disaster. Most of these coral species proposed for listing 
are not rare or even under threat. There is thus no logical reason to 
ESA list all these species.
    Experience to date in the Gulf of Mexico and Caribbean has shown 
that even the listing of a few coral species can have significant 
effects on fishing and other human activities such as construction.
    The ESA brings with it a significant load of statutory baggage 
including listing critical habitat and acceptable take limits. These 
can and will be used to limit fishing on coral reefs as there are many 
environmental NGOs which have a zero-tolerance policy towards fishing, 
especially on coral reefs. Listing so many species needlessly under the 
ESA provides the perfect opportunity to seek fishing bans on coral 
reefs. Such bans would not just be sought for Federal waters but also 
for state and territorial waters since the ESA applies across the 
species range, and without regard for state/federal jurisdiction.
    Further, the impacts of fishing to corals may be both direct and 
indirect. Some fishing gears such as nets and traps are set on or 
around corals and may cause limited localized damage to coral 
substrate. As such there may be attempts to limit these gear types even 
though there is little evidence that they are doing wide-scale harm to 
corals.
    Fishing will capture both piscivorous and herbivorous fish, the 
latter of which may feed on algae growing on reefs. It might be argued 
that fishing on herbivores may lead to the proliferation of reef algae 
to the extent that it kills or limits coral growth. As such, bans on 
herbivorous fish or gears that catch large volumes of herbivores may be 
sought if corals are ESA listed. We have already seen the glimmerings 
of this type of action in the Caribbean, where a law suit was brought 
against a coral biological opinion for not considering the impacts of a 
parrot fish fishery on the corals.

    Question 2. Are the ten-year rebuilding timelines mandated in the 
last MSA reauthorization working for your Councils and the stocks you 
manage? Would it make sense to give your Council some reasonable 
latitude to deal with rebuilding stocks for which this ten year time-
frame simply doesn't make sense?
    Answer. The ten-year rebuilding timelines have not proven to be an 
issue with this Council. Only one non-pelagic fish stock has been 
evaluated as overfished (pelagic armorhead) and the only habitat where 
this species can be caught (Hancock Seamount) is subject to an ongoing 
fishing moratorium now in its 28th year.
    Pelagic species which are overfished such as Pacific bluefin tuna 
and North Pacific striped marlin are subject to the international 
exception under the MSA, as these stocks are managed under 
international fishery management arrangements promulgated by two 
Pacific tuna regional fishery management organizations. Management 
measures have been developed for these species, as well as for species 
such as Western and Central Pacific bigeye which is subject to 
overfishing but not yet overfished.

    Question 3. Under current implementation of MSA, we put a lot of 
emphasis on conservation. Do you think we need to put more emphasis on 
the socioeconomic factors of fishery management?
    Answer. Over the past 20 years, the emphasis of the MSA has been 
very much oriented towards conservation and stock recovery. The social 
and economic impacts of fishery management measures to reduce 
overfishing or recover overfished stocks have been secondary to stock 
recovery. Unfortunately, net result has been the reduction in U.S. 
domestic fisheries production, where we as a nation now produce less 
than 10 percent of the seafood consumed in the United States.
    As management to recover stocks has led to the marginalization of 
more fishermen we are importing fish and seafood from many countries 
with much less stringent fishery management. This has been dubbed the 
``Viking'' approach to conservation, i.e., careful husbandry at home 
versus rape and pillage abroad.
    The loss or downsizing of fisheries may also carry other costs 
which have yet to be determined. There are many fishermen that elect to 
fish primarily as a lifestyle choice versus maximizing incomes. What 
happens to these individuals when regulations marginalize the less 
productive fishermen from making a living? These are the kinds of 
socio-economic issues which need to be examined in depth along with the 
conservation benefits to stocks from management measures.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Marco Rubio to 
                               Joe Dazey
    Question. Do you think the agency is putting enough emphasis on 
collaborative research?
    Answer. While NOAA has scientists on its staff, I think it fails to 
utilize the potential assistance it could get from the fishing fleet, 
both recreational and commercial. The West Coast Genetic Stock 
Identification Collaboration has had funds allocated in the President's 
budget that has not survived the congressional budget process. NOAA has 
not given this project sufficient priority within its own budget to 
enable long-term (more than one year) planning. This project needs data 
collection over several generations of salmon in order to adequately 
document distributions of salmon, including endangered stocks, over 
time and space. There is potential to manage salmon stocks in a manner 
that reduces pressure on endangered stock while allowing increased 
harvest on strong stock.
    This is one example of an effort on the West Coast. The fishing 
fleet has been helpful in cleaning up oil spills in the Gulf of Mexico 
and the Gulf of Alaska. It has the ability to assist in scientific 
efforts (monitoring recovery of shellfish in the Gulf of Mexico, e.g.) 
as well. Data points such as acidity and dissolved oxygen would be 
useful to scientists and obtainable by the fleet.
    Thank you for the opportunity to comment.

                                  <all>
</pre></body></html>
